<html>
<title> - H.R. 1239 AND H.R. 2742</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 1239 AND H.R. 2742
=======================================================================

                          LEGISLATIVE HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            October 17, 2001
                               __________

                           Serial No. 107-69

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov





                        U.S. GOVERNMENT PRINTING OFFICE
75-752                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel












                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 17, 2001.................................     1

Statement of Members:
    Carson, Hon. Brad, a Representative in Congress from the 
      State of Oklahoma..........................................     1
        Prepared statement on H.R. 2742..........................     4
    Kildee, Hon. Dale E., a Representative in Congress from the 
      State of Michigan..........................................     6
    Filner, Hon. Bob, a Representative in Congress from the State 
      of California..............................................     9
        Prepared statement on H.R. 1239..........................    11
    Hayworth, J.D., a Representative in Congress from the State 
      of Arizona.................................................     5
        Prepared statement on H.R. 1239 and H.R. 2742............     6
    Hunter, Hon. Duncan, a Representative in Congress from the 
      State of California........................................     7
    Istook, Hon. Ernest J., a Representative in Congress from the 
      State of Oklahoma..........................................    29

Statement of Witnesses:
    Anoatubby, Hon. Bill, Governor, Chickasaw Nation, Oklahoma, 
      and Chairman, Native American Cultural and Educational 
      Authority..................................................    27
        Prepared statement on H.R. 2742..........................    28
    Garcia, Hon. Michael, Vice-Chairman, Ewiiaapaayp (Cuyapaipe) 
      Band of Kumeyaay Indians...................................    34
        Prepared statement on H.R. 1239..........................    36
        Responses to questions submitted for the record..........    59
    Goff, Ralph, Board Chairman, Southern Indian Health Council, 
      Inc........................................................    55
        Prepared statement on H.R. 1239..........................    56
        Responses to questions submitted for the record..........    67
    Haney, Hon. Enoch Kelly, Chairman of Appropriations, Oklahoma 
      State Senate...............................................    22
        Prepared statement on H.R. 2742..........................    23
    Humphreys, Hon. Kirk, Mayor, Oklahoma City, Oklahoma.........    20
        Prepared statement on H.R. 2742..........................    21
    Liu, Michael, Assistant Secretary for Public and Indian 
      Housing, U.S. Department of Housing and Urban Development..    30
        Prepared statement on H.R. 1239..........................    31
    McCaleb, Neal A., Assistant Secretary for Indian Affairs, 
      U.S. Department of the Interior, prepared statement on H.R. 
      2742.......................................................    19
    Smith, Wayne, Deputy Assistant Secretary for Indian Affairs, 
      U.S. Department of the Interior............................    33
        Prepared statement on H.R. 1239..........................    33
    TeSam, Steven, Chairman, Viejas Band of Kumeyaay Indians.....    51
        Prepared statement on H.R. 1239..........................    53
        Responses to questions submitted for the record..........    63
    Thompson, Tommy, Executive Director, Native American Cultural 
      and Educational Authority of Oklahoma......................    24
        Prepared statement on H.R. 2742..........................    25

Additional Materials Supplied:
    Keating, Hon. Frank, Governor of Oklahoma, statement 
      submitted for the record...................................    59








LEGISLATIVE HEARING ON H.R. 1239, TO ESTABLISH A MORATORIUM ON APPROVAL 
 BY THE SECRETARY OF THE INTERIOR ON THE RELINQUISHMENT OF A LEASE OF 
  CERTAIN TRIBAL LANDS IN CALIFORNIA; AND H.R. 2742, TO AUTHORIZE THE 
    CONSTRUCTION OF A NATIVE AMERICAN CULTURAL CENTER AND MUSEUM IN 
                        OKLAHOMA CITY, OKLAHOMA.

                              ----------                              


                      Wednesday, October 17, 2001

                     U.S. House of Representatives

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to other business, at 10:24 
a.m., in Room 1324, Longworth House Office Building, Hon. James 
V. Hansen (Chairman of the Committee) presiding.
    The Chairman. We are now ready to start our hearing. I 
welcome our colleagues, both from California, as I notice 
there. Mr. Duncan and Mr. Filner, appreciate you coming up and 
being part of this hearing today.
    We are on somewhat of a tight schedule. Mr. Carson, maybe 
you would stay right here and we will take you where you are. 
Is that okay? And Mr. J.D. Hayworth is supposed to take this 
Chair, and in the absence of Mr. Hayworth--you may have to.
    I do appreciate you being here, and we will start with the 
member of our Committee, Mr. Carson, for his opening comments.

  STATEMENT OF HON. BRAD CARSON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF OKLAHOMA

    Mr. Carson. Thank you, Mr. Chairman, and thank you for 
agreeing to hold this hearing on the Native American Cultural 
Center for Oklahoma City, Oklahoma, which is different than my 
colleagues are going to testify about as well. We are fortunate 
to have today several distinguished members from the community 
of Oklahoma City: the mayor of Oklahoma City, Kirk Humphreys; 
State Senator Kelly Haney, from Seminole, Oklahoma; and many 
other people involved in this project as well.
    I would also like to thank Ranking Member Rahall and the 
entire Committee on Resources staff for their leadership and 
their hard work in bringing this hearing to fruition.
    As an enrolled member of the Cherokee Tribe and 
representing the most Native American district in the country, 
H.R. 2742, about which I am commenting, and the Native American 
Cultural Center and Museum which is planned for Oklahoma City 
carry especially great significance for me.
    The area encompassed by the boundaries of the State of 
Oklahoma, often referred to as ``Native America,'' has had a 
special relationship with Indian Nations since long before it 
became a State in 1907. Beginning in the 1820's, the Five 
Civilized Tribes from the southeastern United States were 
relocated to Indian Territory over numerous routes, the most 
famous being the Cherokee ``Trail of Tears.'' Forced off their 
ancestral lands by State and Federal Governments, the tribes 
suffered great hardships during these rigorous trips West. This 
forced march of Eastern tribes to the West under the Indian 
Removal Act of 1830 is the best-known movement of American 
Indians to what is now Oklahoma.
    Thirty-nine tribes are recognized by my State, including 
both tribes forced to Oklahoma and tribes native to the Plains. 
These tribes collectively and individually have played an 
invaluable role in the evolution of the State of Oklahoma. The 
culture and history of Oklahoma are inseparable from that of 
the 39 recognized tribes. Nevertheless, before the creation of 
the Native American Cultural and Educational Authority of 
Oklahoma, there has been little statewide effort to recognize 
the contributions and sacrifices made by the tribes and no 
Federal effort in Oklahoma.
    In 1994, the Oklahoma Legislature, acting under the 
enlightened leadership of Senator Haney, created the Native 
American Cultural and Educational Authority to promote the 
history of Native Americans for the mutual benefit of the State 
of Oklahoma and its Indian and non-Indian citizens. By that 
legislation, the Authority was authorized and empowered to 
construct and operate a cultural center and museum on a chosen 
site in Oklahoma. Since 1994, various entities, including the 
Authority, the State Legislature, the Office of the Governor, 
Native American groups, and a stellar design team have worked 
together and developed an impressive and extensive plan for the 
creation of the Native American Cultural Center and Museum in 
Oklahoma City which three cities in Oklahoma initially bid for.
    The approximately 300-acre site, donated by Oklahoma City, 
where the center will be located, as I mentioned, will have a 
Great Promontory, a Court of Nations, a Court of the Wind, a 
Hall of the People, Permanent and Temporary Galleries, a ``Who 
We Are'' Theater, a Multi-Purpose Theater, a Demonstration 
Gallery, Family Center, Study Center, Discovery Center, a Lodge 
Hotel and Conference Center, a Visitor Center, as well as 
Dancing Grounds. As an affiliate of the Smithsonian 
Institution, the museum will be able to rotate exhibits with 
the Native American Smithsonian Museum being built in 
Washington, enriching both of the museums' collections and 
presentation.
    Some of the main goals tied to the creation of the Native 
American Cultural Center and Museum are: to link the past, 
present, and future of Indian Nations and present them to the 
visitor in a way that he or she can experience and understand 
fully; to preserve and promote the living cultures of Native 
Americans; and to strive for economic self-sufficiency and to 
engender the principles of environmental sustainability.
    This massive endeavor, representing and promoting all 39 
tribes in Oklahoma, is truly awe-inspiring and worthy of 
Federal financial and technical support. The design team 
includes Ralph Appelbaum, whose achievements include the United 
States Holocaust Museum, and Bill Fain, who helped design the 
TransAmerica building in San Francisco. Bob Schaffer, another 
member of the design team from Johnson Fain Partners, is in the 
audience today. This world-class team--and I ask anyone to look 
at the design, and you will truly be astounded. That team has 
enjoyed the support of the entire delegation from Oklahoma as 
well as our Governor, Frank Keating.
    H.R. 2742 would authorize the appropriation of $33 ml over 
a period of 4 fiscal years beginning in 2003. However, 
appropriation of Federal dollars is contingent upon private, 
city, and State sources accounting for 66 percent of the total 
cost. Thus, the center is neither wholly dependent upon Federal 
funds nor given access to Federal funds until a local 
commitment has been adequately demonstrated. Nevertheless, 
Federal funds are necessary and are reasonable.
    Given the Federal Government's significant role, indeed 
responsibility, in relocating many of the 39 tribes now a part 
of Oklahoma, it seems more than appropriate for the Federal 
Government to award grants to the Native American Cultural and 
Educational Authority for the development of this museum 
committed to preserving the history and culture of these 
tribes.
    Furthermore, a precedent has been set for the Federal 
funding of State museums, not to mention today when we just did 
that for the State of Utah. Other examples include the 
Steamtown Railroad Museum in Pennsylvania which was 
appropriated $80 million in Federal funds.
    In conclusion, as you will see from the testimony of Mayor 
Humphreys, Senator Kelly Haney, Governor Bill Anoatubby of the 
Chickasaw Nation, and Tommy Thompson of the Native American 
Authority, such a museum is not only necessary for the 
preservation of Indian cultures, but it carries deep 
significance in the State of Oklahoma.
    I appreciate this opportunity to make some comments. Mr. 
Chairman, I know you represent a district with many Native 
Americans as well, indeed, the one in which I was born when my 
father worked for the Navajo Tribe. And I think, as Felix Cohen 
said in his ``Authoritative Guide to Indian Law,'' how we treat 
Native Americans is really the canary in the mine shaft that 
says how strong our democracy will be.
    It is a great move today to finally celebrate and promote 
what for so long in this country we have denigrated and 
destroyed. I would ask for this Committee's support in doing 
that.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Carson follows:]

 Statement of Hon. Brad Carson, a Representative in Congress from the 
                           State of Oklahoma

    I would like to begin by expressing my sincere appreciation to 
Chairman Hansen, Ranking Member Rahall, and the entire Committee on 
Resources staff for their leadership and hard work in bringing this 
hearing to fruition. As an enrolled member of the Cherokee Tribe and 
representing the most Native American district in the country, H.R. 
2742 and the Native American Cultural Center and Museum, planned for 
Oklahoma City, Oklahoma, carry great significance for me.
    The area encompassed by the boundaries of the State of Oklahoma, 
often referred to as ``Native America,'' has had a special relationship 
with Indian Nations since long before it became a State in 1907. 
Beginning in the 1820s, the Five Civilized Tribes from the southeastern 
United States were relocated to Indian Territory over numerous routes, 
the most famous being the Cherokee ``Trail of Tears.'' Forced off their 
ancestral lands by state and federal governments, the tribes suffered 
great hardships during the rigorous trips west. This forced march of 
Eastern tribes to the West under the Indian Removal Act of 1830 is the 
best-known movement of American Indians to what is now Oklahoma. 
Thirty-nine tribes are recognized by the state, including both tribes 
forced to Oklahoma and tribes native to the Plains. These tribes 
collectively and individually have played an invaluable role in the 
evolution of the State of Oklahoma. The culture and history of Oklahoma 
are inseparable from that of the 39 tribes. Nevertheless, before the 
creation of the Native American Cultural and Educational Authority of 
Oklahoma, there has been little statewide effort to recognize the 
contributions and sacrifices made by the tribes and no federal effort 
in Oklahoma.
    In 1994, the Oklahoma Legislature created the Native American 
Cultural and Educational Authority to promote the history of Native 
Americans for the mutual benefit of the State of Oklahoma and its 
Indian and non-Indian citizens. By that legislation, the Authority was 
authorized and empowered to construct and operate a cultural center and 
museum on a chosen site in Oklahoma. Since 1994, various entities, 
including the Authority, the State Legislature, the Office of the 
Governor, Native American groups, and a stellar design team have worked 
together and developed an impressive and extensive plan for the 
creation of the Native American Cultural Center and Museum in Oklahoma 
City which three cities in Oklahoma initially bid for.
    The approximately 300 acre site, donated by the Oklahoma City, 
where the Center will be located, will have a Great Promontory, a Court 
of Nations, a Court of the Wind, a Hall of the People, Permanent and 
Temporary Galleries, a ``Who We Are'' Theater, a Multi-Purpose Theater, 
a Demonstration Gallery, Family Center, Study Center, Discovery Center, 
a Lodge Hotel and Conference Center, a Visitor Center, and Dancing 
Grounds. As a Smithsonian affiliate, the museum will be able to rotate 
exhibits with the Native American Smithsonian Museum being built in 
Washington, enriching both of the museums' collections.
    Some of the main goals tied to the creation of the Native American 
Cultural Center and Museum are as follows:

    1. LTo link the past, present and future of Indian Nations and 
present them to the Visitor in a way that he or she can experience and 
understand fully.
    2. LTo preserve and promote the living cultures of Native 
Americans, in language and history, dance, arts, cultural values and 
spirituality.
    3. LAnd to strive for economic self-sufficiency and to engender the 
principles of environmental sustainability.

    This massive endeavor, representing and promoting all 39 tribes in 
Oklahoma, is truly awe inspiring and worthy of federal financial and 
technical support. The design team includes Ralph Appelbaum, whose 
achievements include the United States Holocaust Museum, and Bill Fain, 
who helped design the TransAmerica building in San Francisco. Bob 
Schaffer, another member of the design team from Johnson Fain Partners, 
is in the audience today. This world class team has enjoyed the support 
of Governor Keating of Oklahoma, Senators Nickles, Inhofe, and 
Campbell, the Oklahoma State Legislature, and Representatives Watkins, 
Watts, Largent and Istook of the Oklahoma Delegation, to name a few.
    H.R. 2742 would authorize the appropriation of $33 million dollars 
over a period of four Fiscal Years beginning in 2003. However, 
appropriation of federal dollars is contingent upon private, city and 
state sources accounting for 66% of the total cost. Thus, the Center is 
neither wholly dependent upon federal funds nor given access to federal 
funds until a local commitment has been adequately demonstrated. 
Nevertheless, federal funds are necessary and are reasonable. Given the 
federal government's significant role in relocating many of the 39 
tribes now a part of Oklahoma, it seems more than appropriate for the 
federal government to award grants to the Native American Cultural and 
Educational Authority for the development of this museum committed to 
preserving the history and culture of these tribes. Furthermore, a 
precedent has been set for the federal funding of state museums. To 
name a few examples, from 1986 to 1994, the Steamtown Railroad Museum 
in Pennsylvania was appropriated $80 million in federal funds. From 
1996 to 1997, the Hispanic Cultural Center in New Mexico was 
appropriated $16 million. And, under the Omnibus Indian Advancement Act 
of the 106th Congress, appropriations amounting to over $18 million 
dollars were authorized for the Wakpa Sica Reconciliation Place in Fort 
Pierre South Dakota.
    In conclusion, as you will see from the testimony of Mayor 
Humphreys, Senator Kelly Haney, Governor Anoatubby of the Chickasaw 
Nation, and Tommy Thompson of the Native American Authority such a 
museum is not only necessary for the preservation of Indian cultures, 
but it carries deep significance in the State of Oklahoma.
    Thank you again Mr. Chairman and Mr. Rahall. I truly appreciate the 
opportunity to testify before this Committee on this subject.
                                 ______
                                 

 STATEMENT OF HON. J.D. HAYWORTH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Hayworth. [Presiding.] I thank the gentleman from 
Oklahoma for his explanation of the proposed legislation and 
look forward to hearing from the panel, and I appreciate the 
fact that for purposes of full disclosure, he pointed out that 
he was born in what is now the 6th Congressional District of 
Arizona, I believe in Winslow, if I am not mistaken.
    I appreciate the fact that so many of our colleagues have 
joined us on this first panel. If I could offer an opening 
statement, then I will turn to my friend, the ranking member, 
from Michigan.
    As we have this first full Committee hearing on Native 
American issues and as co-Chair of the Native American Caucus 
along with my friend from Michigan, it has been true that over 
the years we have kept active on Native American issues on a 
bipartisan basis. Once again, it is my honor and opportunity to 
rejoin the Resources Committee and have a great responsibility 
to effect Indian policy through this legislative process.
    As has been pointed out already from the gentleman born in 
Arizona, now representing Oklahoma, Native American issues are 
important to Arizona, Oklahoma, Michigan, and the 47 other 
States, and I am honored to once again have a critical role in 
assuring that the proposed legislation and the other issues are 
heard before this Committee.
    As the Chairman of the full Committee may have pointed out 
earlier, we are going to be hearing testimony on two bills.
    H.R. 1239, to establish a moratorium on approval by the 
Secretary of Interior of a relinquishment of a lease of certain 
tribal lands in California, introduced by our friend 
Congressman Duncan Hunter. Congressman Hunter introduced H.R. 
1239 to provide a time period during which all groups and 
individuals impacted by the changes to the location of the 
health clinic might fully understand the ramifications of the 
relinquishment/lease agreement that will lead to the changes. 
At issue is land taken into trust by one tribe for the purpose 
of location a health clinic that provides service to seven 
southern San Diego Indian tribes and the surrounding non-Indian 
community. The tribe now desires to change the use of the land 
from a health care facility to a gaming facility while 
providing continued and improved health care. By changing the 
use of the land, the health clinic and those is serves will be 
impacted. This hearing is designed to provide information to 
all the affected parties.
    The second piece of legislation, H.R. 2742, wonderfully 
explained by the gentleman from Oklahoma in his opening 
statement, talks about establishing a Native American Cultural 
Center and Museum in Oklahoma City, and so we appreciate his 
efforts there.
    I would turn at this juncture--oh, one final note before 
turning to the ranking member for his statement. I would ask 
unanimous consent that Congressman Hunter, once he finishes his 
them, and Congressman Knollenberg of Michigan be allowed to 
join members of the Committee on the dais and participate in 
the hearing. Is there objection? Hearing none, it is so 
ordered, as we continue apace.
    Now we turn to our good friend from Michigan, the ranking 
minority member.
    [The prepared statement of Mr. Hayworth follows:]

Statement of the Hon. J.D. Hayworth, a Representative in Congress from 
                          the State of Arizona

    Good morning. Welcome to the first Full Committee hearing on Native 
American issues. As Co-Chair of the Native American Caucus I have kept 
active in Native American issues. Now, once again as a Member of the 
Resources Committee, I have the opportunity to effect Indian policy 
through the legislative process. Native American issues are very 
important to my constituents as well as to me and I am pleased that I 
have a critical role in assuring that they are heard before this 
Committee.
    We will be hearing testimony on two bills this morning. The first 
bill, H.R. 1239, To establish a moratorium on approval by the Secretary 
of the Interior of relinquishment of a lease of certain tribal lands in 
California, was introduced by Congressman Duncan Hunter. Congressman 
Hunter introduced H.R. 1239 to provide a time period during which all 
groups and individuals impacted by the changes to the location of the 
health clinic might fully understand the ramifications of the 
relinquishment/lease agreement that will lead to these changes. At 
issue is land taken into trust by one tribe for the purpose of locating 
a health clinic that provides service to seven southern San Diego 
Indian tribes and the surrounding non-Indian community. The tribe now 
desires to change the use of the land from a health care facility to a 
gaming facility while providing continued and improved health care. By 
changing the use of the land, the health clinic and those it serves 
will be impacted. This hearing is designed to provide information to 
all affected parties.
    The second bill, H.R. 2742, To authorize the construction of a 
Native American Cultural Center and Museum in Oklahoma City, Oklahoma, 
was introduced by a member of this Committee, Congressman Brad Carson. 
H.R. 2742 directs the Secretary of the Interior to offer to award 
financial assistance grants and technical assistance to the Native 
American Cultural and Educational Authority of Oklahoma for the 
development of the Native American Cultural Center and Museum in 
Oklahoma City, Oklahoma. The total amount of funding shall not exceed 
$33,000,000 We look forward to learning more about this project from 
today's witnesses. I now yield to the Ranking Democrat for an opening 
statement.
                                 ______
                                 

STATEMENT OF HON. DALE E. KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. I thank the Chairman and also the co-Chair of 
the Native American Caucus, along with myself. I look forward 
to hearing the testimony on 1239, and I will have some 
questions of the witnesses. And I would like to go on record 
reporting 2742 as introduced by our friend from Oklahoma. This 
has the support of the Native American Caucus in the Congress, 
which consists of 105 members. It has the support of Governor 
Keating of Oklahoma, Senators Nickles, Inhofe, Campbell, the 
Oklahoma State Legislature, Representatives Watkins, Watts, 
Largent, Istook, and the Oklahoma delegation. I think you have 
done a very good job in putting this all together and I support 
you on that.
    I look forward to the testimony of our other colleagues.
    Mr. Hayworth. And I think the ranking member and, of 
course, other members, as is our practice, can submit their 
opening statements for the record.
    Now we turn to a dynamic duo from the State of California. 
We thank them for their patience to testify here on panel one, 
and we will first hear from our friend, Congressman Duncan 
Hunter. Congressman Hunter?

 STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Hunter. Thanks for allowing us to appear before you. I 
know you have got a number of people that want to talk on this 
issue, and let me try to summarize my remarks. I don't have a 
prepared statement, but I want to kind of paint a picture for 
you with respect to this issue and perhaps take a few minutes 
on the dais with you.
    If I could ask Tom to give to you my letter of 1985, June 
13th of 1985, I think it lays this issue out fairly 
effectively. It gives you a good background.
    Back in 1985, the seven tribes in my congressional district 
were part of what is known as the Southern Indian Health 
Council, and at that point we had very temporary facilities for 
the Health Council. And they came to me and informed me that 
they needed to have a permanent Indian Health Council clinic 
that was centrally located and convenient to all tribes, and 
also that it would be available to folks that lived in Alpine, 
California, a small community on Highway 8 heading directly 
toward your district, Mr. Chairman, about 15 miles out of what 
is known at Greater San Diego.
    After we were looking around for a piece of land--and, in 
fact, in this letter, as you can see, it says--and this is a 
letter to the Acting Assistant Secretary of the Interior for 
Indian Operations, BIA, of 1985. It basically laid out what I 
have just told you, that we have a number of reservations and 
the Indian Health Council does not feel that it has adequate 
facilities. And, therefore, we had been searching and had found 
an 8.5-acre or 8.6-acre tract in Alpine.
    I want you to kind of visualize this, if the members could 
kind of think about this. The tribes lay around the eastern 
portion of San Diego County, some of them 20, 30, 40, 50 miles 
from Greater San Diego. The Cuyapaipe Tribe in whose name we 
bought this 8.6-acre piece of land, is about 40 miles from the 
town of Alpine itself. So their reservation is about 40 miles 
from the area where we bought the 8.6-acre piece of land. And 
the other reservations are, some of them, a few mile away, some 
of them many miles away.
    But we bought this piece of land specifically for putting 
the Indian Health Council, Southern Indian Health Council 
clinic at that location and constructing it. And as I stated--
and I am looking at the fourth paragraph of this letter in 
1985--I wholeheartedly endorse the SIHC's proposal to acquire 
this 8.6-acre tract upon which they intend to construct a new 
medical center to serve all seven reservations within the 45th 
Congressional District, San Diego County.
    Since time is pressing, I believe it is essential that we 
move at once to initiate the site acquisition process. Toward 
this end, I strongly urge you to take whatever action is 
necessary to expedite placing this 8.6-acre tract in trust by 
the Department of the Interior for the Cuyapaipe Reservation so 
that the construction of a new health center can begin in a 
timely manner.
    Last paragraph: It is also important to note here that the 
Cuyapaipe Reservation and the SIHC, the Health Council, has 
successfully secured a $446,000 grant from the Federal 
Department of Housing and Urban Development, HUD, to be used 
for the new medical center.
    So we bought this piece of land specifically for a medical 
center to be used for the benefit of all seven tribes. And HUD 
money was obtained, at least according to this letter, before 
the purchase of the property itself.
    It is a little bit for us--and let me just say all parties 
here I think are to be commended for the way they have pursued 
this issue. The Cuyapaipe have done this. They have pursued 
this in a businesslike manner with integrity. So have the other 
tribes, including those who oppose placing a casino on this 
particular piece of land.
    Well, time marched on, Mr. Chairman, and as we all know, 
casino operations became in vogue in California, as they did in 
other places. And the Cuyapaipe at one point--and they are 
going to explain their case, I think very effectively--were 
approached about taking the health clinic and converting that 
piece of land, that 8.6 acres that is 40 miles from their 
traditional reservation into a casino on the outskirts of 
Alpine, California, and moving the health clinic or maybe 
moving it to another piece of property or moving it to the back 
of the property, but continuing to maintain a health clinic at 
some location. In fact, they have described, I think, a very 
attractive health clinic package if they were allowed to place 
a casino on this location.
    Well, you have got seven members in this Indian Health 
Council, and two of the members, Barona and Viejas, objected to 
relinquishing the 25-year lease that the Health Council took 
from the Cuyapaipe who had the pink slip on this land. The 
Cuyapaipe then applied to the Health Council to allow the lease 
to be relinquished, and in a majority vote, with two of the 
members--that is, Viejas and Barona--voting no, but my last 
information is in a majority vote the Health Council agreed to 
relinquish this piece of land.
    Now, here are the issues from my perspective. One is that 
it is still unclear as to exactly what role the community 
development block grants played in the acquisition of the 
health clinic property. Were they used to purchase the 
property? That was the initial response from the administration 
a couple of years ago when we first looked at this issue. 
Later, the Cuyapaipe brought in evidence that tended to rebut 
that, that actually one of the members of the tribe had come up 
with some cash and that was the down payment.
    The other aspect of the utilization of the community 
development block grant money was that it was used as 
collateral for the acquisition of the 8.6 acres. Certainly it 
was definitely used to construct, obviously, the health clinic.
    So an issue of whether or not taxpayer dollars were used in 
direct purchase or as collateral for this property is I think 
at issue and something we could explore today.
    But the second aspect is this: We are now, I think, pretty 
familiar with the autonomy that is accorded reservations 
throughout this country that allow them to undertake operations 
that would not be allowed if they were private citizens using 
private property. And that autonomy, I think, is something that 
used to be respected, and we have respected it in California, 
and you know that we now have gaming operations in a number of 
reservations in California.
    On the other hand, the idea of extending that philosophy to 
allow a tribe which is located 50 miles away from an urban area 
to purchase a small piece of property within the urban area at 
a location that will avail itself of greater traffic and 
greater utilization and place that property in trust--and, 
obviously, at the time nobody intended to build a casino on the 
property. I think that is very clear. The intent was to have it 
in an urban area because that was the ideal place to have a 
health clinic, not 50 miles out from the urban area. So to go 
50 miles from the reservation and purchase a small piece of 
property for purposes of having a health clinic and then 
convert that into a casino operation at a later date I think to 
some degree moves beyond the idea and the principle of 
reservations being able to have autonomy and do with trust land 
what they want to do, even though it in some cases would 
conflict, if it was private land, with the local laws and State 
laws.
    So it is a somewhat unusual case, Mr. Chairman. That is a 
brief illustration of the issues and the background, and we 
look forward to answering any questions that you folks might 
have, and also listening to the tribal members who are going to 
testify soon.
    Thanks.
    Mr. Hayworth. I thank my colleague from California.
    Now we turn to his neighbor, who joins him there as a 
witness, our friend Bob Filner, also of California.

STATEMENT OF HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Filner. I thank the Chairman. We recently went through 
redistricting in California, and I was moved all the way to the 
Arizona border. But I didn't know I had been moved all the way 
to Oklahoma. I am sure Mr. Carson would like additional 
Democratic help, but--
    Mr. Hayworth. Wishful thinking on the part of the gentleman 
from Oklahoma.
    Mr. Carson. Most of my constituents moved out there about 
50 years ago, Bob.
    [Laughter.]
    Mr. Filner. That is why I am a Member of Congress. Thank 
you.
    I am here to support Duncan Hunter's bill, H.R. 1239, and 
our colleagues from San Diego County, Duke Cunningham and 
Darrell Issa. And you know, Mr. Chairman, if Hunter and Filner 
agree, there probably should not be any opposition.
    Mr. Hayworth. There could even be peace in our time.
    Mr. Filner. I think Mr. Hunter explained the controversy 
amongst the group of Indian tribes in San Diego County as to 
the disposition of this health clinic. Last year, in fact, an 
identical bill passed the House unanimously with the support of 
both the Republican and Democratic sides of this Committee, and 
I hope you will take similar action this year.
    Mr. Hunter testified to the importance of the health clinic 
in question, and everybody agrees to that importance. I would 
urge this Committee to focus on making sure that any changes 
that affect the health clinic be the subject of consensus 
amongst the tribes and in the interest of all people, Indian 
and non-Indian, who depend on this facility.
    This is not a gaming issue. I don't believe you will hear 
testimony from anyone today who doesn't support the sovereign 
rights of tribes to conduct gaming operations on tribal lands 
if they so desire. Most gaming questions involve balancing the 
rights of the tribes with the rights of States or the Federal 
Government. This issue focuses on the rights, responsibilities, 
and obligations tribes have with respect to each other. The 
land in question was taken into trust at the request of seven 
tribes, with the support of seven tribes, and for the benefit 
of seven tribes. It would never have been taken into trust for 
the benefit of any one tribe, particularly for the purpose of a 
gaming facility.
    But I would emphasize that H.R. 1239 is not about 
prohibiting or restricting gaming on the site. Its purpose is 
to foster discussion and hopefully consensus amongst the tribes 
before the clinic can be used for any other purpose--whether it 
is gaming or a shopping mall or a parking lot.
    I submit, as have others, that the Bureau of Indian Affairs 
erred back in the mid-1980's when it decided to take a parcel 
into trust for seven tribes but only title it to one, and the 
Jamul and Manzanita Tribes showed considerable foresight when 
they opposed that. Of course, the error is easy to understand, 
as the decision was made in the days before Indian gaming took 
hold on any large scale. It is hard to blame the BIA for 
failing to foresee a day when one tribe might seek to use the 
parcel for any use other than a health clinic.
    However, my California colleagues and I have written to BIA 
urging them not to approve the lease relinquishment as long as 
controversy continues to surround it, and with representatives 
from BIA in the room, let me re-emphasize that point. As I 
said, it is easy to understand the failure to foresee potential 
problems back in 1985. However, it will be far harder to 
understand if that agency now takes precipitous action to 
exacerbate those problems.
    H.R. 1239 is an effort to partially correct the 
administrative error by requiring consensus amongst the tribes 
before the property use can be changed. This does not give all 
seven tribes equal title to the parcel, but it does give all 
seven tribes equal say over how that parcel will be used, if it 
is to be used for anything other than the original purpose.
    It is my understanding that this Committee will hear 
testimony to the effect that the change in land use will 
actually provide better care for the users of the clinic than 
today. If this is the intent of the Cuyapaipe tribe, that is 
good news, and you ought to consider that. However, I would 
urge the Committee to make sure that any promises of improved 
health care be specific and enforceable and that the resources 
for improved health care are assured regardless of the fate of 
any casino.
    I am aware that some information is available in the 
proposed lease between Cuyapaipe and the Southern Indian Health 
Council, but my concern is that the other tribes have no 
recourse should the conditions in that lease not be met. As I 
understand the issue, if the BIA approves the lease 
relinquishment, only one thing is certain: A casino will go up 
on a site that was designed for a health clinic. To the extent 
that the Committee can put additional commitments from the 
Cuyapaipe Tribe, the Health Council and the investor into a 
record, this Committee will have served our constituents.
    However, even if every promise from supporters of the 
casino is true, and even if they were enforceable, I would 
still have concerns about the propriety of allowing the change 
in land use in the absence of consensus amongst the tribes as a 
matter of principle. Another benefit that may come from this 
hearing is that the give and take between the two tribes at the 
center of this controversy might be the first step toward 
achieving that consensus.
    Mr. Chairman, I thank the Committee for your attention. 
These matters are critical to our county. I know that this 
Committee has many issues to consider, and thank you for 
focusing on this one. Hopefully, with your oversight and 
intervention, we can take this controversial matter and make it 
one of consensus and reach a resolution that all will agree to.
    I thank the Chair.
    [The prepared statement of Mr. Filner follows:]

Statement of the Hon. Bob Filner, a Representative in Congress from the 
                          State of California

    Mr. Chairman and Members of the Committee, I would like to thank 
you for this opportunity to testify on the subject of H.R. 1239, which 
I cosponsored along with my California colleagues, Duncan Hunter, Duke 
Cunningham and Darrell Issa. As you know, this legislation seeks to 
address a controversy among a group of Indian tribes in San Diego 
County, as to the disposition of an Indian health clinic. Last year, an 
identical bill passed the House unanimously with the support of both 
the Republican and the Democratic sides of this committee. I hope the 
committee will take similar action this year.
    Mr. Hunter testified as to the importance of the health clinic in 
question for people in San Diego County, and I would add my unqualified 
agreement. I would urge this committee to focus on making sure that any 
changes that affect the health clinic be the subject of consensus among 
the tribes, and in the interest of all people, Indian and non-Indian, 
who depend on the facility.
    Let me state my strong opinion that this is not a gaming issue I 
don't believe you'll hear testimony from anyone today who doesn't 
support the sovereign rights of tribes to conduct gaming operations on 
tribal lands if they decide to do so. Most gaming questions involve 
balancing the rights of tribes with the rights of states or the federal 
government. This issue focuses on the rights, responsibilities, and 
obligations tribes have with respect to each other. The land in 
question was taken into trust at the request of seven tribes, with the 
support of seven tribes, and for the benefit of seven tribes. It would 
never have been taken into trust for the benefit of any one tribe, 
particularly for the purpose of a gaming facility.
    But I would emphasize that H.R. 1239 is not about prohibiting or 
restricting gaming on the site it's purpose is to foster discussion, 
and hopefully consensus among the tribes before the clinic site can be 
used for any other purpose whether gaming, a shopping mall or a parking 
lot.
    I submit, as have others, that the Bureau of Indian Affairs (BIA) 
erred back in the mid-1980's when it decided to take a parcel into 
trust for seven tribes and only title it to one, and the Jamul and 
Manzanita Tribes showed considerable foresight when they opposed this. 
Of course, the error is easy to understand, as the decision was made in 
the days before Indian gaming took hold on any large scale. It is hard 
to blame the BIA for failing to foresee a day when a tribe might seek 
to use the parcel for any use other than as a health clinic.
    However, my California colleagues and I have written to BIA urging 
them not to approve the lease relinquishment as long as controversy 
continues to surround it, and with representatives from BIA in the 
room, let me re-emphasize that point. As I said, it is easy to 
understand BIA's failure to foresee potential problems from the 
perspective of 1985; however it will be far harder to understand if 
that agency now takes precipitous action to exacerbate those problems.
    H.R. 1239 is an effort to partially correct that administrative 
error by requiring consensus among the tribes before the use of the 
property can change this does not give all seven tribes equal title to 
the parcel, but it gives all seven tribes equal say over how that 
parcel will be used, if it is to be used for anything other than its 
original purpose.
    It is my understanding that the committee is likely to hear 
testimony to the effect that the change in land use will actually 
provide better care for the users of the clinic than they have access 
to today. If this is the intent of the Cuyapaaipe tribe, that is good 
news, and news that deserves to be considered. However, I would urge 
this committee to make sure that promises of improved health care are 
specific and enforceable, and that the resources for this improved 
health care are assured regardless of the fate of the casino. I am 
aware that some information is available in the proposed lease between 
Cuyapaaipe and the Southern Indian Health Council (SIHC), but my 
concern is that the other tribes have no recourse should the conditions 
in that lease not be met. As I understand the issue, if the BIA 
approves the lease relinquishment, only one thing is certain: A casino 
will go up on a site that was designed for a health clinic. To the 
extent that the committee can put additional commitments from the 
Cuyapaaipe tribe, the SIHC and the investor into a record, the 
committee will have served my constituents well.
    However, even if every promise from supporters of the casino is 
true, and even if they each were enforceable, I would still have 
concerns about the propriety of allowing the change in land use in the 
absence of consensus among the tribes, mainly as a matter of principle. 
Another benefit that may come from this hearing is that the give-and-
take between the two tribes at the center of this controversy might be 
the first step toward achieving that consensus, and making the 
legislation unnecessary.
    Mr. Chairman, I thank the committee for its attention to these 
matters at this critical juncture. I know that this committee has many 
issues to consider, and I appreciate your focusing on one of importance 
to my constituents. Hopefully, with your oversight and intervention, we 
can take a matter of controversy and turn it into a matter of 
consensus, and reach a resolution satisfactory to all involved.
    Once again, thank you for the opportunity to testify.
                                 ______
                                 
    Mr. Hayworth. Congressman Filner, we thank you for your 
testimony, likewise Congressman Hunter, and, again, for 
purposes of full disclosure, the nickname ``Zonies'' is often 
applied to Arizonans who come to San Diego County during the 
summer months. So we have more than a casual concern about what 
transpires in your respective districts.
    Mr. Hunter. We welcome you.
    Mr. Hayworth. Thank you very much.
    Mr. Filner. But go home afterward.
    Mr. Hunter. No, don't go home. We want lots of Zonies.
    Mr. Hayworth. Well, already mixed messages start from the 
panelists.
    Mr. Hunter. Come to my district.
    Mr. Hayworth. Okay. Congressman Hunter, I thank you for 
providing the correspondence here. Just one note. In 1985--and, 
of course, you came here, you are a venerable member of this 
institution, I believe, having been elected in 1980. But fill 
me in on legislative history.
    As I look at the State, in 1985, that obviously occurred 
before the Indian Gaming Regulatory Act was passed by the 
Congress of the United States.
    Mr. Hunter. Yes, and, Mr. Chairman, that is why I provided 
this letter, because the letter, I think, clearly shows the 
intent of all parties. The tribes all came to me, all seven 
tribes, and said we desperately need a permanent health clinic 
for the Southern Indian Health Council, and that is why we need 
to buy the property. And that was clearly why we got the 
community development block grant money, and we had that really 
in hand before we purchased the property.
    And let me just say, all parties come here, I think, with 
good will, and certainly the situation changed, and nobody 
anticipated that we would have gaming and we would have these 
issues before us. But it is very clear that this piece of 
property was acquired specifically for a health clinic. It is 
in an urban area. And the reservation that got the pink slip to 
this property--and I think it is reasonable that one of them 
held title. That was easier than having all seven tribes hold 
title. They were all working together in a friendly manner, and 
so the seven members understood they would get a lease. And I 
think it is $1 a year that they leased it from the Cuyapaipe.
    So the idea that one tribe would hold title was something 
that was done for convenience, and certainly without 
anticipation that at some point the one tribe that held the 
pink slip would say now we want to use it for gaming and we are 
going to move the health clinic back or off.
    And so it is clear that that was the purpose, Mr. Chairman, 
and I think that is probably the most compelling reasons not to 
allow this casino to be constructed on this small piece of 
land. It is not a part of the traditional reservation. It is in 
the urban area 50 miles away. And two of the members of the 
Health Council--that is, Barona and Viejas--who I think will 
testify before you, who had an interest in this, who helped put 
this thing together, opposed this. And I think even if they 
didn't oppose it, I think that you have a strong question of 
policy here. And the question of policy--and we are going to 
see this more and more. You are going to see tribes that have 
5-acre pieces, 6-acre pieces, and other small pieces, what I 
call to some degree promoter gaming operations that will be 
identified that are in strategic locations. And in some cases, 
they will be separated from the reservation by some distance.
    In this case, this place is separated from the traditional 
reservation by almost 50 miles. And I think that we have an 
interest in preserving the autonomy that attaches to the 
traditional reservation. Indeed, I have sponsored legislation 
in the past that has added contiguous land that was owned by 
the Forest Service and BLM to almost all the reservations in 
San Diego County. We have turned over some 5,000 acres that 
bordered them because it was more convenient for them to 
administer the land than for other Federal agencies.
    But to go 50 miles away to an urban area, have a 
strategically located corner, and place that land in trust and 
then convert a health clinic to a casino I think goes beyond 
the intent of the law that accords now this autonomy that 
allows gaming to take place on reservations. So I think you 
have a philosophical question here.
    Mr. Hayworth. And, of course, Congressman Hunter, changing 
conditions, changing laws necessitate the presence of us being 
here today.
    Just a couple of things, tomato/tomato, Ewiiaapaayp/
Cuyapaipe, I am getting different pronunciations here.
    Mr. Hunter. Cuyapaipe.
    Mr. Hayworth. Okay. I will go with your pronunciation.
    Mr. Hunter. I am going to wait until they come up and let 
them--
    Mr. Hayworth. Well, let me ask you, does that band, in 
fact, have a gaming compact with the State of California?
    Mr. Hunter. No, to my knowledge, no.
    Mr. Hayworth. Okay.
    Mr. Hunter. And I will let them testify.
    Mr. Hayworth. Okay. One thing about the Cuyapaipe, has the 
band agreed to build new health facilities to replace the 
existing ones?
    Mr. Hunter. Yes. They came in and laid down a very 
attractive package which would--initially we were going to--
they were going to move, have a health clinic in the back of 
the property. But I think the new proposal is to have--and I 
will let them explain that, but to have a health clinic on a 
piece of adjoining property or adjacent property and, in fact, 
to expand health care services.
    And, incidentally, right now about 60 percent of the folks 
that use the health clinic are non-members, so the health 
clinic itself performs a vital function in East County San 
Diego.
    Mr. Hayworth. Further amplifying that, has the Cuyapaipe 
band agreed to build and open those new facilities before the 
existing ones are closed down?
    Mr. Hunter. I think that they will. I mean, I think that 
is--that is my memory of the briefing that they brought in and 
laid down several months ago, that they--I think the 
Cuyapaipe--and I will certainly let them speak for themselves. 
I think that they are anxious to accommodate the community and 
the Indian Health Council, the other six tribes, with just 
about anything that is requested, as long as they are allowed 
to build a casino.
    Mr. Hayworth. I really thank my colleague from California, 
and I appreciate his remarks saying that people are trying to 
deal with this issue with the best of intentions. And I am even 
encouraged to see Brother Filner here alongside Mr. Hunter, as 
I mentioned earlier, to see the bipartisanship. It is 
indicative of what happens on this Committee, and that is why I 
turn to the ranking member now from Michigan from any questions 
he might have.
    Mr. Kildee. Thank you, Mr. Chairman. I appreciate the time 
you have yielded to me.
    Let me ask the sponsor of the bill, Mr. Duncan--we have 
served together in this Congress for many, many years. I think 
I came a few years before you, but you have been here a long, 
long time also, and we have worked together on many issues. Why 
should Congress inject itself into the matters of seven 
sovereign tribes and the affairs of a California nonprofit 
corporation? The California nonprofit corporation has seven 
entities, votes in that. Why should we inject ourselves into 
their decision? Why should Congress do that?
    I have been involved in Indian matters now, Duncan, as a 
legislator, as a lawmaker, for 37 years. And I think we set a 
bad precedent when we--especially when the BIA has a procedure 
to address these matters, for Congress to inject itself into 
matters involving several Indian tribes, when they have the 
ability to work it out themselves, why should Congress inject 
itself?
    Mr. Hunter. Yes, I would say to my colleague--and I 
certainly respect him, and you are right, we were here a long 
time before Mr. Filner came here from Oklahoma.
    For this reason, Dale: It is very clear that when I was 
approached by the tribes to secure this land for a health 
clinic, no one intended nor did I intend that this would become 
a casino. And so in this case, we did something with an 
intent--kind of an unusual thing because this--we placed this 
land in trust for a tribe which is located many, many miles 
away. We basically gave them a small reservation in a 
community. And the reason we did that was specifically because 
it was a central location for all the people to come for health 
care, not for gaming but for health care.
    And so if I had been approached in 1985 by somebody who 
said we have a proposition, Congressman Hunter, we want you to 
help us get 8 acres in Alpine, California, in the town at a 
strategic location so we can open a casino, my answer would 
have been no. But the question was: We have a compelling need 
for health care. As you noted, I use the word ``urgent'' in 
here, and I was strongly convinced of that case. And because of 
that, we went and not only got the property, but we got 
taxpayer money, community development block grant money to 
develop this health clinic.
    So, once again, I am an advocate for and do support very 
strongly the autonomy that we have attached to the traditional 
reservation boundaries, and even when that is something that 
may involve uses of that property that the local government may 
not like, obviously, like gaming operations. But when you do 
something that is an extraordinary thing, that is, go 50 miles 
from the reservation and buy a piece of land specifically to 
give people health treatment, and then the health clinic land 
is turned into a casino, I think that is an extraordinary 
event. And so I think that is, Dale, what merits our review.
    It was our actions that initiated this acquisition. That is 
why I did it. I certainly didn't initiate my actions predicated 
on building a casino here. But now that is what is requested.
    So I think those extraordinary circumstances merit some 
pretty close scrutiny.
    Mr. Kildee. Well, many years ago, probably about the time 
you arrived in Congress, I had a bill passed which reaffirmed 
the sovereignty of a tribe in Michigan, Lac Vieux Desert, and 
they have land, and at that time that was prior to the Indian 
Gaming Act. And I have been fairly conservative on gaming 
itself. As a matter of fact, I voted not to change the Michigan 
Constitution to permit any gaming in Michigan, not even put it 
on the ballot. So I have been rather conservative on gaming.
    But when Lac Vieux Desert had their sovereignty reaffirmed 
by the Federal Government, they are the ones to determine how 
they use their sovereignty; otherwise, it is not sovereignty.
    I think that we have to--we should be very reluctant to 
inject ourselves into the matters of sovereignty of one tribe 
or a combination of tribes. So Lac Vieux Desert had their 
sovereignty reaffirmed. It is a retained sovereignty, as John 
Marshall has told us, and they chose using their sovereignty to 
take gaming. That was their sovereign decision. And I think 
that this Resources Committee particularly, which has guidance 
and direction over Indian affairs, should be most reluctant, 
have only the most compelling reasons to interfere with how a 
tribe uses its sovereignty.
    Mr. Hunter. Just one rejoinder here, Dale, and that is 
this: As I told you, I worked back in the 1980's to take 5,000 
acres of land that was owned by BLM and the Forest Service that 
adjoined reservations and transfer that to the reservations, 
thereby increasing their tribal boundaries.
    I would agree with you totally with respect to that 
property. That property was put in trust within the traditional 
reservation land area and was additional land that they got. 
And there were no strings attached. We didn't say we want to 
turn this land over so that they can use it for agriculture or 
use it for industry. That was intended to expand the tribal 
area within which all the rights of the autonomy that attend 
these reservations would attach.
    But this 8.5 or 8.6 acres of land was put in very 
specifically for the health clinic, and the reason it was 
located downtown was so the people that could get health care 
would be able to come into this urban area, and it was 
centrally located only for that reason. So I would agree with 
you totally with respect to the 5,000 acres that we put into 
the reservations throughout San Diego County, which was 
intended to have all the rights of sovereignty.
    But I think my letter makes it very clear that this 
location and this purpose was solely for health care, and I 
think you would agree with that if you read the letter.
    Mr. Kildee. The trust deed itself does not contain any 
restrictions on the tribe to whom this land was given.
    Mr. Hunter. Well, certainly not. I mean, nobody 
contemplated in those days anything but--we had already had a 
community development block grant that was approved for the 
purpose of building the health clinic. So I don't think anybody 
thought there was any reason to say this can't be used for a 
glue factory or it can't be used for gaming. It was very clear, 
though, from this correspondence that we--and I will tell you 
my own experience. I was approached by the tribes who said we 
urgently need a central health care clinic, and that is what I 
did. And if I had thought that there was any reason or any 
chance of having a casino there, I can just tell you personally 
obviously I would have consulted all the local folks, I would 
have been very concerned. I wouldn't have pursued this.
    Mr. Kildee. Just one final thing, if I may, Mr. Chairman.
    Mr. Filner. Mr. Kildee, may I add something to the 
question, if I may, Mr. Chairman? Just very briefly. Mr. 
Kildee, you asked for a Federal nexus and, of course, the land 
is in trust by Federal action. CDBG funds were used to build 
the clinic.
    I, like you, am a strong advocate of sovereignty, although 
I have, like you, personal philosophical problems with gaming. 
But the land was titled to one or convenience purposes out of 
the seven that were involved in the issue. And that is the 
basis of the problem here, that it was titled to one, whereas 
seven were involved. And what Mr. Hunter's bill is trying to do 
is say, no, all seven have to agree on any change in the use, 
as I understand it.
    So the Federal Government's action led to this. That is why 
the Federal Government's action has to be resolved here.
    Mr. Kildee. I would just repeat, I think, again, we would 
all agree that we should be most reluctant to interfere with 
how a sovereign Indian nation uses it sovereignty, most 
reluctant.
    One other question just quickly. Will there be any 
interruption of health care or would health care be improved 
under the plan which they have projected?
    Mr. Hunter. To give the Cuyapaipe their due, they laid out 
a very attractive package for constructing a new clinic and, of 
course, whether or not that would occur, in fact, remains to be 
seen, but that is what they do propose. They propose to provide 
uninterrupted service, and I think they will testify to that.
    And, Mr. Kildee and Mr. Chairman and other members, 
everyone comes here, I think, in good faith. All the tribes 
involved had no idea back in 1985 what was going to happen. But 
I think there is a compelling reason because of the very 
focused, very limited nature of this acquisition for us to be 
involved in this. And I want to thank everybody. I have got to 
go Chair a conference, an Armed Services meeting, but I want to 
thank you for all the time you have given us, and I want to 
thank all of our tribes for coming out to make their case.
    Mr. Hayworth. I thank the gentleman from California and the 
ranking member for his questions.
    The bells have rung. There is a vote in progress. So what I 
would suggest is we thank panel one, unless anyone has any 
pressing questions for this first panel. Seeing none, we will 
thank you, gentlemen, for your attendance as colleagues and 
offering your input.
    We will adjourn to vote, or recess to vote, I should say, 
and please come back as quickly as possible because we want to 
hear from panel two on the pending legislation.
    So, with that, we stand in recess until we can get back.
    [Recess.]
    Mr. Hayworth. The Committee is back in session. I thank 
everyone who is here on what is turning out to be a day where 
we have to make some schedule shifts.
    The Chair would advise those waiting to testify, it is the 
intent of the Chair to reverse order of the panel, to bring up 
panel three in what is noncontroversial legislation, to have 
them briefly extol the virtues of the legislation, and then we 
will return to panel two.
    It is the intent of the Chair, even as I introduce panel 
three now, to be mindful of that fact. All your testimony will 
be submitted for the record. If you could synopsize what it is 
you have to say so that we could perhaps finish this 
collectively--and no disrespect is intended. But if we could 
collectively get this done in 5 minutes' time, I would be 
greatly appreciative. We understand that for all members there 
will be some action on the floor coming in fairly short order, 
so I would like to bring back panel two very quickly.
    Panel three, the Honorable Wayne Smith, the Deputy 
Assistant Secretary for Indian Affairs, Department of the 
Interior; the Honorable Kirk Humphreys, the Mayor of Oklahoma 
City; from the Oklahoma State Senate, Senator Kelly Haney; 
Executive Director Tommy Thompson of the Native American 
Cultural and Educational Authority of Oklahoma; and the 
Honorable Bill Anoatubby, who is the Governor of the Chickasaw 
Nation.
    We welcome you all. Secretary Smith, I understand you have 
written testimony from our good friend, Neal McCaleb, and we 
would ask you to synopsize that. Again, that total testimony 
will be submitted for the record.

STATEMENT OF WAYNE SMITH, DEPUTY ASSISTANT SECRETARY FOR INDIAN 
       AFFAIRS, UNITED STATES DEPARTMENT OF THE INTERIOR

    Mr. Smith. I bring greetings first from Assistant Secretary 
McCaleb, who, as you well know, is an Oklahoma native. He 
couldn't be here this morning because we made a deal, and all 
the bills that we oppose I get to testify on and the ones that 
we support he gets to testify on, which doesn't work out very 
well for me, but that is why I am here this morning.
    First, good morning, Mr. Chairman and members of the 
Committee that are here. I will try to cut through the prepared 
statement as fast as I can in respect for your admonishment.
    First, I would like to tell you that we are here in support 
of the objective of this project. It is an excellent example of 
what can be accomplished when the State, tribal, and local 
governments work together on a project to work toward economic 
and educational benefit of all parties concerned.
    However, we believe that the use of limited Department 
appropriations to fund grant programs for the design, 
construction, and operation of projects of this type at non-
Federal locations is inappropriate. This is especially true 
today when Federal budgetary resources are being redirected to 
America's war on terrorism and to protect Americans at home. 
Furthermore, any funds appropriated for this Cultural Center 
and Museum would not be available to reduce the Department's 
long list of deferred maintenance and construction projects for 
repairing Indian schools and preserving heritage and 
stewardship assets. Given the Department's large backlog of 
deferred maintenance and construction projects, we have 
established clear priorities for our very limited resources.
    H.R. 2742 authorizes the Secretary of the Interior, subject 
to the availability of appropriations, to award a grant to the 
NACEA, an agency of the State of Oklahoma, to pay for a Federal 
share of the cost of the final design, construction, 
furnishing, and equipping of the Native American Cultural 
Center and Museum that will be located directly in the 
southeast corner of I-35 and I-40 in Oklahoma City and will 
encompass 298 acres. The Federal share of the cost for this 
project is 34 percent, and a total of about $34 million is 
authorized to be appropriated for use as grants.
    We urge the Native American Cultural Center and Museum to 
apply for existing Federal museum preservation and collection 
management programs since it is an agency of the State of 
Oklahoma. A list of those programs are provided in my written 
testimony.
    Thank you.
    [The prepared statement of Mr. McCaleb follows:]

Statement of Neal A. McCaleb, Assistant Secretary, Indian Affairs, U.S. 
                Department of the Interior on H.R. 2742

    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to present the views of the Administration on H.R. 
2742, a bill to authorize funding for the construction of a Native 
American Cultural Center and Museum in Oklahoma City, Oklahoma, a 
museum designated to display the heritage and culture of Indian tribes.
    As an Oklahoman, I can honestly say that this is a project that I 
have enthusiastically supported for several years. I believe this is an 
excellent example of what can be accomplished when the State, Tribal 
and local governments work together on a project to work toward the 
economic and educational benefit of all parties concerned. I believe, 
as do others, that this is a project worthy of support. The Cultural 
Center and Museum will serve as a place of learning and as a home for 
collections that showcase many features of the history of America's 
past to showcase the significant contributions that American Indians 
have provided to this nation.
    The Administration appreciates the interest of the Native American 
Cultural and Educational Authority (NACEA) seeking to construct such a 
cultural center and museum devoted to providing a state-of-the-art 
facility and providing the highest level of care to the objects 
contained in its collection. However, the Administration believes the 
use of limited Department appropriations to fund grant programs for the 
design, construction, and operation of projects of this type at non-
Federal locations is inappropriate. This is especially true now that 
Federal budgetary resources are being redirected to America's war on 
terrorism and to protect Americans at home. Furthermore, any funds 
appropriated for this Cultural Center and Museum would not be available 
to reduce the Department's long list of deferred maintenance and 
construction projects for repairing Indian schools and preserving 
heritage and stewardship assets. Given the Department's large backlog 
of facility rehabilitation and replacement projects, we have 
established clear priorities for our limited resources. These priority 
needs cannot be addressed if large portions of our construction funds 
are diverted to non-Federal facilities.
    H.R. 2742 authorizes the Secretary of the Interior, subject to the 
availability of appropriations, to award a grant to the NACEA, an 
agency of the State of Oklahoma to pay for a Federal share of the cost 
of the final design, construction, furnishing and equipping of the 
Native American Cultural Center and Museum that will be located 
directly at the southeast corner of I-35 and I-40 in Oklahoma City, and 
will encompass 298 acres. The Federal share of the cost for this 
project is 34 percent and a total of $33 million is authorized to be 
appropriated for use as grants, with the condition that the NACEA, or 
Oklahoma State or local government agencies, provide commitments of at 
least 66 percent of the cost of the activities.
    The Administration urges the Native American Cultural Center and 
Museum to apply for existing Federal museum preservation and collection 
management programs since it is an agency of the State of Oklahoma. The 
following list of programs provide a variety of Federal funding:
National Endowment for the Humanities (NEH)
    Challenge Grants: Challenge grants help institutions and 
organizations secure long-term support for, and improvements in, their 
humanities programs and resources. In special circumstances challenge 
grants can also help with limited direct costs, such as the purchase of 
capital equipment, construction and renovation, and even debt 
retirement. Because of the matching require-ments, these NEH awards 
also strengthen the humanities by encouraging non-Federal sources of 
support.

    Preservation Assistance Grants: These grants can help museums 
enhance their capacity to preserve their humanities collections. 
Applicants may request support for general preserva-tion assessments or 
consultations with preservation professionals to develop a specific 
plan for addressing an identified problem. Awards will also be made to 
purchase basic preservation supplies, equipment, and storage furniture.
Institute for Museum and Library Services (IMLS)
    General Operating Support: The IMLS General Operating Support 
program encourages the best in museum service. Museums use these funds 
to strengthen collections care and raise funds from other sources. The 
two-year award provides unrestricted funds for ongoing institutional 
activities.

    Conservation Project Support: Grants are available for five broad 
types of con-servation activities, including collections treatment and 
environmental improvements.
National Science Foundation:
    The Biological Research Collections (BRC) program provides support 
for collection improvement, for collection computerization, and for 
research to develop better techniques of curation and collection 
management. Physical improvements typically involve rehousing a 
collection, replacing inadequate equipment, providing new tools for 
continued growth, or incorporating one or more collections donated by 
another institution or individual. Allowable costs generally include 
the purchase and installation of new storage systems, the purchase of 
curatorial materials, as well as new curatorial and technical 
assistance specifically designed to effect the proposed improvements 
for the duration of the proposed project.
National Park Service
    Save America's Treasures: Grants are available for preservation 
and/or conserva-tion work on nationally significant intellectual and 
cultural artifacts and nationally significant historic structures and 
sites. Intellectual and cultural artifacts include artifacts, 
collections, documents, monuments and works of art. Historic structures 
and sites include historic districts, sites, buildings, structures and 
ob-jects. Grants are awarded through a competitive process. Each grant 
requires a dollar-for-dollar non-Federal match.

    Once again, I would like to thank you for the opportunity to 
testify on what I believe is an important recognition of American 
Indians within the State of Oklahoma. I am advised that the Department 
can provide any technical assistance, in coordination with the Oklahoma 
State Historic Preservation Office, to determine ways to protect these 
cultural resources once they are acquired. I am pleased to answer any 
questions you may have.
                                 ______
                                 
    Mr. Hayworth. I thank you very much, Assistant Secretary 
Smith.
    Mayor Humphreys, welcome, and we are sorry for the 
abbreviation of your statement, but, again, your entire 
statement will be included in the record.

    STATEMENT OF HON. KIRK HUMPHREYS, MAYOR, OKLAHOMA CITY, 
                            OKLAHOMA

    Mr. Humphreys. Thank you, Mr. Chairman. I am Kirk 
Humphreys, Mayor of Oklahoma City. My ancestors come from both 
the Choctaw and Cherokee tribes.
    Oklahoma City is the midst of a massive urban 
revitalization, highlighted by the MAPS projects, which is a 
$390 million investment in ourselves. Over the last 5 years, we 
have built three dams on our river, a new downtown baseball 
stadium, fully rebuilt our concert hall, a one-mile canal 
through the Bricktown area just across the Cultural Center 
site, a new downtown sports arena, a new library learning 
center, and full rehabilitation of our convention center.
    My reason for mentioning the MAPS project is to emphasize 
that the new Native American Cultural Center will be integrated 
into a viable urban revitalization effort, and this will be the 
capstone of this rejuvenation effort. Here, Native American 
heritage will be defined and displayed for our children, for 
the citizens of Oklahoma, and citizens from across the Nation, 
indeed, people from around the world. The center will seek to 
engage the visitors in exploring and understanding the rich 
heritage of our Native American citizens and that impact on our 
culture.
    Thank you for hearing us today.
    [The prepared statement of Mr. Humphreys follows:]

      Statement of Kirk Humphreys, Mayor, Oklahoma City, Oklahoma

    My name is Kirk Humphreys and I am the Mayor of Oklahoma City.
    The purpose of my testimony today is to express the strong 
commitment of Oklahoma City to the development and construction of the 
Native American Cultural Center and Museum which is to be located on 
the 300-acre site on the North Canadian River near downtown Oklahoma 
City.
    Oklahoma City competed with other jurisdictions within Oklahoma to 
become the designated site for this new Center. Our proposal included:

    <bullet> LProvision of $5 million from the City
    <bullet> LProvision of the 300-acre tract of land for the site. 
This site is located at the intersection of I-35 and I-40, which is 
considered to be the Crossroads of America. The land abuts the renewed 
North Canadian River with its three dams and navigable water pools.

    Oklahoma City is a uniquely appropriate location for the placement 
of the Native American Cultural Center and Museum. The City has 
invested over $390 million in a Metropolitan Area Program (MAPS) over 
the past five years to build three dams on the river, a new baseball 
stadium, a fully rebuilt concert hall, a one-mile canal through the 
Bricktown area which is just across the river from the Cultural Center 
site, a new 18-thousand seat arena, a new library learning center and a 
full rehabilitation of the Myriad Convention Center. The new Cultural 
Center & Museum will be integrated into this viable revitalization 
effort as a jewel centerpiece, a location to enhance our tourism 
industry and economic development as well as a major forum for all 
people Native, non-Native, city, state and national to celebrate our 
Native American heritage and learn of the history, diversity and 
richness of the culture.
    The time to tell the story of the tribes and their history in 
Oklahoma is long overdue. We are at a time and have an honorable 
opportunity to present this story in a manner of integrity and pride. 
The Center's education and public programming will be centered on this 
mission, creating a mechanism by which Native people can tell their 
story.
    Education, public programs and visitor services are key to the 
long-term success of the Center: active public exploration of, 
participation in and dialog by and between Native Americans and non-
Natives are foundations of the Center's concept. It is through programs 
that the Center will develop and sustain relationships with visitors, 
constituents and stakeholders, and create experiences that will attract 
audiences to Oklahoma and serve worldwide audiences through the 
Internet and publications. The interpretive content and means of 
expression in exhibitions or through the programs, activities, 
landscape and the building interconnect to form the visitor experience. 
Visitors will learn about the diversity of Native American nations and 
their stories of adversity, courage and endurance. Educational and 
public programs targeted to a variety of audiences will enhance this 
exhibition program. Curriculum-based school programs, teacher resource 
materials, teacher training programs, school outreach and a co-op and 
internship program will all serve to strengthen the Native American 
Cultural Center & Museum as an extremely valuable local, national and 
state resource that discusses Native American cultures and arts like no 
other place. An active schedule of programs for youth, children and 
adults will enrich and deepen the Cultural Center and Museum 
experience.
    Of great importance for the Center and the Native American people 
who will shape it are the arts and performance programs: studio space 
for artists to create and teach in, artists-in-residence, and a 
scholarship program will all make it the venue for an explosion of 
ideas, colors and creativity that will establish the Center as the 
epicenter of Oklahoma Indian artist production. Dance and theater are 
an integral part of this artistic outpouring. The Center will host 
intertribal powwows and social dances, and feature traditional and 
contemporary music and theater production.
    Oklahoma City is increasingly becoming a major focal point for 
Oklahoma and Native American cultural expression and cultural 
education. Oklahoma City is home to the annual Red Earth Festival, 
which is considered to be one of the top Native American art festivals 
in the world. It also sponsors a week-long arts festival in the 
downtown area. In addition, we are constructing a new $40 million art 
museum. These ongoing activities and promotion of the arts and culture 
will serve to complement the existence and operation of the Cultural 
Center.
    It is fitting that this project be developed now as a partnership 
between the City, state and federal government, and our tribes. 
Oklahoma is home to the largest number of tribal governments of any 
other state by far. We are home to 39 tribes today, most of whom were 
moved to Oklahoma by the federal government before statehood. At the 
State Centennial Celebration in 2007, the opening of the Museum and 
Cultural Center will send a clear message of Oklahoma's celebration of 
it's Native American culture and will provide a true opportunity for 
the citizens of our state, country and the world to better understand 
and appreciate this valuable heritage. I urge the passage of HR 2742 as 
soon as possible so that we can move the bill to the Senate.
                                 ______
                                 
    Mr. Hayworth. Thank you, Mr. Mayor. Brevity is the soul of 
wit.
    Senator Haney, welcome, and thank you, sir, for joining us 
today.

 STATEMENT OF HON. ENOCH KELLY HANEY, SENATOR, OKLAHOMA STATE 
                             SENATE

    Mr. Haney. Thank you, Mr. Chairman. I am honored to provide 
testimony to this Committee in regards to House Resolution 
2742. I want to extend my personal appreciation and the State 
of Oklahoma to Congressman Carson, who has introduced the bill, 
and for the Oklahoma delegation both in the Senate and the 
House who are supporting this bill, and also to Congressman 
Kildee, who has represented the Native American Caucus in your 
distinguished body. We appreciate the support you have given to 
us.
    The vision for such a place as the Native American Cultural 
Center is at least a 40-year dream for me. In talking with the 
elders who, I guess, gave me the commission for this years ago, 
and through many efforts, in 1994 the Oklahoma Legislature 
created the Native American Cultural and Educational Authority 
by statute, and with that, appropriations did come for funding 
of the staff, and eventually we had put some dollars into the 
project.
    This project, although it started with the legislature, is 
now a product of Oklahoma. It is, as you stated earlier, Mr. 
Chairman, a bipartisan effort of all Oklahomans to see that 
this program comes to fruition.
    I think one of the things that intrigues me about coming to 
this body is that when you look at the Oklahoma tribal 
entities, there were five indigenous tribes to Oklahoma. Today 
there are 39 federally recognized tribes in Oklahoma. And the 
reason most of us are there is not by choice but rather by 
force as a result of the Indian Removal Act of 1830. We are 
there because of that reason, but in spite of that, Native 
people have become contributing members to society in Oklahoma. 
We feel like it is time to tell the story of the removal, that 
tragic part of our history in this country, and we think we can 
do it with great integrity. We want to tell that story and to 
rewrite history to some degree through the words of the Native 
American people themselves.
    I remember growing up as a child, I spoke two languages, 
the Seminole language and the English language. I was very weak 
on the English language. But having grown up in that kind of 
society, today I may be one of the last of my people to speak 
the language as we do. And it would be a tragedy to see that 
part of our history, a wonderful part of our history that is a 
tapestry that makes America what it is, the wonderful colors 
that it is that makes it work for all people.
    With that, we hope that this Cultural Center can be a place 
where we can nourish the traditions and the practices of Native 
people because there is a correlation between the really good 
theological and philosophies that exist in Native culture, 
along with our own philosophies as a government in this great 
country.
    For that reason, we come to you to ask for your help 
because the Oklahoma story is a compelling story. It is one 
that tells of all of the tribes that come from every part of 
this great country and that was placed in the place called 
Oklahoma. It is time to tell that story. It is past time to the 
story. And the State of Oklahoma and Oklahoma City, together we 
have contributed over $30 million of land and actual dollars to 
the project to date. We have a world-class design group that is 
working with us to develop this concept, and we are very 
pleased--you will get a copy of the books, as I understand--to 
show you the quality of work that we are looking for. We are 
looking for a world-class Native American Cultural Center in 
Oklahoma, second to none in the world.
    With that, Mr. Chairman, I certainly appreciate your 
allowing us to come before you. Finally, I think a very 
important part of this request is that 2 years ago we met with 
the National Congress of American Indians. They with 
resolutions supported the Concept of the Native American 
Cultural Center in Oklahoma. Last year we met with that same 
group and received the endorsement of the National Congress of 
American Indians in terms of the funding. And we only have 
approached the BIA as a funding mechanism to get funds to us, 
so hopefully we will be able to work with your and your 
Committee will see your way to help us in this great effort.
    We are in this effort together in Oklahoma, and we ask for 
your help. I appreciate the opportunity to visit with you. 
Thank you, sir.
    [The prepared statement of Mr. Haney follows:]

    Statement of Hon. Enoch Kelly Haney, Oklahoma State Senator and 
                       Chairman of Appropriations

    I am honored to be here today to provide testimony to this 
Committee relating to House Resolution 2742, authorizing the 
construction of a Native American Cultural Center & Museum in Oklahoma 
City, Oklahoma.
    The vision for such a special place began several years ago when, 
in 1994, the Oklahoma Legislature created the Native American Cultural 
& Educational Authority to build and operate the Native American 
Cultural Center & Museum. However, this vision took on a life of its 
own many years ago. There has been a longtime, profound expression of 
needs, hopes and expectations of Oklahomans, Native and non-Native 
people alike regarding the existence and operation of a Native American 
Cultural Center & Museum in Oklahoma, a central place to unify and 
connect our Tribal governments as well as place to tell a story a story 
of many tribes from many places. Oklahoma is now home to these diverse 
and distinct peoples.
    There is a great need to develop a Center to tell the story of the 
tribes in Oklahoma, to perpetuate Native American art, to nurture 
cultural concepts and practices, and, in general, to educate people on 
the Native culture across the Nation. The added benefit is a stronger 
economic base for Oklahoma because of increased tourism activity. There 
is no doubt that such a place is needed. This concept has been 
discussed and dreamed about for many years by many who feel that such a 
center should be located in Oklahoma, because of its central location 
in the United States. Oklahoma is also home to 39 tribal governments 
and is home to many more Native people who are members of tribes 
outside of the State or tribes whose history is tied to Oklahoma, as it 
was once known as Indian Territory.
    Historically, Oklahoma was home to five indigenous tribes. The rest 
of the tribes are in Oklahoma because of the Indian Removal Act of 
1830. Our Federal Government played a significant role in this unique 
history. We are all at a time of healing and it is time to tell a 
story. The Oklahoma story is a compelling one. It tells of many tribes 
from many diverse cultures, backgrounds, and regions. It is, in itself, 
a testimony of devastation, struggle, courage, survival and victory.
    The vision of telling such a story is now being carried through by 
the people who have become a part of the project. This group of people 
not only consists of the Staff and Board of Directors of the Native 
American Cultural & Educational Authority; but, it also consists of the 
people of Oklahoma, the Oklahoma Indian community and tribal 
governments, as well as the collective voice of tribal governments 
nationwide. To date, we have received support through formal 
Resolutions from our National Congress of American Indians for the 
construction, development, and legislation of the Native American 
Cultural Center & Museum. In addition, we have received similar 
Resolutions of support from entities such as the All Indian Pueblo 
Council of New Mexico among others. The support of the Oklahoma State 
Legislature is obvious by its passage of legislation creating the 
Native American Cultural & Educational Authority and providing funds to 
begin its development.
    Oklahoma is the proper forum to tell this story that has affected 
our Nation as a whole. Since 1994, the Native American Cultural & 
Educational Authority has made tremendous progress in telling a story 
in a way that is truthful and good. The Center is under design and 
development by a world-class twelve-member design team, including 
Johnson Fain Partners, Hargreaves Associates, Ralph Appelbaum 
Associates, LORD Cultural Resources, Harrison Price Company, Hornbeek 
Larsson Architects, Rick Carter and others.
    There is a strong consensus among all those consulted in this 
effort that the Native American Cultural Center and Museum should be a 
place that ``rewrites'' the stories of the past and present in the 
words of American Indians, and becomes a forum for the shaping of the 
future. This Center should be a place where all people across the 
Nation can explore the history of adversity, injustice and survival 
experience by the tribes. It will be a place where stereotypes can be 
broken and myths expelled, a place where all people gather to witness a 
celebration of survival.
    The final story can tell of the possibility of hope and prosperity 
when people of good will come together to build a sense of family in 
one nation.
    I thank you for this opportunity to provide this testimony and 
express my great appreciation for your consideration of House 
Resolution 2742. I invite you to join us in meeting this vision to an 
incredible reality for all people. Thank you.
                                 ______
                                 
    Mr. Hayworth. Senator Haney, we thank you very much for 
your testimony and welcome you to Washington and appreciate 
your remarks.
    Executive Director Thompson?

    STATEMENT OF TOMMY THOMPSON, EXECUTIVE DIRECTOR, NATIVE 
    AMERICAN CULTURAL AND EDUCATIONAL AUTHORITY OF OKLAHOMA

    Mr. Thompson. Thank you very much. It is a pleasure being 
able to speak before this Committee today. I am Tommy Thompson, 
and I am serving as the executive director for the Native 
American Cultural and Educational Authority, a State agency. I 
am also a proud member of the Chickasaw Nation. I want to 
emphasize or mention that Congressman Carson did mention that 
we have applied for a Smithsonian affiliation and a partnership 
with the Oklahoma Historical Society. And with this mechanism, 
this will allow us to be able to have access to over 1 million 
exhibits out of the Smithsonian, as well as having access to 
the Oklahoma Historical Society's Indian Art and Artifacts 
Collection, which is one of the finest in the world.
    At the same token, as Congressman Carson mentioned, we went 
through a selection process on site selection with the city of 
Oklahoma City being selected for this site. They have offered 
approximately 300 acres of ground, as Congressman Carson has 
mentioned, and also, in addition, have offered us $5 million in 
a CDBG grant for the construction of this program.
    We have just completed Phase II of our project, which 
included the program brief, master plan, and final building 
concept, spearheaded by Johnson Fain Partners out of Los 
Angeles and the Appelbaum Group out of New York. We feel like 
it is one of the finest design teams assembled to date.
    Also, there is a tremendous environmental healing process 
going on with the site. In a partnership with the city of 
Oklahoma City, the State, and Federal agencies, the site at one 
point occupied over 60 oil wells in that particular site, and 
there is a tremendous process of healing this process, of 
cleaning it up environmentally to make it a safe, sound site 
for the museum.
    Phase III will include the story line, the exhibitory, and 
the design of the Cultural Center, and we are beginning to 
start that process in the near future. Visitors will learn 
about the diversity of Native American Nations and their 
stories of adversity, courage, and endurance.
    This will be a destination attraction. The Native American 
Cultural Center and Museum will welcome all visitors to explore 
the history, culture, traditions, and experiences of Native 
Americans. And we will work collectively with the tribes and 
institutions to preserve Native American heritage.
    On the fundraising feasibility, we have just completed a 
fundraising study. Our fundraising goal is currently being 
established by the Authority to raise finances in the private 
and public sectors. We have created a 501(c)(3) for that 
mechanism, and it will be underway shortly. These funds will 
assist in the construction and ultimately the maintenance of 
the site. Also, future commercial facilities are planned to 
assist in the ongoing maintenance of the project. And being a 
State project, future State appropriations are also expected to 
assist in the ongoing maintenance of the project.
    We are also continuing with a partnership with the city of 
Oklahoma City working on several grants through the T-21 
funding processes as well as the establishment and preservation 
of the wetlands there.
    Lastly, it is going to have a tremendous economic impact on 
the city of Oklahoma City. We expect to draw 650,000 visitors 
to the area with 2 percent growth per year. So we will be 
providing quality jobs and have a tremendous economic impact on 
it.
    Thank you very much.
    [The prepared statement of Mr. Thompson follows:]

   Statement of Tommy Thompson, Executive Director, Native American 
                   Cultural and Educational Authority

Smithsonian Affiliation/Oklahoma Historical Society Partnership
    The Native American Cultural Center and Museum has applied in a 
joint application with the Oklahoma Historical Society to become a 
Smithsonian Affiliate. With this affiliation, this opportunity will 
offer the Cultural Center a chance to be in a position to have access 
to over one million Native American exhibits from the Smithsonian. This 
will give the Native American Cultural Center and Museum the chance to 
become the ``Smithsonian of the Midwest.'' In addition, this 
partnership will allow the NACEA to have access to the Oklahoma 
Historical Society's Indian Art and Artifact Collections, known to be 
one of the finest in the world. Building these institutional ties and 
cooperation will help determine what will be possible in presenting the 
story as well as in what programs and activities will be available.
    The Center will preserve and promote the living cultures of Native 
Americans, in the history, dance, arts, and education of historical 
ways. The Center will have a unique role in the development of 
partnerships with Tribes and other cultural institutions in preserving 
cultural aspects such as language.
Market Analysis/Financial Analysis Context
Phase I Site Selection
    In accordance with State of Oklahoma regulations governing 
procurement, the Native American Cultural and Educational Authority 
issued a Request for Proposal (RFP) seeking applications for possible 
site locations for the Cultural Center and Museum. Responses from Ponca 
City, OK, Edmond, OK and Oklahoma City, OK. The City of Tulsa was also 
considered, but chose not to participate in the selection process. The 
Authority appointed a selection committee to review the proposals. 
After careful consideration, the City of Oklahoma City was selected. 
Its generous offer of approximately 300 acres in fee simple and a $5 
million Community Development Block Grant (CDGB) was the deciding 
factor in the selection process.
Phase II Program Brief, Master Plan, Final Building Concept, 
        Environmental Healing Process of Site
    The conceptual design of the site, which consists of the Program 
Brief with building concepts and the Master Plan, was recently 
completed. We are working in partnership with local environmental firms 
and the City of Oklahoma City to restore the land to a safe and 
beautiful site for the museum.
    There is a tremendous environmental cleanup process that has been 
taking place over the past 1 + years to ``heal'' the site from previous 
oil and gas production These state and federal individual groups 
involved with the healing process include the Environmental Protection 
Agency, the U S. Coast Guard, the Oklahoma Corporation Commission, the 
Oklahoma Department of Environmental Quality, and the Oklahoma Energy 
Resources Board.
Phase III Story Line, Exhibitory and Design of Cultural Center and 
        Museum
    This Phase will commence in the near future and will include the 
actual design work of the Cultural Center and Museum, including the 
exhibitry expressing the compelling story behind the 39 tribes' 
histories and survival in Indian Territory now known as Oklahoma.
Story Line, Exhibitory Phase
    Visitors will learn about the diversity of Native American Nations 
and their stories of adversity, courage and endurance. A wealth of 
unique and personalized encounters by Oklahoma Native Americans will be 
characteristic of a visit to the Center, beginning with the multi-
sensory presentation in the ``Who We Are'' theater and carrying through 
to the strongly narrative long-term exhibits, the exciting and engaging 
``Family Discovery Gallery,'' the vital and vibrant changing and 
community exhibits, and the contemplative and reflective outdoor 
exhibits.
    As a destination attraction, the Native American Cultural Center 
and Museum will welcome all visitors to explore the history, culture, 
traditions and experiences of Native Americans. Our public education 
and performance programs, permanent and changing exhibitions, and 
events focus first on the Tribal Nations of Oklahoma, but are inclusive 
of all native peoples throughout the Americas. By creating 
opportunities for established and emerging artists, the Cultural Center 
preserves traditional fine arts and crafts, song, dance and encourages 
the exploration of contemporary cultural expression. We are a resource 
for the study of and a forum for the discussion of the Native American 
social, cultural, and justice issues past, present and future by 
providing access to information sources and dissemination of ideas 
through symposia, research projects and publications.
    We will work collectively with the tribes and institutions to 
preserve Native American heritage. We collaborate with tribes and 
governments, as well as educational, cultural and community 
organizations at the local, state, national and international level to 
promote a deeper understanding among all people of the diverse Native 
American cultures.
Construction Phase
    The second part to Phase III will be the actual design of the 
Cultural Center and Museum with projected landscaping, infrastructure 
and site work. The projected costs include the total construction cost 
initial phase, total consulting costs which include the design and 
project management, and the total project costs which include the 
``soft costs'' composed of the surveys, legal, title fees, permits, 
etc. Total costs of the project are estimated to be near the $100 
million mark. $60 million is estimated for the costs of the buildings, 
$30 million is estimated for the landscaping and site work, and $10 
million is estimated for the ``soft costs.''
Fundraising Feasibility Study
    Phillips & Associates, of Los Angeles, CA conducted a fundraising 
feasibility study for the proposed Cultural Center and Museum, and 
fundraising goals are being planned by the Authority to solicit public 
and private funds from Corporate and private foundations and 
individuals who are known nationally to contribute to projects like the 
Cultural Center and Museum.
Partnership with the City of Oklahoma City
    The City of Oklahoma City and the Native American Cultural and 
Educational Authority are currently engaged in a partnership to apply 
for T-21 Funds through the Oklahoma Department of Transportation for 
landscaping improvement of the site; the Transportation Enhancement 
Program application for surface transportation system for the project; 
and an EPA fiscal year 2002 Grant for research and studies pertaining 
to the protection of wetlands. In addition, the City of Oklahoma City 
maintains its continued and valuable commitment to the restoration and 
development of the river and the site overall.
Economic Development Impact
    Research by the project consulting team has indicated that the 
project will attract 650,000 new visitors to Oklahoma. They estimate 
that this number will grow approximately 2% per year.
    The development of this project should make a very positive 
economic development impact for Oklahoma City and the State of Oklahoma 
by providing new quality jobs and services. The project will be a 
``world class project'' with dignity.
                                 ______
                                 
    Mr. Hayworth. I thank you very much, Director Thompson. As 
we hear the bells are ringing, it is reminiscent of school. So 
we will have to depart in fairly short order. But even as I 
introduce Governor Anoatubby from the Chickasaw Nation, I want 
to welcome to the dais and ask unanimous consent for our 
friend, Congressman Istook, who joins us here.
    We will hear from the Governor first, and then prior to 
running over for the vote, a brief statement from our friend, 
Mr. Istook.
    Governor Anoatubby, welcome.

   STATEMENT OF BILL ANOATUBBY, GOVERNOR, CHICKASAW NATION, 
                            OKLAHOMA

    Mr. Anoatubby. It is good to be here, Mr. Chairman, and 
thank you for this hearing and thank you for the support of 
members of the Committee. We are very pleased that Mr. Carson 
has shown his support and introduced the bill. We are very 
pleased that Mr. Kildee has shown his support.
    We would ask obviously for the support of this Committee 
for this bill. It is a grand project. It is one that, as has 
been pointed out, is a project that is a joint project, a 
community one, one which is not only that of the State but of 
the city and of the tribes. And I come here today to speak to 
you on behalf of supporting this bill, but I wanted to let you 
know also that the tribes in Oklahoma are also supportive.
    There was an effort on part of the Cultural Center staff to 
educate and seek the support of the tribes in the State of 
Oklahoma, and to my knowledge, there is not a single tribe that 
is opposed.
    As with any project like this, there will be those that 
say, yes, yes, let's go for it and then those who say, yes, if, 
yes, we can if certain things are done. And we intend to cater 
to the tribes of Oklahoma.
    Representing the Chickasaw Nation, I know how our people 
feel. We are in great support, and we ask for the support of 
this Committee for this bill and this funding.
    [The prepared statement of Mr. Anoatubby follows:]

 Statement of Bill Anoatubby, Governor, Chickasaw Nation and Chairman, 
           Native American Cultural and Educational Authority

    It is a pleasure to provide testimony to this Committee relating to 
House Resolution 2742, authorizing the construction of a Native 
American Cultural Center and Museum in Oklahoma City, Oklahoma.
    Before I begin my comments, please allow me this opportunity to 
extend sincere appreciation for being allowed to have input into this 
Committee's work. The task of the Committee is not an easy one, but it 
is indeed an important one.
    Preservation of cultures is a task which is incumbent upon all of 
us. As the United States of America is a true melting pot of cultures 
and peoples from all over the earth, preserving those various cultures 
provides us with a glimpse of where we have been, and details the 
possibilities and potential goals for where we are going as a united 
people.
    The Oklahoma Native American Cultural Center and Museum will 
provide an opportunity to showcase the cultures of the 39 Native 
American tribes which call Oklahoma ``home.'' Operating in an 
international, national, state and local context of cultural centers 
and museums, the center and museum will provide exposure to the unique 
cultures and histories of the forebears of this great land. That 
exposure will be provided to people from all walks of life, from all 
over the planet.
    Throughout the United States there is a growth in Native American 
cultural institutions, as Native Americans and their governments 
reclaim their own histories and cultural patrimony. In 1990, when 
Congress adopted the Native American Graves Protection and Repatriation 
Act, directing federal institutions to return objects of cultural 
patrimony to tribes, a great breath of enthusiasm and hope was breathed 
into the efforts of the tribes to gather, protect and preserve their 
various, unique cultures and identities.
    Since 1990, museums across the country have been working with 
tribes to return collections or to negotiate agreements for the care, 
handling and display of collections which present the various tribal 
histories. More and more, tribes are taking ownership of what has been 
taken from them, and are creating their own institutions to tell their 
special stories. Within Oklahoma alone, there are more than 20 
institutions and organizations responsible for presenting to the public 
the histories and cultures of select tribal peoples, preserving objects 
of cultural patrimony or carrying out research. Yet, magnanimous as 
those effort might be, they lack cohesion in presenting the overall 
picture.
    The state government, through its tourism campaigns, calls 
Oklahoma, ``Native America.'' The history of the state is inextricably 
woven into the recent histories of the 39 tribes in Oklahoma. Each of 
those tribes has contributed not only to the overall development of 
Oklahoma, but to America as well. Because most of the tribes which are 
now located in Oklahoma were removed here by the federal government, 
the story must be told of how the Indian people acclimated themselves 
to their new home. The story must be told of how, out of many, one was 
born.
    The Native American Cultural Center and Museum will serve as a 
satellite institution. It will complement and connect other 
institutions through programming and tribal-initiated cultural tourism 
activities. It will tell the story from the perspective of the tribes 
and through the eyes of those peoples, exposing all visitors to a 
history which has never, not ever, been gathered into one, central 
location.
    I ask the Committee to also note that the Native American Cultural 
and Educational Authority is in joint application with the Oklahoma 
Historical Society State Museum of History to become a Smithsonian 
Affiliate. This realization would present an outstanding opportunity 
for the Cultural Center to become a ``Smithsonian of the Midwest.'' 
Through this partnership, the Cultural Center would be able to borrow 
collections from and draw upon the considerable professional and 
museological resources of both institutions. The Cultural Center will 
have a unique role in this evolving context of cultural institutions, 
primarily as a partner and collaborator with the tribes and other 
cultural institutions in preserving and nurturing cultural aspects such 
as language, telling the stories to a broad audience and protecting 
cultural patrimony.
    The tribes are very much in support of this effort. We endorse the 
proposal for the Oklahoma Native American Cultural Center and Museum, 
and urge the members of this Committee to also endorse making this 
concept a reality.
    Thank you very much for allowing me the opportunity to provide 
these comments. I wish you every success in the tasks which lie before 
you. Your consideration of House Resolution 2742 will be appreciated, 
not only by Native America and the great state of Oklahoma, but by all 
who will visit this magnificent facility. Thank you.
                                 ______
                                 
    Mr. Hayworth. Governor, we thank you for that succinct 
testimony.
    Let me turn briefly to the gentleman from Oklahoma who 
joins us on the dais.

    STATEMENT OF HON. ERNEST J. ISTOOK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Istook. Thank you, Mr. Chairman. I appreciate the 
courtesy of being allowed to speak, and I want to thank 
Congressman Carson for his efforts on this legislation.
    I think what is probably clear from the array of people 
representing the multiplicity of interests, the bipartisan 
support on this, this is something that enjoys wide support 
because it has involved so much careful planning. There have 
been many things that people wanted to have adjusted before the 
consensus came together, but I think that consensus has come 
together. When you can have the city, the State, the community, 
the tribes, the Federal Government all participating to 
preserve the enormous heritage and role of the American Indians 
in this country, to preserve Native American history and 
culture, I think that it would be great for this Committee to 
reflect that consensus with its approving action and, of 
course, go forward with that approval on the floor.
    I want to commend again everyone that has put such patient 
effort into this, Mr. Chairman, because what you see here 
represents many years of efforts, years that preceded my coming 
to this Congress, for example, and that patience I think needs 
to be rewarded, especially when the mechanism that is set up 
assures that that partnership will be continued.
    We have the thresholds that are involved with Federal 
funding that I think is a lot better protection for the 
taxpayers' money than we see in many of the things that are 
presented to us in Congress.
    So I thank you for the opportunity to be heard, Mr. 
Chairman, and I certainly urge favorable consideration of the 
legislation.
    Mr. Hayworth. Thank you very much, Congressman Istook.
    I see my friend from Oklahoma, Mr. Carson, would like to 
say a couple of words here.
    Mr. Carson. Could I ask unanimous consent to submit for the 
record a brochure detailing what the Native American Cultural 
Center will look like? It has the benefit of having a portrait 
of some Indian leaders from Senator Haney, who is a nationally 
renowned Indian artist himself.
    Mr. Hayworth. Without objection, we welcome the artwork of 
the good senator from the Oklahoma State Senate.
    [The brochure, ``Native American Cultural Center - Oklahoma 
City,'' has been retained in the Committee's official files.]
    Mr. Hayworth. Thank you for the testimony. As the bells 
prepare to ring again, the Chairman would make this point: The 
Chair is fully cognizant of the fact that many people have 
traveled a great distance, and even though there are other 
meetings that will take place at the noon hour or shortly 
thereafter, the Chair is constrained to indicate that we will 
return for panel two. And while it may be an abbreviated form, 
we will take the testimony.
    The Chair would also point out that it is his intent to 
allow the Committee to submit written questions to both of the 
panels. The record will remain open for 10 days, even as we 
have to move through in somewhat of a truncated fashion today. 
We thank panel three. Panel two, hang on. We will return after 
votes.
    The Committee stands in recess until the completion of 
votes on the floor when we will reconvene.
    [Recess.]
    Mr. Cannon. If the second panel would take their seats, we 
will get--oh, I am sorry, Mr. Chairman.
    Mr. Hayworth. Somebody has been sitting in my chair.
    [Laughter.]
    Mr. Cannon. This chair is way too big for me.
    Mr. Hayworth. Oh, golly. Well, if the gentleman from Utah 
means that in terms of big shoes to fill, we appreciate that a 
great deal.
    The Committee is back in session. Panel two includes the 
Honorable Wayne Smith, from whom we heard earlier, the Deputy 
Assistant Secretary for Indian Affairs; the Honorable Michael 
Liu, the Assistant Secretary for Public and Indian Housing from 
HUD. I know that he has to run to a luncheon engagement, so we 
will probably call on him first in the interest of time. The 
Honorable Michael Garcia, Vice Chairman of the Cuyapaipe or 
Ewiiaapaayp--which--okay, thank you, Michael. I appreciate 
that. I guess Congressman Duncan Hunter helped me out with 
that. Steve TeSam, Chairman of the Viejas Indian Reservation; 
and Ralph Goff, the Board Chairman of the Southern Indian 
Health Council, Inc.
    Again, the Chair would remind everyone we will allow the 
Committee members to submit written questions to the panels, 
and the record will remain open for 10 days. Given the time 
constraints which we follow, let's begin with Assistant 
Secretary Liu. Welcome, sir, and we appreciate you making 
accommodations in your schedule.

 STATEMENT OF MICHAEL LIU, ASSISTANT SECRETARY FOR PUBLIC AND 
 INDIAN HOUSING, UNITED STATES DEPARTMENT OF HOUSING AND URBAN 
                          DEVELOPMENT

    Mr. Liu. Thank you very much, Mr. Chairman. In the interest 
of time, I will just move to those comments that begin with the 
title ``Specific Comments on H.R. 1239.''
    House Resolution 1239, the bill that is the subject of this 
hearing, would establish a moratorium on the ability of the 
Secretary of the Interior to approve the relinquishment of a 
lease on 8.78 acres of trust land in San Diego County unless 
all seven tribes or bands involved in this dispute approve the 
relinquishment by tribal resolution.
    What was HUD's role in all this? Beginning in 1985 and 
ending in 1993, the Department approved the award of a series 
of four Indian CDBG grants, totaling $1,139,002, to assist in 
the construction and expansion of the Southern Indian Health 
Council's Alpine, California, clinic. The funds were used for 
some of the construction costs for the facility, to later 
expand the clinic to include space for medical and dental 
services, and to further expand it by providing administrative 
offices. The last of the four grants was awarded in 1993 and 
closed out on March 21, 1996.
    Under HUD's Indian CDBG regulations, a grantee may not 
change the use of real property assisted in whole or in part 
with Indian CDBG funds prior to or within 5 years after the 
closeout of the grant, unless certain conditions are met.
    The regulatory conditions include: notifying affected 
citizens of the proposed new use and offering them an 
opportunity to comment on the proposed change; and reimbursing 
the Indian CDBG program in the amount of the current fair 
market value of the property, less any value attributable to 
the non-Indian CDBG funds used for the acquisition of, and 
improvements to, the property.
    All regulatory conditions on the use of the Alpine health 
clinic expired on March 20, 2001, 5 years after the last grant 
was closed out.
    I would like to point out that these Indian CDBG 
regulations on oversight and closeout procedures are identical 
to the regulations used in the Entitlement and Small Cities 
Community Development Block Grant programs, which are under the 
jurisdiction of my colleague Roy Bernardi, HUD's Assistant 
Secretary for Community Planning and Development.
    This concludes my statement, and I would be happy, of 
course, to answer any questions. Thank you, sir.
    [The prepared statement of Mr. Liu follows:]

  Statement of Michael Liu, Assistant Secretary for Public and Indian 
       Housing, U.S. Department Of Housing and Urban Development

Introduction
    Mr. Chairman and Members of the Committee: Good morning, my name is 
Michael Liu, and I am HUD's Assistant Secretary for Public and Indian 
Housing. I am responsible for the management, operation and oversight 
of HUD's public housing program, which aids the nation's 3,300-plus 
public housing agencies in providing housing and housing-related 
assistance to low-income families. In addition, my jurisdiction 
encompasses virtually all of HUD's Native American programs. These 
programs serve federally-recognized Indian tribes and their tribally 
designated housing entities by providing grants and loan guarantees 
designed to support affordable housing activities and viable community 
and economic development in Native American communities, including 
Indian reservations, Alaska Native Villages, and other traditional 
Indian areas.
Overview of the Indian Community Development Block Grant Program
    Among my responsibilities is the Community Development Block Grant 
Program for Indian Tribes and Alaska Native Villages, usually referred 
to as the Indian Community Development Block Grant program, or Indian 
C-D-B-G. This program, authorized by the Housing and Community 
Development Act of 1974, as amended, provides eligible recipients with 
direct grants to develop viable Indian and Alaska Native communities, 
including decent housing, a suitable living environment, and economic 
opportunities, primarily for low- and moderate-income persons.
    Eligible applicants for assistance include any Indian tribe, band, 
group, or nation (including Alaska Indians, Aleuts, and Eskimos) or 
Alaska Native Village, which has established a relationship with the 
Federal government as defined in our program regulations. In certain 
instances, tribal organizations may be eligible to apply.
    The Indian CDBG program can provide funding for recipients in the 
following categories:

    Housing--Housing rehabilitation, land acquisition to support new 
housing construction, and, under limited circumstances, new housing.

    Community Facilities--Infrastructure construction, such as roads, 
water and sewer facilities; and single or multi-purpose community 
buildings.

    Economic Development--A wide variety of commercial, industrial and 
agricultural projects, which may be recipient-owned and operated, or 
which may be owned and/or operated by a third party.

    The program is administered directly by the six Area Offices of 
Native American Programs, with policy development and oversight 
provided, under my direction, by the ONAP National Office. Each Area 
ONAP is responsible for a geographic jurisdiction that includes from 26 
to over 200 eligible applicants.
    The program regulations provide for two categories of grants, 
Imminent Threat and Single Purpose. Single Purpose grants are awarded 
on a competitive basis, pursuant to the terms published in the annual 
HUD Super NOFA (Notice of Funding Availability). Each Area ONAP 
receives a proportional share of all annual Indian CDBG grant funds 
available; it rates, ranks and awards grants to the eligible recipients 
within its jurisdiction.
    The Department may set aside in the NOFA a percentage of each 
year's allocation for the noncompetitive, first come-first served, 
funding of grants to eliminate or lessen problems which pose an 
imminent threat to public health or safety.
    Area ONAPs assist grantees throughout the grant period, which can 
be up to several years. Successive grants are often awarded.
Specific Comments on H.R. 1239
    H.R. 1239, the bill that is the subject of this hearing, would 
establish a moratorium on the ability of the Secretary of the Interior 
to approve the relinquishment of a lease on 8.78 acres of trust land in 
San Diego County, California unless all seven tribes or bands involved 
in this dispute approve the relinquishment by tribal resolution.
    What was HUD's role? Beginning in 1985 and ending in 1993, the 
Department approved the award of a series of four Indian CDBG grants, 
totaling $1,139,002, to assist in the construction and expansion of the 
Southern Indian Health Council's Alpine, California clinic. The funds 
were used for some of the construction costs for the facility, to later 
expand the clinic to include space for medical and dental services, and 
to further expand it by providing administrative offices. The last of 
the four grants was awarded in 1993 and closed out on March 21, 1996.
    Under HUD's Indian CDBG regulations at 24 CFR 1003.504, a grantee 
may not change the use of real property assisted in whole or in part 
with Indian CDBG funds prior to or within five years after the close-
out of a grant, unless certain conditions are met.
    The regulatory conditions include:
    -- Lnotifying affected citizens of the proposed new use and 
offering them an opportunity to comment on the proposed change; and
    -- Lreimbursing the Indian CDBG program in the amount of the 
current fair market value of the property, less any value attributable 
to the non-Indian CDBG funds used for the acquisition of, and 
improvements to, the property.
    However, all regulatory conditions on the use of the Alpine health 
clinic expired on March 20, 2001, five years after the last grant was 
closed out.
    I would like to point out that these Indian CDBG regulations on 
oversight and closeout procedures are identical to the regulations used 
in the Entitlement and Small Cities Community Development Block Grant 
programs, which are under the jurisdiction of my colleague Roy 
Bernardi, HUD's Assistant Secretary for Community Planning and 
Development.
Conclusion
    This concludes my prepared statement. I would be happy to answer 
any questions you might have. Thank you again for providing me with the 
opportunity to testify before the Committee.
                                 ______
                                 
    Mr. Hayworth. Thank you very much, Mr. Secretary.
    Let me turn to Secretary Smith.

STATEMENT OF WAYNE SMITH, DEPUTY ASSISTANT SECRETARY FOR INDIAN 
       AFFAIRS, UNITED STATES DEPARTMENT OF THE INTERIOR

    Mr. Smith. I will remember your admonishment about being 
brief and quick. Up front, the Department opposes this 
legislative solution. We believe that by having a Secretary 
obtain enacted tribal resolutions from each of the seven Indian 
tribes who comprise the nonprofit corporation infringes upon 
the internal workings of a legitimate corporation under 
California State law as well as the authority of the tribes who 
are members of the corporation. Clearly, we would want to 
confirm that any request for the relinquishment--that is a 
tough one, you are right--by the Health Council and/or the 
Cuyapaipe accurately reflects the desires of the parties to the 
lease and that the decision was reached in accordance with the 
council's bylaws.
    Federal legislation should not attempt to interfere with 
those requirements which govern the corporation's actions under 
State law. Let me assure you, though, that we take our mandate 
to make leasing decisions that are in the best interest of the 
tribe very seriously, and we would do in making any lease 
decision affecting all the tribes involved in this issue.
    Thank you.
    [The prepared statement of Mr. Smith follows:]

 Statement of Wayne Smith, Deputy Assistant Secretary, Indian Affairs, 
              U.S. Department of the Interior on H.R. 1239

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to provide the Department's view on H.R. 1239, a bill to 
establish a moratorium on approval by the Secretary of the Interior of 
relinquishment of a lease of certain tribal lands in California.
    The Department opposes this legislative solution as it purports to 
provide the Secretary with authority to interfere with the operations 
of a not-for-profit corporation organized under state law, pursuant to 
the choice of the tribal members of the corporation.
Background:
    In 1981, the Cuyapaipe (pronounced ``Kwee-ah-pie) Indian Tribe of 
San Diego County, California, along with seven other tribes (Barona 
Band, Campo Band, Jamul Band, LaPosta Band, Manzanita Band, Sycuan Band 
and Viejas Band) formed the Southern Indian Health Council, Inc. 
(``Council'' or ``SIHC''), a not-for-profit corporation (C1127659 filed 
on 10/18/1982), to serve the basic medical needs to tribal members. The 
corporation was formed under the laws of the State of California. A 
clinic was originally located on the Sycuan Reservation but relocated 
to the Barona Reservation in 1984, and subsequently relocated to land 
acquired by the Cuyapaipe Tribe 1986. The Sycuan Band has since 
withdrawn from the Council.
    In 1986, the Cuyapaipe Tribe acquired title, in trust, to a parcel 
of land comprised of 8.6 acres located along Interstate 8 in the County 
of San Diego in the State of California. The purchase of the land was 
made with private funds and the acquisition was approved by the 
Secretary on April 1, 1986.
    The Department of Housing and Urban Development had awarded four 
Indian Community Development Block Grants (ICDBG) from 1985 to 1993 to 
the Southern Indian Health Council for construction and expansion of a 
health care facility. Statements have been made that a portion of the 
ICDBG grant funds were used to purchase the 8.6 acres. However, a 
letter dated December 12, 2000, from the Deputy Assistant Secretary for 
Native American Programs for HUD states that funds for the purchase of 
the land did not come from the ICDBG program.
    In February 1997, the Secretary approved a 25-year lease with an 
option for one additional 25-year period between the Cuyapaipe Band and 
the Council for the purpose of constructing and operating a health care 
facility.
    In October 1997, the Cuyapaipe acquired an additional 1.42 acres of 
land in trust. The land is contiguous to the previously acquired 8.6 
acres. The purpose of the acquisition was to establish a ``Pinto Home 
for Girls, a drug abuse facility'' and the acquisition was approved by 
the Secretary on October 29, 1997.
    In October 1997, the Secretary approved a 25-year lease with an 
option for one additional 25-year period between the Cuyapaipe Band and 
the Council for the newly acquired 1.42 acres of land.
    In December 2000, the Cuyapaipe Tribe and Council submitted 
documents to the Bureau of Indian Affairs for a partial relinquishment 
of the leased premises lease.
Proposed Legislation:
    The legislation proposes that the Secretary obtain enacted tribal 
resolutions from each of the seven Indian tribes who comprise the SIHC 
prior to taking any action to approve a relinquishment of the lease.
    The Department believes that the imposition of such a requirement 
infringes upon the internal workings of a legitimate corporation 
organized under state corporations law, as well as the choices made by 
the Tribes that are members of the SIHC. As previously noted, the SIHC 
is a not-for-profit corporation comprised of seven tribal members, 
which elected to organize the corporation under California law. Every 
corporation has articles of incorporation and by-laws that govern how 
the corporation is run and how internal disputes are settled, which 
must be in accordance with the law of the jurisdiction where the 
corporation is organized. Accordingly, as long as any request for 
relinquishment of the lease complies with the SIHC's by-laws and 
relevant California State law, its action is legal and is the 
legitimate action of the corporation.
    Although the Department would want to confirm that any request for 
relinquishment by SIHC and/or the Cuyapaipe accurately reflect the 
desires of the parties to the lease, and that the decision was reached 
in accordance with SIHC's by-laws. Federal legislation should not 
attempt to interfere with those requirements, which govern the 
corporation's actions under state law, pursuant to the choice of the 
tribal members of the SIHC.
    Let me assure this committee, however, that the Department of the 
Interior and the Bureau of Indian Affairs would not take a request for 
relinquishment of this lease lightly. We would examine the request 
closely, as we do every leasing decision, in accordance with the 
authority granted to the Secretary by Congress and the United States' 
trust responsibility to the Cuyapaipe and the tribal members of the 
SIHC. Our mandate is to make leasing decisions that are in the best 
interest of a tribe. We take that mandate very seriously and would do 
so in making any lease decision affecting the Cuyapaipe and the seven 
member Tribes of the SIHC in this case, as well.
                                 ______
                                 
    Mr. Hayworth. Thank you very much, Mr. Secretary.
    Let's turn to Vice Chairman Garcia.

    STATEMENT OF MICHAEL GARCIA, VICE CHAIRMAN, EWIIAAPAAYP 
              (CUYAPAIPE) BAND OF KUMEYAAY INDIANS

    Mr. Garcia. Thank you, Mr. Chairman. Members of the 
Committee, my name is Michael Garcia. I am the Vice Chairman of 
my tribe, the Cuyapaipe Band of Kumeyaay Indians, a federally 
recognized tribal government in San Diego County. On behalf of 
my tribe, I would like to thank the Department of HUD and the 
Department of Interior for their comments and their testimony 
today.
    I also serve as my tribe's representative on the seven-
member board of directors that governs the Southern Indian 
Health Council, a nonprofit organization chartered under 
California State law. I am glad for the opportunity to testify 
on H.R. 1239 to set the record straight on matters of vital 
importance to my tribe. Simply put, this bill poses a serious 
threat to our tribal sovereignty.
    Let me summarize my statement as follows: My tribe believes 
this bill is misguided and should be abandoned for several 
reasons.
    First, the bill would override fundamental principles of 
tribal sovereignty by destroying legal agreements my tribe has 
reached with our tenant, SIHC, Incorporated. The bill would 
override a majority vote rule that SIHC adopted for itself 
pursuant to State law over a decade ago. The bill's retroactive 
unanimous consent rule would vest any one of our seven member 
tribes with unilateral veto decisions over decisions already 
made. How can it be fair for the Congress to step in and give 
one tribe this kind of veto power?
    Second, this bill would override SIHC Board decisions made 
last year in the open by local people about local matters and 
by a majority vote of the directors under SIHC rules of 
procedure consistent with California law. Should Congress be in 
the business of overturning local decisions lawfully made?
    Third, this bill would keep my tribe from spending $11.5 
million to construct and equip a much needed new health clinic 
facility. The bill would also deny Indians and non-Indians 
served by SIHC the benefit of expanded health facilities and 
services. In addition, my tribe will also contribute an 
estimated $100 million in supplemental funding over the 
following 15 years. Can anyone point to any other tribe that 
will have to spend as much as $11.5 million up front on 
governmental services before they construct a gaming facility?
    Fourth, this bill is premised on a series of falsehoods. 
Here are the facts. Cuyapaipe is the sole beneficial owner of 
the Alpine trust land. The land was purchased with non-Federal 
funds. Cuyapaipe is bound by legally enforceable agreements 
with SIHC to construct bigger and state-of-the-art clinics to 
replace SIHC's scattered clinic buildings. Our contractual 
obligations guarantee that clinic and gaming facility 
construction will not disrupt ongoing health services in any 
way. Only after the new replacement clinics are operating will 
the old clinic buildings be removed and gaming-related 
construction begin.
    As mentioned before by the HUD representative, all HUD 
compliance requirements have been satisfied. Irresponsible 
allegations of unlawful activities are reckless and totally 
unfounded. We have extensive local community support for the 
project. Given the disparity between Viejas band's preposterous 
allegations in its testimony, I question whether the leadership 
has even read the lease amendment agreements.
    Fifth, this bill deeply offends us. It would cause--it 
would strip my Cuyapaipe Tribe from our right to start gaming 
in our land. Cuyapaipe waited to pursue any gaming until after 
the voters of California voted twice overwhelmingly to permit 
Class III gaming by all tribes until after we had a Tribal-
State Compact under IGRA. Other tribes did not wait. Are we to 
take a lesson from this bill that Cuyapaipe should have begun 
gaming when it was unlawful.
    Sixth, the further delay called for by H.R. 1239 will kill 
this project. My project and SIHC have been talking about this 
for 5 years. The talk has turned into protracted and intense 
negotiations throughout 1999 and 2000 in which all seven SIHC 
board members actively participated. This resulted in the 
agreement, the approval of which has been pending at the 
Department of Interior since December 26th of 2000.
    I think everybody's favorite words in all these testimonies 
is: In conclusion, my tribe has committed substantial revenues 
at unprecedented levels for health care, education, and other 
needs identified for our local communities. Millions of these 
dollars will be spent in advance of any gaming activity. We 
have obtained the agreement of our tenant to vacate part of our 
pre-IGRA trust land. The BIA as trustee should applaud and 
approve this and allow us to dramatically improve health care 
services and become economically self-sufficient. Likewise, 
Congress should reject all calls to interfere in this process. 
In particular, Congress should reject H.R. 1239 because it is 
premised on falsehoods. It would carry out a misguided, 
inequitable, and unsound policy that violates the Department's 
trust responsibility to Cuyapaipe, and it runs roughshod over 
our tribal sovereignty.
    Thank you for this opportunity to testify, and I appreciate 
the attention this Committee has given to this issue, 
especially during this time of national crisis.
    [The prepared statement of Mr. Garcia follows:]

 Statement of the Honorable Michael Garcia, Vice-chairman, Ewiiaapaayp 
 (Cuyapaipe) Band of Kumeyaay Indians and Alternate Director, Southern 
                      Indian Health Council, Inc.

Introduction.
    Good morning, Mr. Chairman and members of the Committee. My name is 
Michael Garcia. I reside in San Diego County, California. I appear 
today as the elected Vice-Chairman of my Tribe, the Ewiiaapaayp Band of 
Kumeyaay Indians, also known as the Cuyapaipe Band of Mission Indians, 
a federally-recognized tribal government. I also serve as my Tribe's 
alternate Director on the seven-member Board governing the Southern 
Indian Health Council, Inc., commonly known as SIHC, Inc., a non-
profit, public benefit corporation chartered by the State of 
California. Each of seven member tribes appoints a representative to 
the SIHC, Inc. Board of Directors. I appreciate the opportunity to 
testify on H.R.1239 and related matters that are vital to my Tribe and 
to our Tribal Sovereignty.
Summary Statement.
    I am here to explain why my Tribe believes H.R. 1239 is misguided 
and should be abandoned. Our reasons can be summarized as follows:
    First, the bill would over-ride fundamental principles of Tribal 
Sovereignty by voiding legal agreements my Tribe has reached with SIHC, 
Inc., our tenant. The bill would dictate that certain tribes cannot set 
our own rules for how we make decisions in organizations we govern. The 
bill plainly tells my Tribe we cannot carry out internal matters of 
self-government without Federal interference.
    Second, the bill would overturn a year-old decision by SIHC, Inc. 
that was made (a) in the open, (b) by local people, (c) about a local 
matter, and (d) by a majority vote under rules of procedure adopted by 
SIHC, Inc. consistent with California law.
    Third, as a practical matter, the bill would remove all possibility 
that my Tribe can use very substantial non-Federal funds to develop and 
expand critically-needed health facilities and services in our 
community. The bill would destroy a development project that will bring 
both construction and operation jobs and economic activity to our 
community. The bill is an affront to our right, founded in basic 
doctrines of Tribal Sovereignty and federal law, to conduct lawful 
gaming on our own trust land.
    Fourth, a few detractors have spread misinformation about the 
Cuyapaipe project that we have repeatedly been forced to correct, as we 
do again in this testimony below. Cuyapaipe is the sole beneficial 
owner of the Alpine clinic trust land. The land was purchased with non-
Federal funds. HUD funds supported the construction of the old clinic 
facilities. With non-Federal funds, Cuyapaipe will construct two or 
three new, bigger, and state-of-the-art clinics to replace these aging, 
scattered clinic buildings. Contractual obligations guarantee that the 
construction will not disrupt ongoing health services in any way. Only 
after the new replacement clinics are open and operating will the old 
scattered clinic buildings be removed and gaming-related construction 
begin. All HUD compliance requiremnts have been satisfied.
What are the Local Decisions Which H.R. 1239 Seeks to Over-ride?
    My Tribe, the landlord, signed an agreement with our tenant, SIHC, 
Inc., <SUP>1</SUP> to amend their lease so as to reduce the amount of 
Cuyapaipe trust land which SIHC, Inc. now uses in Alpine from from 8.6 
acres to about 2.5 acres. <SUP>2</SUP> In simple terms, my Tribe's 
Agreements with SIHC, Inc. involve an exchange. We get some of our land 
back from our tenant earlier than scheduled, and in exchange, SIHC, 
Inc. gets two or three new, state-of-the-art health clinic facilities 
to replace their aging and scattered buildings. My Tribe's contractual 
obligation is to provide approximately $11.5 million to build the new 
replacement clinic facilities for SIHC, Inc. as well as an additional 
15-year stream of Cuyapaipe contributions estimated to total $100 
million for further facility and operational support of SIHC, Inc. plus 
additional revenue sharing over a total of 36 years.
---------------------------------------------------------------------------
    \1\ SIHC, Inc. is a California non-profit corporation governed by 
its own rules and by-laws as are all similar corporations in 
California. The seven Directors of SIHC, Inc. represent seven area 
Indian Bands (Barona, Campo, Cuyapaipe, Jamul, La Posta, Manzanita and 
Viejas). Today, the SIHC, Inc. Alpine clinic encompasses some 26,500 
sq. ft. spread among three primary buildings and some modular units, 
all tiered into the hillside north of Willows Road. Over the past year 
this clinic has received more than 61,000 patient visits with roughly 
50% of those patients being non-Indian fee-for-service patients.
    \2\ This is practical since we would be consolidating a number of 
buildings and temporary facilities now scattered across a steep 
hillside into one new and larger consolidated clinic building that will 
ease patient access and increase administrative efficiencies.
---------------------------------------------------------------------------
    Once made, such a decision by a landlord and tenant should 
ordinarily be the end of the matter. But the lease in question involves 
land held in trust for my Tribe by the U.S. Department of the Interior. 
With respect to this land, and this lease, my Tribe alone is the sole 
beneficiary of that trust responsibility. Thus, the Department's sole 
and only duty as trustee is to protect the interests of my Tribe. Like 
any trustee, the Department's approval must be obtained before a 
decision made by its beneficiary is given legal effect. Accordingly, as 
soon as our agreements were given final approval and ratification by 
the SIHC, Inc. Board of Directors in December, 2000, my Tribe asked the 
Department to approve the lease amendment agreements, also known as the 
lease relinquishment agreements.
    We are astounded that H.R. 1239 is being given any consideration 
whatsoever. The bill's basic premise is the time-worn and discredited 
notion that imperial Washington, D.C. ``knows better than the local 
Indians what is best for the Indians'' and thus the Federal government 
should reverse a local decision.
H.R. 1239 Would Interfere with the Department's Trust Duties Owed to 
        Cuyapaipe.
    By seeking to over-ride the SIHC, Inc. vote to accept the lease 
amendment, H.R. 1239 would prevent the Department from approving the 
early return of Cuyapaipe trust land to the Cuyapaipe. There can be no 
dispute that this land is held for the sole benefit of the Cuyapaipe 
Band. Congressman Hunter, the sponsor of H.R. 1239, years ago supported 
our efforts to have this land placed in trust for the Cuyapaipe Band. 
In a June 13, 1985 letter to the Department, Mr. Hunter wrote: ``I 
strongly urge you to take whatever action is necessary to expedite 
placing this 8.6-acre tract in trust, by the Department of the Interior 
(Bureau of Indian Affairs) for the Cuyapaipe Reservation, so that 
construction of a new health center can begin in a timely manner.'' 
(emphasis added). In recent months, one rationale given for H.R. 1239 
is that the land was never intended for the benefit of the Cuyapaipe 
alone. Mr. Hunter's own words at the time of the 1985 purchase 
indicates otherwise.
Congress Should Stay Out of It; The Department's Approval of the Lease 
        Amendment Agreements is Ministerial.
    For several reasons, the Department's decision to approve the lease 
amendment Agreements should be properly seen as a simple, ministerial 
act to be given without delay. The proper role of the Department as 
legal trustee is quite limited on such an issue. Its only question on 
review should be: `Is an early return of the trust land to the Tribe, 
the sole trust beneficiary, in the best interest of the Tribe?' The 
answer to that appropriately narrow question has to be `yes'. The 
Cuyapaipe, like any landlord, should be permitted to renegotiate its 
lease with a willing tenant if the landlord finds a better use for its 
land. Likewise, the tenant has concluded, without any need for 
Congressional advice or second-guessing, that the lease amendment 
Agreements are very much in its interests. The Department, as trustee, 
is obliged to approve such an amendment that benefits its trust 
beneficiary. The Department should expedite the approval in order to 
avoid delays that risk competitive harm and loss of opportunity for its 
beneficiary.
H.R. 1239 Seeks to Overturn Bona Fide Local Votes of the SIHC, Inc. 
        Board.
    The Cuyapaipe Band has not rescinded or revoked its lease with 
SIHC, Inc. The Board of the SIHC, Inc. took a series of votes during 
2000 as the lease amendment Agreements took shape. The last and 
definitive vote was taken on December 18, 2000, when its seven-member 
Board of Directors approved the final lease amendment Agreements by a 
vote of four in favor, one opposed, one present but abstaining, and one 
absent. The Chairman of the SIHC, Inc. Board of Directors, Mr. Ralph 
Goff, Chairman of the Campo Band of Mission Indians, was present but 
did not vote, abstaining in his capacity as Chairman. Chairman Goff 
today will testify in opposition to HR 1239 and in support of the lease 
amendment Agreements. The only Director absent was the representative 
of the Viejas Band of Mission Indians who, although the meeting was 
lawfully and adequately noticed, chose not to attend or to send an 
alternate Director to this important meeting of the SIHC, Inc.
    At an earlier July 10, 2000 meeting of the Board of Directors, six 
directors were present for the vote on Resolution 00-07-10-01 approving 
the transactions between the Cuyapaipe Band and SIHC, Inc. Three 
directors voted in favor, two voted against, and one abstained. The 
Director appointed by the Cuyapaipe Band, by agreement of the Board, 
purposefully absented himself for this vote.
    The SIHC, Inc. Board of Directors has intended, understood, and 
treated abstentions as neutral; such abstentions have not been counted 
in determining whether there is a majority vote. As of July 10, 2000, 
however, the SIHC, Inc. by-laws did not specifically address this 
understanding. Thus, after proper notice the Board voted 5-2 on 
November 27, 2000 to amend the bylaws to clarify this original Board 
intention.
No HUD Funds Were Used to Purchase our Trust Land in 1985.
    Some Members of Congress have been erroneously told that we used 
Indian community development block (CDB) grant funds received from HUD 
when in 1985 we purchased the land we now hold in trust, and that 
facilities funded with HUD grants are being inappropriately disposed. 
In fact, last year Congressman Hunter introduced legislation (as H.R. 
5477) that would have prohibited the Cuyapaipe Agreements if Federal 
funds were used for land acquisition. After the Cuyapaipe Band 
documented the fact that no Federal funds were used, Congressman Hunter 
amended his legislation to its present focus of dictating unanimous 
consent rules upon SIHC, Inc.
    Here are the facts. In 1985, an initial CDB grant was awarded to 
the Cuyapaipe Band for construction, contract services and 
administration of the SIHC, Inc. health clinic. None of the federal 
funds provided by this grant were used for land acquisition. Instead, a 
private bank loan from the Pacific Commerce Bank was used to purchase 
the Alpine Site for a total of $85,000. A portion of those funds was 
contributed personally by former Cuyapaipe Chairman Tony Pinto. In a 
letter sent to the Chairman of the Viejas Indian Tribe, dated December 
12, 2000, the U.S. Department of Housing and Urban Development stated: 
``The audit of the project supports the claim that the 8.9 acre parcel 
was not purchased with federal funds.'' (See attached December 12, 2000 
letter from HUD).
    Four CDB grants funded construction of the SIHC, Inc. facilities on 
the Cuyapaipe trust land leased to SIHC, Inc. A HUD letter (attached) 
to Viejas Tribal Chairman Steve TeSam dated September 14, 2000 
confirmed, pursuant to ICDBG regulations at 24 CFR 1003.504, that the 
first three CBD grants had been previously ``closed-out'' properly. The 
fourth and last CDB grant closed out on March 20, 2001. The HUD letter 
concludes that after March 20, 2001 there are no more constraints on 
the use by SIHC, Inc. of these facilities. Of course, this inquiry begs 
the question--why would the U.S. object to us replacing these 
Federally-funded buildings and modular units with modern, bigger, 
better, and consolidated facilities paid for by non-Federal funds?
The Viejas Band's Opposition Is Transparent.
    Who, one might reasonably ask, would benefit if they could block 
the dramatic improvements in SIHC, Inc. health facilities and programs 
that will come from the Cuyapaipe-SIHC, Inc. Agreements? It can only be 
those with interests and agendas other than health care. Perhaps those 
interests include those of the present Viejas tribal leadership who 
operate a casino one mile east of Cuyapaipe's trust land in Alpine 
where we intend to develop our gaming.
    Since the key SIHC, Inc. vote at which they were absent, the 
present Viejas leadership have not availed themselves of any of the 
numerous opportunities they have had to resolve whatever issues they 
may have with our lease amendment Agreements. Until seven days ago, the 
Cuyapaipe Band has not been able to obtain an answer from Viejas as to 
why Viejas opposes our Agreements. The Cuyapaipe Band wrote letters to 
Viejas dated November 6, 2000, December 11, 2000, June 14, 2001, and 
June 29, 2001, without ever receiving a substantive response. Cuyapaipe 
Tribal officials made repeated telephone calls to Viejas Tribal 
officials without a response until Viejas Tribal Chairman Steve TeSam 
returned Cuyapaipe Tribal Chairman Harlan Pinto's telephone calls on 
October 10, 2001, and offered, as an explanation for his opposition, 
only that the Viejas membership had voted more than one and one-half 
years ago that the SIHC, Inc. should remain ``status quo.'' But that 
``vote'' occurred many months before the terms of our lease amendment 
Agreements with SIHC, Inc. were negotiated.
    By avoiding every opportunity to address any concerns they may have 
about our Agreements, present-day Viejas leaders have failed to allow 
established processes to work. Rather than Viejas conferring and 
consulting with SIHC, Inc. and the Cuyapaipe Band, Congress has been 
asked to insert itself into a local issue and over-ride a local 
decision made under state-sanctioned corporate bylaws adopted by 
representatives of seven sovereign tribal governments for purposes of 
their internal governance.----
    The Indian Gaming Regulatory Act of 1988 (IGRA), the agreements 
between SIHC, Inc. and the Cuyapaipe Band, California Corporations law, 
Proposition 1A, Cuyapaipe's Tribal-State Compact, other applicable 
federal laws, and applicable HUD regulations provide appropriate 
protection for all interests and all interested parties. Legislation 
like H.R. 1239 has absolutely no merit, especially, where as here, it 
is based upon distortions and misrepresentations which would serve, if 
believed, to protect the Viejas Band's present gaming monopoly at the 
expense of public health improvements and at the expense of a small 
neighboring Tribe. For the Congress to permit H.R. 1239 to be enacted 
would be contrary to the principles of free enterprise, market 
capitalism, fair competition, and fair play that are at the very heart 
of American political values.
Our Pending Lease Amendment Agreements Do Not Involve Gaming Approvals.
    Our request to approve our lease amendment agreement is the only 
decision now pending before the Department of the Interior before we 
can proceed to implement the Agreements. All gaming-related compacts 
and authorities are already in place and approved. In 1986, two years 
before the Indian Gaming Regulatory Act of 1988 (IGRA) was enacted, the 
land at issue was accepted into trust for the Cuyapaipe Tribe. In 1998, 
the people of the State of California voted overwhelmingly to permit 
Indian tribes to conduct gaming on tribal trust lands pursuant to IGRA. 
In September, 1999, the Governor entered into a Tribal-State compact 
with my Tribe. In March, 2000, the people of the State of California 
again overwhelmingly voted to permit Indian gaming on tribal trust 
lands pursuant to IGRA. In May, 2000, the U.S. Department of the 
Interior approved the Cuyapaipe-California Tribal-State Compact. Unlike 
Viejas, my Tribe waited until tribal government gaming was 
unquestionably lawful and permitted before we began to develop plans to 
conduct gaming on our trust land.
    Our Agreements are fully consistent with Proposition 1A; my Tribe's 
trust land is eligible for tribal government gaming pursuant to IGRA. 
Our Tribal-State Compact contemplates our Band's trust land to be among 
those lands eligible for gaming (Sec. 4.2. Authorized Gaming Facilities 
- ``The Tribe may establish and operate not more than two Gaming 
Facilities, and only on those Indian lands on which gaming may lawfully 
be conducted under the Indian Gaming Regulatory Act'').
Waiting Until Gaming was Lawful Has Resulted in a Cruel Irony for 
        Cuyapaipe.
    We find H.R. 1239, and the fact of this hearing, to be painfully 
ironic since the California voters' proposition campaign was supported 
by all the Tribes of California, including those already conducting so-
called grey-market gaming as well as those, like Cuyapaipe, who were 
not, was premised on each Tribe having the right to conduct lawful 
gaming under IGRA on tribal trust land. Consider the words of the 
immediate past Chairman of the Viejas Band, Anthony Pico, after 
Proposition 1A, the California Indian Self-Reliance constitutional 
amendment, received a 64.6% approval by statewide voters, with a 71% 
majority in San Diego County, the highest support percentage of any 
county in California:
    ``Despite what the opposition has said, Prop 1A was not about slot 
machines, religion or regulation. Like Prop 5, Prop 1A was about jobs 
and justice. Specifically it was about whether Indians would have the 
right to the same economic venues as other governments and commercial 
interests. More importantly, Proposition 1A was about our right to 
exist into the future.
    The Cuyapaipe Band thought, and I would submit that 71% of the 
voters in San Diego County thought, that Proposition 1A was about the 
future existence of all federally-recognized tribes in California, 
including both the Cuyapaipe Band and the Viejas Band.
    The Viejas Chairman went on to say: ``Tonight's victory is a 
vindication of the voters' will over the power of a few to change the 
course of the future through legal technicalities and political 
obstruction.'' Now, the Viejas Band is asking the U.S. Congress to use 
legal technicalities to politically obstruct the outcome of a majority 
vote by the Board of SIHC, Inc. so as to prevent my Cuyapaipe Band from 
building a casino on our own land and dramatically improving health 
care for Indians and non-Indians alike in East San Diego County. I ask, 
on behalf of my Tribe, that this Committee not permit the Congress to 
interfere in our local affairs. I ask this Committee to stand up for 
what is right and stop this bill from moving forward.
Cuyapaipe's Agreements Represent the Highest Fulfillment of IGRA.
    During the extensive congressional debate which preceded enactment 
of IGRA, numerous Members of Congress stated that one of the many goals 
intended to be achieved by this new statute was the creation of a 
process through which tribes could generate revenues which could be 
used to supplement the enormous shortfall in Federal funds needed by 
those tribes for tribal purposes including the construction and 
operation of health facilities. Cuyapaipe believes there is no better 
way for us to advance the intentions and goals of IGRA than to devote 
gaming revenues to the task of replacing aging health facilities, 
supplementing dwindling federal health appropriations, and supporting 
other community projects. There is presently no more critical 
governmental function in eastern San Diego County than the provision of 
health care. Our tribal members, and those of our neighboring tribes, 
and indeed a majority of our non-Indian neighbors, all agree that 
improving and expanding health care is a top priority.
    If H.R. 1239 is enacted, the Cuyapaipe Tribe's carefully laid plans 
to develop lawful gaming and substantially support health care will be 
shredded. Is it acceptable public policy to punish a Tribe that has 
strictly adhered to Federal law, while others who have not waited for 
lawful authority are rewarded? Surely it is not.
    It is unprecedented for a Tribe like Cuyapaipe to pledge and spend 
such a considerable sum of money in advance of any gaming revenue. The 
Cuyapaipe Tribe is able to allocate these very substantial 
contributions to our Indian and non-Indian neighbors because we are a 
small Tribe and because Cuyapaipe tribal leadership has insisted that 
our Band continue our strong support for SIHC, Inc. We know of no other 
Tribe in which its initial and long-term financial contributions to 
health care are so large, and for the benefit of so many non-members of 
the contributing Tribe. We are surprised, frankly, that our generosity 
is met with such mis-information and hostility by a few people.
Local Community Support for the Cuyapaipe Agreements is Strong.
    We have extensive local support within the Alpine community. 
Cuyapaipe has worked closely with the Alpine community for the past 
year to identify community projects that could benefit from financial 
contributions by my Tribe. Health care, particularly the provision of 
urgent care services, is of increasing concern given the recent closure 
of the nearest emergency services hospital, and appears to be the top 
priority. Increased funding for education, police and fire protection 
are very urgent priorities as well. The Cuyapaipe Tribe is engaged in 
extensive, ongoing discussions with various groups within the Alpine 
community to identify projects which the Tribe will support with 
substantial financial contributions. The construction of these health 
clinics and casino, as well as their operations, will sharply boost the 
number of jobs in eastern San Diego County with resulting benefits from 
increased economic activity and tax revenue.
    If the Congress abandons H.R. 1239 and the Department approves our 
lease amendment agreements, our next step will be to build a $1.5 
million replacement clinic on the Campo Reservation for SIHC, Inc., a 
$5 million replacement clinic on 2.5-acres of the present 8.6-acre 
leased parcel, and in just the first 15 years of our gaming operation, 
provide an estimated $100 million to SIHC, Inc. as a percentage share 
of our gaming revenues. We have also engaged in discussions with the 
local Alpine community regarding our plan to provide an estimated $11 
million in charitable contributions to the community over the first 
seven years, after we begin operating our tribal government gaming 
enterprise, to be used for education (construction of a new Alpine high 
school), open space, recreation, a new Alpine library, an Alpine 
community center, Alpine Fire Protection District, San Diego County 
Sheriff's Department, and land for a San Diego County Sheriff 
Department Alpine substation. In addition, if, before we begin 
construction of the $5 million replacement clinic on the 2.5 acres 
(discussed above), the Interior Department can approve our pending 
application to accept into trust status the 17 acre Alpine Boulevard 
property we recently purchased across the interstate from our present 
trust parcel, we will divert that $5 million to combine it with another 
$5 million we will contribute to construct a larger $10 million clinic 
with the potential for urgent health care services at the Alpine 
Boulevard property.
Enactment of H.R. 1239 Would Reward Unfair Competition.
    If H.R. 1239 is enacted and the Interior Department otherwise fails 
to approve our lease amendment Agreements, none of the financial 
commitments or activity recited in the preceding paragraph can occur. 
In fact, the only ``winner'' is the protection of the Viejas Band 
Enterprise's gaming casino that will continue to operate without nearby 
competition.--On September 14, 1999, the San Diego Union-Tribune quoted 
immediate past Viejas Tribal Chairman Pico about the prospect of 
competition from other tribes following the voters'approval of 
Proposition 1A:
    ``Pico said Viejas isn't worried about competing for the local 
gambling business because `there's plenty enough to go around'...Pico 
said market constraints would dictate the size of new casinos in rural 
areas of the county and state.''
    The present Viejas leadership now appears to have done a complete 
about-face. Viejas recently amplified its opposition to our lease 
amendment Agreements in its letter to the BIA dated September 20, 2001 
that opposes the Cuyapaipe Band trust application for the Alpine 
Boulevard property we want to lease to SIHC, Inc.
    In that letter, Viejas states: ``Viejas has focused its community 
and economic development efforts on its own reservation, with recent 
success in the viability of the tribal economy...'' But what Viejas 
leaves unsaid is that eight years of its success was accomplished 
through unlawful Class III gaming without a gaming compact with the 
state of California and without federal regulation.
    The Viejas letter also claims: ``Ewiiaapaayp is attempting to 
undermine the Viejas Reservation economy...''--But the Cuyapaipe Band's 
economic development is authorized by Federal law, by State law, and 
will be developed pursuant to a Tribal-State compact approved by the 
Governor, the California Legislature, and the Interior Secretary in 
conformity with the overwhelming majority of the California voters. Our 
development plan represents the finest in free enterprise, capitalism, 
and fair competition that is intended to lead to self-sufficiency. How 
can this Committee and the Congress be against this? Yet H.R. 1239 is 
designed to kill our development at its roots.
    The Viejas letter also states: ``This type of encroachment on the 
Viejas tribal community's economic sustainability cannot be 
tolerated...'' There is only one conclusion to draw from this--Viejas 
is trying to use power it obtained through eight years of unlawful 
gaming to get the Congress to--block the Cuyapaipe Band and SIHC, Inc. 
from exercising their lawful powers of self-determination and free-
enterprise to--improve--health care for--Indians and non-Indians alike, 
and to restore the Cuyapaipe economy.----
    The Viejas letter then concludes that: ``The BIA cannot, therefore, 
take any action which would facilitate Ewiiaapaayp off-reservation 
gaming at the direct expense of the Viejas Band...'' First, let me be 
clear, the Viejas reference to ``off-reservation'' is mis-placed. Our 
eight acre parcel is tribal trust land, and the Indian Gaming 
Regulatory Act of 1988 specifically authorizes Class III gaming under 
our September 10, 1999 Tribal-State Compact on that land. Second, with 
this statement the Viejas Band is saying the Interior Department has a 
trust responsibility to Viejas to over-ride the Department's trust 
responsibility to Cuyapaipe. If this policy were adopted, it would 
violate fundamental Federal-Indian principles of the government-to-
government relationship the United States has with each Tribe. Viejas 
is voicing opposition to decisions that were made a long time ago. 
Congress enacted IGRA in 1988. The Governor signed and the Department 
approved our Compact in 1999 and 2000, respectively (when Viejas 
likewise first received its lawful gaming compact).
    H.R. 1239 would require any alterations to leases entered into by 
SIHC, Inc. to have the approval of the tribes of all seven SIHC, Inc. 
Directors by tribal resolution in order to be given effect. This would 
vest unilateral power in any single one of the seven member tribes of 
SIHC, Inc. to veto the Agreement, which is the apparent intention of 
the Viejas Band in supporting H.R. 1239. We believe it is an 
inappropriate use of Congressional power to dictate changes to the by-
laws of but one specific non-profit corporation in the entire country. 
Such a vote requirement is inconsistent with the requirements of 
California corporations law and imposes an almost insurmountable 
barrier to the conduct of business. It is not a proper role for the 
federal government to ``fix'' the outcome of corporate Board actions by 
giving one member the power to thwart the will of the majority, 
particularly when the outcome serves the self-serving interests of the 
one at the expense of the interests of the majority, and especially 
when the financing and political influence of the one to promote such a 
change in law were primarily derived from unlawful activities.
Cuyapaipe Has Always Given Significant Leadership to the SIHC, Inc. 
        Health Program.
    The Cuyapaipe Band, and most specifically our recently-retired 
Chairman Tony Pinto, has a long history of leadership in the area of 
Indian health care and social services. ``Uncle Tony'' (as so many know 
him), has been the catalyst for many developments and improvements in 
East County. He was a key founder of SIHC, Inc. Uncle Tony led the 
effort to rescue the SIHC, Inc. clinic when it sought a new location. 
SIHC, Inc. is no stranger to moves. It had to move from the Sycuan 
Reservation to the Barona Reservation in the early 1980s. When it had 
to move again in 1984, Uncle Tony stepped forward. He identified Alpine 
as a location well suited to respond to the twin problems besetting 
SIHC, Inc. in 1984: (a) an insufficient land base to allow for needed 
clinic expansion; and (b) the need for a central location to allow for 
ease of access by SIHC, Inc. member tribes. Alpine was centrally 
located within the Kumeyaay homelands. The Viejas Band then had about 
1,657 trust acres in the Alpine community and SIHC, Inc. appealed to 
Viejas for a long term lease of 10 acres.
    In a letter from the Viejas Band to SIHC, Inc. dated October 18, 
1984 the Viejas Band declined the SIHC, Inc. request for lease of a 10-
acre site for the clinic. Viejas Tribal Chairman Anthony Pico stated:
    ``...[W]e have carefully considered your request for a 10-acre site 
on the Viejas Reservation with a long term lease and can not offer you 
such a site. The Viejas Reservation is pursuing a vigorous development 
plan and all suitable sites are presently identified for development. 
Also, the facts are there is heavy concern from the tribal general 
council which prevents us from offering a site. Hope your efforts are 
successful.''
    The Cuyapaipe Band offered to do more than just hope SIHC, Inc. 
would be successful. The Cuyapaipe Band found available land suitable 
for the clinic in Alpine, acquired the land with non-federal funds, 
conveyed this fee land to the United States in trust, and leased the 
land to SIHC, Inc. for 25-years plus 25-year option for a rent of $1 
per term. <SUP>3</SUP> The Cuyapaipe Band went to these great lengths 
despite the fact that the rest of our trust land base could not support 
economic development, located as it is in the remote Laguna Mountains 
35 miles northeast of Alpine, and comprised of 4,102 acres of sharp 
mountain ridges and steep slopes at elevations between 5,600 ft and 
6,600 feet with but 2% of the land base suitable for buildings. 
<SUP>4</SUP>
---------------------------------------------------------------------------
    \3\ In exchange for this nominal rent, SIHC, Inc. helped pay off 
the mortgage with non-Federal funds.
    \4\ This trust land has a single-lane access road that is 12 miles 
of steeply graded, narrow, unmaintained dirt road crossing private, 
U.S. Forest Service, Bureau of Land Management, and San Diego County 
properties with two locked gates. This land lacks all basic utility 
services, and it would be cost prohibitive to do so. Congress enacted 
the California Indian Land Transfer Act of 2000 that returned Bureau of 
Land Management surplus land to six tribes, including 1,360 acres to 
our land in the Laguna Mountains. However, of this acreage, 928 acres 
was previously part of a trust land there, but was removed on paper by 
errant BLM surveys, with no relief provided by the BIA despite repeated 
complaints by the Band. As a result, the Cuyapaipe trust land will only 
increase by 432 acres, all of which is on ridge tops or steep slopes. I 
doubt that in my lifetime my Tribe will ever be able to make any 
significant economic development use of our 4,102-acre trust land in 
the remote Laguna Mountains. The best and highest use of our Alpine 
trust land, both for the Band and SIHC, Inc., is to return its right of 
use to the Band in order to significantly improve SIHC, Inc.'s ability 
to provide health care to all residents of East San Diego County.
---------------------------------------------------------------------------
The Cuyapaipe Agreements Offer a Unique Opportunity to Expand and 
        Improve Health Care Provided by SIHC, Inc.
    As a result of the Agreements with the Cuyapaipe Band, SIHC, Inc. 
will receive either a $5 million clinic in Alpine on Willows Road and 
later another $5 million clinic on Alpine Boulevard, or a $10 million 
clinic on Alpine Boulevard should the BIA expedite the trust approval 
of the 17-acre Alpine Boulevard property and its lease to SIHC, Inc. In 
addition, <SUP>5</SUP> the Cuyapaipe Band will contribute over the 
first 15 years of its gaming operations an estimated $100 million to 
SIHC, Inc. from the Band's casino revenues. These very significant 
benefits include:
---------------------------------------------------------------------------
    \5\ Our development plan is carefully calculated so as to not 
disrupt the delivery of any health care services at any time. The 
existing clinic buildings will remain fully accessible and functional 
throughout the entire construction process of their new replacement 
clinics in Alpine and Campo. Only after SIHC, Inc. certifies that each 
new facility is ready for occupancy will they move from the old 
buildings to the new. Roadway access in Alpine will be totally separate 
from access to the future gaming construction and facility site. Only 
after the new consolidated clinic is fully occupied will the old clinic 
buildings be torn down and the construction of a casino begin. 
Throughout all phases, from construction through to operations, roadway 
and parking lot access will be kept intact, with the old and new clinic 
traffic at all times kept separate from the construction and casino 
traffic.
---------------------------------------------------------------------------
    <bullet> LThe $100 million contribution will permit SIHC, Inc. to 
develop a world class clinic to serve the people of our community - 
Indians and non-Indians alike. Among many other benefits, we expect 
this to permit SIHC, Inc. to respond to our community's desperate need 
for urgent care/emergency services.
    <bullet> LThe Band will build SIHC, Inc. a new clinic building on 
the northern-most 2.5 acres of our current Alpine trust parcel. This 
33,500 sq. ft. facility (the ``CCB'' or consolidated clinic building) 
will consolidate all existing scattered facilities and operations under 
one roof, providing more modern and spacious amenities as well as the 
possibility of adding additional services. It has been designed by one 
of the foremost clinic design firms in the Country.
    <bullet> LThe Band will also build SIHC, Inc. a new clinic building 
on the Campo Reservation (the ``Campo Clinic''), to serve residents of 
the outer reaches of what we call East County. This 8,000 sq. ft. 
facility will replace an existing 2,500 sq. ft. modular building.
    <bullet> LThe Band recently acquired a 17-acre parcel of land on 
Alpine Boulevard just across the interstate from our Alpine trust site. 
We have applied to the BIA to accept this land in trust for the Tribe, 
following which it will be dedicated to the exclusive use of SIHC, Inc. 
The Band is committed to funding a $5 million clinic (the ``Alpine 
Boulevard Clinic'' or ``ABC'') on this site, to form the centerpiece of 
the major clinic to be developed over the coming years (utilizing some 
of the $100 million noted above). Under our Agreement with SIHC, Inc., 
this 17-acre parcel must be accepted in trust by the Department before 
we can build a clinic on it for SIHC, Inc. for a number of reasons. The 
chief reason is that locating SIHC Inc.'s operations on trust land 
insulates SIHC, Inc. from being subjected to costly union organizing 
and collective bargaining and other requirements of the National Labor 
Relations Act (NLRA) that infringes on Tribal Sovereignty and that 
would divert funds from the provision of critically needed health care. 
The NLRA does not contain language expressly applying the NLRA to 
tribal governments nor expressly exempting such governments. In a 1988 
case involving SIHC, Inc., and in several other cases, the National 
Labor Relations Board (NLRB) has consistently held that a tribally 
owned and operated enterprise located on Indian trust lands is exempt 
from the NLRA. <SUP>6</SUP> At the time its case was before the NLRB, 
the SIHC, Inc. clinic was located on Barona trust lands. Its location 
on trust lands was cited as a key factor in the NLRB's decision 
precluding attempts at union organizing on tribal trust lands. In 
addition, locating on trust land allows SIHC, Inc., to operate as a 
federally qualified health center subject to review by the IHS.
---------------------------------------------------------------------------
    \6\ Fort Apache Timber Company, 226 N.L.R.B. 503 (1976); Southern 
Indian Health Council, Inc., 290 N.L.R.B. 436 (1988); Sac & Fox 
Industries, Ltd., 307 N.L.R.B. 241 (1992).
---------------------------------------------------------------------------
    The Band has supplied financing to construct the clinics, secured 
by an irrevocable letter of credit. Construction of the CCB will 
proceed soon after the BIA approves the Tribe's lease amendment 
Agreements with SIHC, Inc. Development of the Alpine Boulevard Clinic 
site will proceed once that land is taken into trust by the BIA. If 
both these BIA actions occur virtually simultaneously, this would then 
permit the $5 million earmarked for the CCB to be combined with the $5 
million intended for the Alpine Boulevard Clinic and result in a larger 
$10 million Alpine Boulevard Clinic. The Alpine Boulevard Clinic fee-
to-trust application is not essential to the success of our lease 
amendment Agreements, but common sense would dictate that its 
acceptance into trust be expedited in order to get greater health 
benefits sooner to the entire Alpine community.
The Cuyapaipe Agreements Offer a Unique Opportunity to Bypass the IHS 
        Facility Replacement Backlog.
    In its most recent facilities needs review (1994), the IHS 
determined that deteriorating conditions require that it replace, 
renovate or modernize 41 hospitals, 153 health clinics and 289 part-
time health centers. In addition, it found that 12 completely new 
health clinics and 21 new health stations were in need of construction. 
Now, years later, these unmet federally-supported facility needs are 
even greater. The backlog is even bigger. The SIHC, Inc. clinic 
facilities are among those needing to be replaced or modernized. The 
President's recent Budget Request stated that the total unfunded amount 
identified on the five-year IHS Health Facilities Planned Construction 
Budget for fiscal year 2002 was approximately $938 million. That's just 
the 5-year plan. The IHS's assessment of its overall facilities backlog 
need is $7 billion for health facilities infrastructure, maintenance 
and equipment needs. <SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ The fiscal year 2002 budget request for Indian health facility 
construction totaled $37.6 million, and would enable IHS to provide 
full funding to complete just two health care facility construction 
projects. The IHS has completed construction of only 17 hospitals and 
24 health clinics in the past 22 years. Meanwhile, the backlog is 
growing because buildings are deteriorating faster than they are being 
replaced. If the only option for a modern health care facility is to be 
funded under the IHS system, tribes lowest on the queue, or not yet 
even on the list, are not likely to see construction begun for at least 
30 more years.
---------------------------------------------------------------------------
    The House and Senate Appropriations Committees have recently noted 
in their Committee Reports that billions of dollars are necessary to 
remove the IHS facility backlog. In response, the Congress has 
supported - and encouraged IHS to support--tribes in identifying and 
implementing alternative approaches to facilities construction funding, 
including a joint venture demonstration projects program under which a 
tribe is encouraged to use a combination of tribal, private sector or 
other available non-federal funds. Our Cuyapaipe-SIHC, Inc. Agreements 
represent the perfect model of an alternative approach to funding the 
critically needed construction of Indian health care facilities. The 
$11.5 million in non-federal funds dedicated immediately, not under 
some future multi-year plan, to the prompt construction of replacement 
facilities would relieve the federal government of one of its financial 
obligations to Indians in San Diego County, California.
The Cuyapaipe Agreements Offer a Unique Opportunity to Reduce the IHS 
        Services Funding Shortfall.
    A severe shortage in funding for IHS-supported health services 
compounds the $7 billion backlog in facility replacement needs. Funding 
for operations, services and staffing for IHS-funded programs is 
woefully inadequate. $7.5 billion (in 1999 dollars) is needed each 
year, estimates the IHS, to address the disparities in health in the 
American Indian and Alaska Native populations by providing access to 
basic health services. If the goal is to meet basic health care 
standards, and bring American Indians and Alaska Natives up to a 
standard of health care available to federal employees under the 
federal health plans, it will take some $8 billion a year. <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ IHS itself estimated in fiscal year 2000 that its per capita 
expenditure for an Indian or Alaska Native person was $1,442, compared 
to the $3,200 spent on health care for each non-Native U.S. civilian 
citizen. According to the IHS-chartered Level of Need Funded Workgroup, 
charged with developing a common estimate of health care funding needs 
for Indian people, for insured individuals under a Federal Employee 
Health Benefits plan, $3,391 is available, compared with $1,244 being 
available for the average Indian or Alaska Native person with 
comparable Blue Cross/Blue Shield benefits currently available under an 
IHS or tribal health program. At the request of the Senate Indian 
Affairs Committee over the past several years, the Congressional 
Research Service has prepared reports which document the continued 
under-funding of tribal programs, in constant dollars. Although the 
level of IHS appropriations increased during fiscal year 1975 - fiscal 
year 2001, that increase was at a lower rate than appropriations for 
other Department of Health and Human Services programs. The fiscal year 
2002 appropriations conference report provides an increase of $130 
million over fiscal year 2001 enacted levels, far less than the $275 
million increase needed simply to maintain current service levels 
because of inflationary cost adjustments, population increases, and 
disease onsets. The total IHS fiscal year 2002 funding of $2.8 billion 
pales in contrast to the $15.1 billion needed on an annual basis to 
bring Indian health services up to minimally acceptable levels.
---------------------------------------------------------------------------
    Congress has urged tribes to find alternate funding sources to 
supplement the meager federal appropriations. The Cuyapaipe-SIHC, Inc. 
Agreements represent a clear and effective response. We are surprised 
we must defend it, especially in a time of recession and deficit 
spending constraints.
The Cuyapaipe Agreements Offer a Unique Opportunity to Our Alpine 
        Community.
    While the specific avenues for making these contributions are 
currently being negotiated, it is my Tribe's intent to donate several 
million dollars a year to our local community once our gaming begins. 
We view this as consistent with our obligations under the Indian Gaming 
Regulatory Act - assuring that our non-Indian neighbors benefit from 
gaming facilities developed in our area.
    Over the past year we have consulted with numerous Alpine residents 
in an attempt to better understand the needs facing our community. We 
commissioned a nationally-recognized polling organization to provide us 
unbiased and statistically accurate feedback on those issues, surveying 
over 400 households to determine the interests and concerns of the 
Alpine community. We also delivered direct mail to over 3,500 
households in Alpine, and received express support from 96% of those 
who responded to our request for feedback on our project. We formed a 
Community Advisory Council and have regularly consulted with them, 
seeking input and guidance about our plans. We have attended meetings 
of many community organizations both to share our plans and to learn 
about their goals and objectives. Those organizations include the 
Alpine Citizens High School Committee, Alpine Friends of the Library 
Committee, Alpine Planning, the Alpine Chamber of Commerce, San Diego 
County General Plan Amendment Goals 2020, Sage and Songbirds, the Back 
Country Land Trust, the Sheriff's Department, the Alpine Fire 
Department, PTAs, Lions Club, East County Chamber of Commerce, and 
others. In addition, our intended contributions to improved health care 
in our community have already been mentioned.
    One of our objectives is to ensure that each organization has an 
equal opportunity to benefit from our support. To that end we are 
working with community leaders to develop a fair and equitable process 
for allocating our annual contributions.
Conclusions.
    The Cuyapaipe decisions pending before the Interior Department 
cannot, in all fairness, be deemed controversial. The Cuyapaipe Tribe 
has waited to begin to develop gaming until it became unquestionably 
legal to do so. The Tribe has voluntarily and remarkably committed 
itself to devoting substantial gaming revenues to health care, 
education and other needs identified by the local community. The Tribe 
has obtained the agreement of its tenant to vacate part of its pre-IGRA 
trust land. The BIA, as trustee, should applaud this, approve it, and 
get out of the way. Likewise, the Congress should shelve H.R. 1239 
because it is mis-guided, inequitable, and unsound policy that is 
premised on inaccuracies and that interferes with the Department's 
trust responsibility role. Additionally, the BIA should expedite the 
acceptance of the Cuyapaipe Tribe's new 17 acres for an expanded health 
facility in trust, since the Tribe and its tenant would then have the 
opportunity to combine a portion of the donations earmarked for both 
Alpine clinics to construct a single larger facility on the 17 acre 
site permitting future clinic expansion.
    The Cuyapaipe Band and SIHC, Inc. have taken every action in our 
power to guarantee that the benefits of our Agreements will be realized 
by SIHC, Inc. These actions include: (1) a definitive set of Agreements 
that contain specific performance provisions and remedies; (2) the 
funding of an irrevocable letter of credit with $6.5 million for the 
construction of the new SIHC, Inc. clinics on Campo and Cuyapaipe trust 
lands; (3) the lease of the 17-acre property to SIHC, Inc. for a 25-
year plus 25-year option term; and (4) the Cuyapaipe Band's offer to 
the BIA to restrict the deed trust of the 17-acre property to limit its 
use to health care uses only.
    Accordingly, we ask that the Committee stop any further 
consideration by the Congress of H.R. 1239, and that the Committee urge 
the Department to expedite its review and approval of the Cuyapaipe 
lease amendment Agreements as requested by the Cuyapaipe Tribe. In a 
separate but related effort, we ask the Committee to urge the 
Department to expedite its acceptance of the Cuyapaipe Tribe's 
additional 17 acre parcel into trust for a new and expanded Alpine 
Boulevard Clinic as requested by the Tribe.
    This concludes my remarks. I would be pleased to answer any 
questions the Committee may have. I ask that all exhibits I have 
attached to our testimony be admitted into the record of this hearing. 
Thank you.
                                 ______
                                 
    [Six letters submitted for the record by Mr. Garcia have 
been retained in the Committee's official files.]
    [Attachments to Mr. Garcia's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T5752.001
    
    [GRAPHIC] [TIFF OMITTED] T5752.002
    
    [GRAPHIC] [TIFF OMITTED] T5752.003
    
    [GRAPHIC] [TIFF OMITTED] T5752.004
    
    [GRAPHIC] [TIFF OMITTED] T5752.005
    
    Mr. Hayworth. Thank you, Mr. Vice Chairman. Hearing you use 
those two words reminds me of a bit of doggerel that many 
public speakers, especially Members of Congress, could 
utilizer. Speaker, Dear Speaker, please suffer no delusion; the 
two words we most want to hear from you are the two words ``in 
conclusion.''
    Chairman TeSam of the Viejas Indian Reservation, that in no 
way would prompt you to go any faster than your colleague. But 
we would ask you to offer your testimony now.

 STATEMENT OF STEVEN TESAM, CHAIRMAN, VIEJAS BAND OF KUMEYAAY 
                            INDIANS

    Mr. TeSam. Thank you. Chairman of the Committee, honorable 
members of the Committee, I would like to thank you for the 
opportunity to testify on the subject of H.R. 1239. As Chairman 
of Viejas Band of Kumeyaay Indians, I am deeply involved with 
issues surrounding the SIHC Health Clinic. My appearance here 
today is with full authority and direction from the Viejas 
Tribal Council and our general membership. While the issue may 
seem less significant than many others of the wider issues 
faced by this Committee, the preservation of the Southern 
Indian Health Clinic is an important issue, not only because it 
preserves access to health care for thousands of people, both 
tribal and non-tribal, but also because of the precedents that 
could be set in Indian Country.
    As you know, the clinic that currently occupies the site in 
Alpine, California, was a result of many years of work on the 
part of seven tribes to provide health care for tribal members 
in a remote area of San Diego County. The clinic was previously 
located on two reservations at different times, but these 
arrangements was unsatisfactory for a number of reasons. In the 
mid-1980's, the tribes unanimously decided that the fairest 
resolution would find a neutral site, located as centrally as 
possible for the seven reservations, and to construct a new, 
permanent facility at that neutral site.
    The question of how the land became titled to the Cuyapaipe 
is not entirely settled. There seems to be some memory among 
different elders from different tribes, that it was done by 
drawing straws or some other arbitrary means. Although others 
have argued that the fact that Cuyapaipe was the smallest tribe 
played a role. One thing is certain: the titling of the land to 
one tribe rather than all seven was done for an administrative 
convenience, but that seems to have caused more problems than 
it solved.
    There was controversy involved with taking the land into 
trust in Cuyapaipe's name alone, as evidenced by different 
other tribes' resolutions in the decision by the BIA, calling 
for land taken into trust for all seven tribes, some tribes 
have said. In retrospect, this position seems to be the correct 
one. However, at the time Indian gaming was in its infancy, and 
no one could possibly have foreseen that any tribe might use 
this land for anything other than the stated purpose.
    The Southern Indian Health Council Health Clinic served the 
tribal community well for the ensuing decade and began to 
accept non-tribal members as patients as a means of enhancing 
operating revenue. Recently, the Cuyapaipe tribe announced 
their plans to change the use of the Alpine site by moving the 
health clinic to temporary structures on the current health 
clinic site for a casino. To this end, the Cuyapaipe Tribe sent 
the BIA request to relinquish the 25-year lease on that land. 
That request was rejected by BIA on the basis of incomplete 
information, but a new proposal was submitted.
    In addressing this request to terminate the lease of 
Southern Indian Health Council, I should note that Viejas 
supports the rights of tribes to have gaming facilities on 
reservation lands. Viejas is a gaming tribe, and we believe 
that there is a fundamental question of tribal sovereignty. The 
issue here is the land upon which the health clinic sits today 
was taken into trust for one purpose and one purpose only: to 
provide a permanent health clinic for the benefit of the 
members of the seven tribes. The fact that the land was titled 
to the Cuyapaipe Tribe as a matter of administrative 
convenience does not give one tribe the right to change its 
use.
    The fundamental issue is the land was taken into trust to 
benefit seven tribes, and its use should not be changed without 
the approval of the seven tribes. This concept was incorporated 
in H.R. 5744, the Hunter-Filner-Cunningham bill from 
legislation last year, which passed the House unanimously. It 
is again incorporated into this bill before this Committee 
today. That is the position supported by the county supervisor, 
and by the entire delegation from that part of San Diego 
County, as expressed in the BIA letter.
    Mr. Chairman, I should be clear that BIA's primary concern 
and only relevant concern is the preservation of the Indian 
Health Clinic. Some will accuse us of fearing competition from 
a nearby casino, but we should emphasize that we do not 
actually know if having another casino in the area would be a 
benefit or harm. Rather, our general membership listened 
carefully to the council, some of the tribal elders, about 
their efforts to establish a health clinic for all seven tribes 
and get the land into trust for that purpose. They know that it 
was done at a time before gaming, when resources were extremely 
scarce. They were and are concerned about the current plan to 
undo the elders' hard work and to jeopardize the health care 
access, all for financial gain of just one tribe and their 
outside investor.
    I should emphasize that the Hunter-Filner bill does not say 
that Cuyapaipe may never have a casino on that site. Rather, it 
says that the lease relinquishment may not be approved until 
there is consensus among all seven tribes. This bill is 
intended to foster discussion and negotiation, and Viejas will 
be an active and constructive participant in any such 
negotiation.
    We have always supported the reasonable efforts of other 
tribes to improve their economic situation, and we will be 
similarly open with Cuyapaipe. However, as things are 
proceeding today, Cuyapaipe is seeking to press forward without 
regard for the concerns or wishes of the other tribes involved, 
and we believe they will continue to do so unless Congress 
intervenes.
    In closing, Mr. Chairman, I should emphasize that Congress 
is dealing with many weighty issues in these difficult times, 
and as grateful as I otherwise would be for your attention to 
this matter, I and the Viejas tribe are very appreciative of 
your Committee colleagues for taking time for us against the 
backdrop of the war on terrorism.
    Thank you again, and I look forward to answering any 
questions you may have.
    [The prepared statement of Mr. TeSam follows:]

  Statement of Steven TeSam, Chairman, Viejas Band of Kumeyaay Indians

    Chairman Hansen and members of the Committee, I would like to thank 
you for the opportunity to testify on the subject of H.R. 1239. As 
Chairman of the Viejas Band of Kumeyaay Indians, I have been deeply 
involved with issues surrounding the SIHC Health Clinic from its 
inception. My appearance here today is with full authority and 
direction from the Viejas Tribal Council and our general membership. 
While this issue may seem less significant than many of the wider 
issues faced by this committee, I submit that the preservation of the 
SIHC Health Clinic it is an important issue, not only because it 
preserves access to health care for thousands of people, both tribal 
and non-tribal, but also because of the precedents that could be set 
for Indian Country.
    In some ways, this issue is unique many knowledgeable people have 
told us that they are aware of no other situation where land was taken 
into trust for the benefit of multiple sovereign Indian tribes. Unlike 
many Native American issues before this committee, however, the SIHC 
Health Clinic issue is not about the rights of tribes versus the state 
or federal government, but rather the rights and obligations of tribes 
with respect to other tribes.
    As you may know, the clinic that currently occupies the site in 
Alpine, California was the culmination of many years' work on the part 
of seven tribes to find the best way to provide access to health care 
for tribal members in a remote area of San Diego County. The clinic was 
previously located on the reservations of two other tribes at different 
times, but these arrangements were unsatisfactory for a number of 
reasons. In the mid-1980's, the tribes unanimously decided that the 
fairest resolution would be to find a neutral site, located as 
centrally as possible between the seven reservations, and to construct 
a new, permanent facility on the neutral site.
    This proposal for a permanent clinic site might never have become a 
reality without the help of the author of H.R. 1239, Rep. Duncan 
Hunter. I would refer you to Attachment A, which is Rep. Hunter's 
letter to the Bureau of Indian Affairs, dated June 13, 1985 seeking to 
have the Alpine site taken into trust for the new health clinic.
    The question of how the land came to be titled to the Cuyapaipe 
tribe is not entirely settled. Attachment B, the BIA memo describing 
the land to be taken into trust, yields little information on this. 
There seems to be some memory among our elders that it was done by 
drawing straws or some other arbitrary means, although others have 
argued that the fact that Cuyapaipe was the smallest tribe played a 
role, and there is some evidence of this in the BIA memo. One thing is 
certain: the titling of the land to one tribe (rather than all seven) 
was done as an administrative convenience, and like many other things 
done for administrative convenience, it seems to have caused more 
problems than it solved.
    There was clearly some controversy involved with taking the land 
into trust in Cuyapaipe's name alone, as evidenced by Attachments C and 
D: the Manzanita Tribe's letter protesting the BIA decision, and the 
Jamul Tribal Council Resolution calling for the land to be taken into 
trust for all seven Tribes, respectively. In retrospect, Jamul's 
position seems to have been the correct one. However, at the time, 
Indian gaming was in its infancy, and no one could possibly have 
foreseen that any tribe might want to use this land for anything other 
than its stated purpose, so the argument seemed largely academic.
    One sub-issue that seems to command a lot of attention is the 
question of whether federal Community Development Block Grant funds 
were used to pay for the acquisition of the land. There is no dispute 
that CDBG funds were used for the development of the clinic, but there 
seems to be some disagreement as to whether they were used to acquire 
the land; the Cuyapaipe tribe maintains that they were not.
    In the interest of clarity, let me emphasize this: Viejas does not 
believe that CDBG grants are the most important issue here, and we only 
pursue it because some in Congress seem to consider it important, and 
because others have accused us of misrepresenting the facts. But we do 
believe that CDBG funds were used to purchase the land. I would refer 
you first to the third paragraph of the BIA memo, which reads ``[t]he 
Band received a Community Development Block Grant in the amount of 
$446,840 from the Department of Housing and Urban Development for the 
purpose of purchasing the land (emphasis added) and constructing a 
health care center ``
    We are aware of two contradictory letters sent by HUD's Office of 
Public and Indian Housing on the subject. The first (Attachment E) said 
very clearly that CDBG funds were used to purchase the land. The second 
(Attachment F) partially retracted the assertions of the first, and 
said instead that HUD's records were insufficiently specific to say 
exactly how the funds were used, and that Cuyapaipe's accounting seemed 
to indicate that they were not used to purchase land.
    Cuyapaipe's version of the story, to the extent that it has been 
consistent, is that the funds were used to collateralize a loan, the 
proceeds of which were used to purchase the land. Setting aside the 
fact that this, if true, represents a criminal violation of federal 
law, Viejas insists that this still constitutes federal funds being 
used to purchase the land. Perhaps the funds were used indirectly, but 
value gained from the federal grants contributed to the acquisition of 
the land.
    Again, Viejas doesn't consider the question of CDBG funds to be the 
essential argument in favor of H.R. 1239.
    In any case, the SIHC Health Clinic served the tribal community 
well for the ensuing decade, and began to accept non-tribal members as 
patients as a means of enhancing operating revenue. Recently, the 
Cuyapaipe tribe announced their plans to change the use of the Alpine 
site by moving the health clinic to temporary structures and to use 
most of the current health clinic site for a casino. To this end, the 
Cuyapaipe tribe sent to the BIA a request to relinquish the 25-year 
lease on the property in question. That lease relinquishment request 
was rejected by BIA on the basis of incomplete information, but a new 
proposal has been submitted (attachment G).
    In addressing this request to terminate the lease of the SIHC 
Health Clinic, I should start by saying that Viejas supports the rights 
of tribes to have gaming facilities on reservation lands; Viejas is a 
gaming tribe, and we believe that there is a fundamental question of 
tribal sovereignty involved. The issue here is this: the land upon 
which the health clinic sits today was taken into trust for one purpose 
and for one purpose only: to provide a permanent health clinic for the 
benefit of the members of seven tribes. The fact that the land was 
titled to the Cuyapaipe tribe, as a matter of administrative 
convenience, does not give one tribe the right to change that use.
    It is true that some members of the board of directors of the 
Southern Indian Health Council voted to approve the change in land use 
three voted yes, two voted no, and two abstained. There is a legitimate 
legal question as to whether this vote satisfies the requirement of a 
true majority vote under California corporation law. But there is a 
more fundamental question: Should a piece of land that was taken into 
trust by the federal government as a way to provide health care access 
for the members of seven tribes have its designated use and purpose 
changed without the approval of all seven of those tribes. We at Viejas 
believe that the appropriate answer to that question is no.
    We have heard any number of promises from the Cuyapaipe tribe about 
new and better health clinics that will result if only they can get 
their casino into operation on the current SIHC Health Clinic property. 
However, there has been no guarantee or actual movement in this 
direction. No land has been taken into trust for the purpose of 
establishing the new clinic. If the proposed lease relinquishment is 
approved, construction of the casino is in no way contingent upon 
construction of a new health clinic. None of the promises about new 
health clinics, remote health clinics, or anything else related to 
health clinics are in any way enforceable, either by the SIHC 
Corporation, or by the thousands of persons now served by the current 
clinic.
    In fact, if the proposed lease relinquishment is approved, the only 
thing that is certain is this: the current clinic will shut down and be 
moved to trailers on the back of the property; a casino will go up on 
the current site, and the Indians and non-Indians alike who have used 
the clinic for the last decade will have to drive through a casino 
complex to get to the trailers they will then have to call their 
clinic.
    Viejas does not question the integrity of the members of the 
Cuyapaipe tribe. While we have no doubt of their good intentions, there 
are still reasons to doubt the feasibility of the new health clinic 
facilities they have promised as a replacement for the current clinic. 
The Cuyapaipe tribe does not have the money to pay for a new health 
clinic. They have indicated that they intend to pay for the new health 
clinic with profits from their proposed casino. But they may be in for 
a surprise: the existence of a casino does not assure profits at all; 
it certainly doesn't assure immediate profits. Many tribal gaming 
facilities in San Diego are currently cutting staff and reducing hours, 
based on economic necessity. Furthermore, all their efforts to date 
(including a very expensive lobbying effort that eight-member tribe may 
be the only tribe with more lobbyists than members) appear to have been 
paid for by a casino management company, Action Gaming Corporation from 
Michigan. We assume that Action Gaming will seek to recoup their 
investment before any profits are made available to construct a new 
clinic. While all this may seem like speculation, so to are the 
prospects for the replacement clinic facilities.
    To repeat, the fundamental issue is this: the land was taken into 
trust for the benefit of seven tribes, and its use should not be 
changed without the approval of those seven tribes. This concept was 
incorporated in H.R. 5744, the Hunter-Filner-Cunningham (Attachment H) 
legislation from last year, which passed the House unanimously in the 
closing days of the 106th Congress. It is again incorporated in the 
bill before this committee today. That position is supported by the 
County Supervisor, and by the entire delegation from that part of San 
Diego County, as expressed in their letter to BIA.
    Mr. Chairman, I should be clear that the Viejas Tribe's primary 
concern, and our only relevant concern, is the preservation of the 
health clinic. Some will undoubtedly accuse us of fearing competition 
from another nearby casino, but we should emphasize that we do not 
actually know if having another casino in the area would be a harm or a 
benefit. Rather, our general membership listened carefully to the 
accounts of some of our Tribal Elders about their efforts to establish 
a health clinic for all seven tribes and to get land into trust for 
that purpose. They know that this was done at a time before gaming, 
when resources were extremely scarce. They were and are concerned about 
the current plan to undo the elders' hard work, and to jeopardize 
health care access, all for the financial gain of just one tribe and 
their outside investor.
    I should emphasize that the Hunter-Filner bill does not say that 
Cuyapaipe may never have a casino on that site. Rather, it says that 
the lease relinquishment may not be approved until there is consensus 
among all seven tribes. The bill is intended to foster discussion and 
negotiation, and Viejas will be an active and constructive participant 
in any such negotiations. We have always supported the reasonable 
efforts of other tribes to improve their economic situation, and we 
will be similarly open with Cuyapaipe. However, as things are 
proceeding today, Cuyapaipe is seeking to press forward without regard 
for the concerns or wishes of other involved tribes, and we believe 
they will continue to do so unless this Congress or the BIA intervene.
    In closing, Mr. Chairman, I should emphasize that the Congress is 
dealing with many weighty issues in these difficult times, and as 
grateful as I would otherwise be for your attention to this matter at 
any time, I and the Viejas tribe are doubly appreciative of your and 
your committee colleagues' taking time for us against the backdrop of 
the war on terrorism. Thank you for your time, and I look forward to 
answering any questions you may have.
                                 ______
                                 
    Mr. Hayworth. Chairman TeSam, we thank you very much for 
your words of courtesy and your insight from your testimony. We 
hear the bells ringing once again. We thank you for the brevity 
of testimony.
    Chairman Goff, it is not our intent to give you short 
shrift, even as our pagers emit some sort of bizarre 
interference. I don't know who is jamming that. But, sir, we 
welcome your testimony. If it would be possible to hold it to 
just a couple of minutes, that would be most appreciated.

STATEMENT OF RALPH GOFF, BOARD CHAIRMAN, SOUTHERN INDIAN HEALTH 
                         COUNCIL, INC.

    Mr. Goff. Thank you, Mr. Chairman and members of the 
Committee. I will be very brief.
    I think there is a fundamental issue here as you have heard 
the testimony. I don't have a script here, but I want to 
emphasize that we went through a very due process of working 
with this issue. The project proposal was presented to us in 
1996. Through this period of time, we went back and forth and 
talked about it and dealt with it until 1999 when we decided to 
find out more information on it. And it wasn't until 2000 that 
we actually said--we entered into the agreement. The documents 
are such that it protects the clinic. And I come here as the 
clinic board chairman.
    So we went through a very tedious process to get to this 
point. We have a process. We have a legal and binding 
agreement. This bill would strip us of our authority to do our 
business, as we do it every day. We do this business every day, 
and it would give the potential for this to set precedent on 
any other nonprofit organization to do business anywhere. I 
mean, this to me is just unthinkable.
    I urge the sponsors of the bill to withdraw it, and I urge 
Chairman TeSam to withdraw his support of the bill.
    That is it. Thank you.
    [The prepared statement of Mr. Goff follows:]

 Statement of Ralph Goff, Board Chair, Southern Indian Health Council, 
                                  Inc.

    Thank you for the opportunity to be here today to present testimony 
in regard to H.R. 1239. My name is Ralph Goff and I am chairman of the 
Board of Directors of Southern Indian Health Council, Inc. (hereinafter 
SIHC). I also serve as the Tribal Chairman of the Campo Band of Mission 
Indians. With me today is Joe Bulfer, Executive Director of SIHC. Also 
in the audience are Kenneth Mesa, SIHC Board member and Chairman of the 
Jamul Band of Mission Indians, and Robert Brown, SIHC Board member.
    SIHC is a tribal organization providing health care services to the 
approximately 8,000 Indians living on and near seven (7) Indian 
Reservations in Southern San Diego County, California, through an 
Indian Self-Determination Act, P.L. 93-638, contract with the U.S. 
Department of Health & Human Services, Indian Health Service (IHS). We 
have provided health services through P.L. 93-638 contracts since our 
inception in 1981 (and incorporation in 1982). SIHC is a consortium of 
the following seven (7) federally-recognized Indian tribes which joined 
together to provide ambulatory health care services to their members 
and other eligible Indians in their service area:

    Barona Band of Mission Indians
    Campo Band of Mission Indians
    Ewiiaapaayp (Cuyapaipe) Band of Mission Indians
    Jamul Band of Mission Indians
    La Posta Band of Mission Indians
    Manzanita Band of Mission Indians
    Viejas Band of Mission Indians

    Through SIHC, these seven tribes provide health care and related 
services to their tribal members and other eligible Indians through the 
establishment of a comprehensive health care system for the Indians of 
Southern San Diego County. Besides providing health care services, SIHC 
works to improve the environmental health and sanitation conditions on 
Indian Reservations in San Diego County; to provide improved heath care 
for children and adults through a program of home visitation and 
counseling of Indian parents on health practices, nutrition and general 
care of children and adults; to provide health education to the Indian 
community; and to inform the member tribes and the Indian community of 
the various medical and related services available in the surrounding 
community and assist them in obtaining the services through a social 
services department. We do so through a system of four clinics: one on 
the Campo Reservation and one on the Cuyapaipe Reservation, one 
outpatient substance abuse center at the La Posta Reservation, and one 
inpatient Youth Regional Treatment Center, also at the La Posta 
Reservation.
    From the Indian Health Service (IHS), SIHC receives funding for 
provision of health care services for approximately 8,000 Indians in 
its service population. SIHC receives approximately $4.5 million from 
IHS and approximately $5.5 million from other grants and contracts with 
other agencies. However, according to IHS's own figures, SIHC only 
receives about 60% of the funds we need to provide comprehensive health 
care services for service population.
    As the Committee is aware, the IHS has historically not provided 
the same services or level of services for federally-recognized Indian 
tribes in California as it does for tribes in other parts of the 
country. Although the Federal Courts ordered IHS to correct these 
funding inequities in the early 1980's in the case of Rincon Band of 
Mission Indians v. Harris, IHS never fully complied and corrected these 
inequities.
    IHS has never provided funding for facilities in California, nor 
has it built or operated any health care facilities or hospitals for 
Indians in California. The only services provided for the 117 
federally-recognized tribes in the State of California are those that 
the tribes themselves are providing through Indian Self-Determination 
Act contracts in facilities which the tribes have built with funding 
from a variety of sources, but none from IHS.
    With the history of underfunding and neglect by IHS, the Committee 
should be able to clearly see the importance of the SIHC agreement with 
the Ewiiaapaayp Tribe that will provide us with a new and enlarged 
facility in Alpine, a new clinic on the Campo Reservation, and with 
additional funding every year for the next 36 years. All that we had to 
do to obtain these substantial advantages was to give up a portion of 
our existing leasehold property on the Cuyapaipe Reservation. Despite 
rumors to the contrary, the agreements we have entered provide that 
SIHC is not required to move until a new clinic facility is built for 
us and ready for our occupancy. No other SIHC member tribe has offered 
to provide SIHC funding to improve SIHC's health care services and 
facilities. All were given the opportunity.
    We would appreciate the Committee reviewing and understanding this 
opportunity provided by Ewiiaapaayp in the context of the funding 
deficiencies that SIHC has suffered through the years. Because there 
were no IHS facilities on any Indian reservation in our service area, 
or anywhere in California, we started out in small tribally-rented 
trailers on the Sycuan Indian Reservation. From there we moved the 
trailers to the Barona Reservation; and, finally, we moved to new 
buildings on the land in Alpine where our clinic is currently located. 
Although we wanted to have the land in Alpine put into trust for all 
seven SIHC member tribes, the BIA would not do so at the time. 
Therefore, Ewiiaapaayp agreed to have the land that was purchased put 
into trust in its name and leased the land back to SIHC for the maximum 
term allowed by law (25 years plus a 25 year extension) at a cost of $1 
per term. We subsequently obtained funding from HUD to build our 
original clinic buildings on that land. Through the entire 20 years of 
our existence, SIHC has struggled to provide the highest level of 
services possible to the Tribes and to all eligible Indians in our 
service area, but we have been forced to do so in the face of 
significant underfunding, lack of adequate facilities, and the need to 
purchase all hospital and specialty care from outside providers with a 
limited IHS/Contract Health Services budget.
    About five years ago the Ewiiaapaayp Tribe came to the SIHC Board 
with a proposal to substantially enhance SIHC's facilities and health 
care funding. After many delays and lengthy debate, an agreement was 
finally negotiated that provides that SIHC would relinquish a portion 
of the currently leased lands back to the Ewiiaapaayp Tribe 
(hereinafter ``the Tribe''). In exchange for the relinquishment of a 
portion of that land, the Tribe will finance, construct, and equip a 
new $5 million clinic for SIHC that will be all in one building, rather 
than several, and which will be significantly larger and more efficient 
than the current clinic on the leasehold property. The Tribe will also 
build a badly needed new $1.5 million facility for SIHC's use on the 
Campo Indian Reservation. In addition, the Tribe has agreed to purchase 
approximately 18 acres of land across the freeway from the existing 
clinic, and, contingent upon federal approvals lease that land to SIHC 
for fifty years and finance the construction of a $5 million new clinic 
on that property. Finally, the Tribe agreed to pay SIHC a portion of 
its annual revenues through the year 2036 which will come from the 
Tribe's construction and operation of a gaming facility on the portion 
of the currently leased premises that SIHC would vacate when the new 
facility was fully constructed and ready for occupancy. These 
provisions will clearly allow SIHC to provide better services to our 
eligible Indian patients. The Board, therefore, determined that these 
Agreements were in the best interests of SIHC and our patients.
    In each of these transactions, SIHC's patients and services are 
fully protected because no move out of any existing facility can or 
will be required until the new facility is built, equipped, and ready 
for occupancy. Contrary to rumor, never can SIHC be required to move 
into trailers, temporary buildings, or other inadequate facilities. Nor 
will there ever be a disruption in services because of the specific 
provisions of the contracts protect SIHC in this regard and insure that 
SIHC will not be required to vacate any facility until the new 
replacement facility is completely ready for occupancy, as determined 
by the SIHC.
    Questions have apparently been raised with this Committee about the 
internal workings and decisions of the Board of Directors of SIHC. SIHC 
is incorporated as a California non-profit corporation. The SIHC Board 
consists of seven members, with one Board member selected by each tribe 
being served by the program who represents his or her tribe on the 
Board. Although each of the seven tribes appoints its own 
representative to the SIHC Board of Directors in accordance with the 
corporate Bylaws, the tribes themselves do not have any direct right to 
vote on the decisions of SIHC except through their designated 
representatives on the Board.
    Clearly, H.R. 1239, under consideration by this Committee, allows 
any one tribe to veto the duly-adopted decisions of the Board of 
Directors of SIHC. This Bill also allows any one tribe to thwart SIHC's 
attempt to improve health care for all the Indians in the region in 
accordance with our duly-adopted Bylaws and mission statement. If H.R. 
1239 were enacted, that legislation would, in effect, give one tribe 
unprecedented veto power over the decisions of the other six tribes. It 
would also give any one tribe veto power over the duly-adopted 
decisions of the Board of Directors of SIHC, which flies in the face of 
SIHC's Bylaws and California corporations law.
    SIHC is governed by its Bylaws and California non-profit law. At a 
meeting on July 10, 2000, the Board of Directors voted on Resolution 
00-07-10-01 to approve the above-described transactions because they 
found that the expansion of health care, as stipulated in the 
agreements, were in the best interests of all of SIHC's patients. This 
original resolution was approved by a vote of three in favor, two 
against, and one abstaining. The Director appointed by the Ewiiaapaayp 
Tribe was absent. Historically the Board has treated abstentions as 
neutral in its votes (i.e., abstentions have never been counted in 
determining whether there is a majority vote). Because the SIHC Bylaws 
did not specifically address this issue, after proper notice, the Board 
voted 5 to 2 on November 27, 2000 to amend the Bylaws to clarify and 
reaffirm its long term interpretation of its own Bylaws. Then, to 
eliminate any further question, on December 18, 2000, the Board 
reaffirmed its intention to enter into the agreements by a vote of 4 in 
favor and one abstention.
    In summary, the July 10, 2000 Board approval of the transactions 
with the Ewiiaapaayp Tribe was a valid act of the Board which was 
subsequently reaffirmed by a vote on December 18, 2000. Since the 
decision was made to enter the agreements with Ewiiaapaayp, the entire 
SIHC Board has moved forward together to see that the decision is 
implemented because of the advantages it would provide for the health 
care of their tribal members. In other words, although one or two of 
the member tribes might have initially disagreed with the decision to 
approve the agreements with Ewiiaapaayp for reasons having nothing to 
do with the provision of health care, there is full and equivocal 
support for those agreements within the SIHC Board, now that the vote 
has been taken and a decision made.
    The proposed legislation, H.R. 1239, would prevent SIHC from 
improving the health care for the approximately 8000 Indians in our 
service population through the new facilities and additional funding 
that the agreements with Cuyapaipe would provide. Therefore, we urge 
that the Committee refuse to approve the proposed legislation, or any 
similar legislation.
    Thank you for the opportunity to appear here today. We will be 
happy to answer any questions which the Committee might have.
                                 ______
                                 
    Mr. Hayworth. Chairman Goff, we thank you. We thank all the 
witnesses.
    The Chair again would remind Committee members that we will 
allow you to submit written questions to the panels. The record 
will remain open 10 days to do that.
    We thank you for the brevity of your testimony, for the 
insight you offer in rather complete fashion, and we will have 
questions for you that we will submit in writing. We look 
forward to getting those back for the record.
    I thank the indulgence of the ranking minority member and 
also my friend from Utah who stayed here for the duration.
    I thank the audience and the panelists for their indulgence 
given the truncated nature of this day.
    And this hearing is now adjourned.
    [Whereupon, at 12:45 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    1. Statement of Hon. Frank Keating, Governor of Oklahoma.
    2. Response to questions submitted to Michael Garcia.
    3. Response to questions submitted to Steven TeSam.
    4. Response to questions submitted to Ralph Goff.




         Statement of Hon. Frank Keating, Governor of Oklahoma

    I regret that I could not be with the Committee today, but pressing 
matters in Oklahoma demand my presence. I do want to express my 
wholehearted support for the proposed appropriation of $33 million, 
introduced by Congressman Carson, and for the message Oklahoma's 
representatives will bring to you today. We have a chance to create a 
cultural and historical jewel through a rare federal-state-local 
partnership, and I believe it is important that we seize that chance.
    Oklahoma is home to more Native American citizens than any other 
state save California. Our very name means ``Land of the Red People.'' 
We have within our borders the governments of 39 federally recognized 
tribes. Where other states may have sequestered their Native American 
citizens on reservations, Oklahoma has fully integrated them into the 
mainstream of our cultural, civic, business and political life. A 
member of my state cabinet, former Oklahoma Secretary of Transportation 
Neal McCaleb, now serves as Director of the Bureau of Indian Affairs. 
Our state's greatest ambassador, Will Rogers, was of Cherokee descent. 
Oklahoma has long been home to famed Indian artists, ballerinas and 
authors. Our largest military installation, Tinker Air Force Base, is 
named for an Oklahoman of Osage descent who gave his life in World War 
II. Native American culture permeates our state, and outstanding Native 
American citizens play vital and central roles in every aspect of our 
lives. Now, we have an opportunity to celebrate and enshrine that rare 
heritage by creating a world-class Native American Museum and Cultural 
Center in Oklahoma City.
    The Center will be located at the junction of two of America's 
primary travel routes, Interstates 35 and 40, on land valued at $15 
million which has already been donated and dedicated for this use by 
the City of Oklahoma City. The city has also committed $5 million to 
construction of the Center, along with a down payment of $6.5 million 
in state funds to complete this unique facility. I strongly support 
additional state funding for this most worthy project. The proposed 
federal appropriation would create a vital local-state-federal 
partnership to build a historical and cultural resource of national 
importance.
    Others who will testify today will brief the Committee on the 
Center's proposed design, features and value as an educational and 
cultural treasure. My role is equally important--to emphasize the full 
support of Oklahoma state government and our determination to build 
this Center. Once it is completed, it will be America's finest and most 
complete resource celebrating our Native American heritage, as well as 
a key center for the preservation of Native American culture.
    I am proud to urge Congressional support for this appropriation.
                                 ______
                                 

  Responses of Michael Garcia, Vice Chairman, Ewiiaapaayp (Cuyapaipe) 
           Band of Kumeyaay Indians to Post-Hearing Questions

    1. How did the land which was put in to trust for the benefit of 
seven tribes come to be placed in only your tribe's name?
    In 1986, the Ewiiaapaayp Band of Kumeyaay Indians (``Cuyapaipe'' or 
``Tribe''), using private, non-federal funds, purchased in its name 
alone the property from William and Diane Bishop. The application to 
the U.S. Department of the Interior then requested that the land be 
placed in trust for the Cuyapaipe Band. The Tribe's land was accepted 
in trust status by the United States on April 1, 1986, after a fee-to-
trust process in 1985 and 1986 which provided for public notices and 
requests for comment. No adverse comments were received during that 
process, particularly from any of the SIHC, Inc. member tribes. The 
Tribe did not execute a federal lease of this land to SIHC, Inc. until 
January 1986, which was approved by the Bureau of Indian Affairs (BIA) 
in February 1987. Other tribes benefited from this land only after 
SIHC, Inc. accepted the landlord Tribe's offer of tenancy to SIHC, Inc. 
and then only through each tribe's participation in the SIHC, Inc. as 
members of the state chartered non-profit corporation Indian health 
organization. Consistent with the fee-to-trust application, the BIA 
placed no other tribes on the title. Among other supporting 
documentation, Representative Hunter's June 13, 1985 letter in support 
of the trust application states `` I strongly urge you to take whatever 
action is necessary to expedite placing this 8.6-acre tract in trust, 
by the Department of the Interior (Bureau of Indian Affairs) for the 
Cuyapaipe Reservation, so that construction of a new health center can 
begin in a timely manner.'' The Viejas Band of Kumeyaay Indians 
(Viejas) claims that the Cuyapaipe land was supposed to have been taken 
into trust for the benefit of all seven tribes, but offers up as its 
only evidence a document that was written six (6) months after the date 
the land was accepted in trust by the United States. Today, ownership 
of the land by the Cuyapaipe Band presents a unique opportunity to 
SIHC, Inc. a chance to obtain supplemental, non-federal funds and new 
facilities that would not otherwise be available to the SIHC, Inc. if 
the Viejas position was adopted. The bottom line is that health care 
services will be expanded and enhanced only because of Cuyapaipe's 
trust ownership and conforming use of the land.

    2. According to your testimony, your tribe asked the Department of 
Interior to approve the lease relinquishment agreement in December 
2000. What is the status of the approval of that lease relinquishment 
agreement?
    It remains pending. The three agreements between the Cuyapaipe Band 
and SIHC, Inc. were submitted to the Department of the Interior, Bureau 
of Indian Affairs on December 26, 2000, for approval or written 
confirmation that approval is not required. As of December 18, 2001, 
the Department has not approved the agreements or provided written 
confirmation that approval is not required. The Tribe is ever hopeful 
that the Department's approval or written confirmation that approval is 
not required will be provided in the near future, since, as a legal 
matter, the BIA owes a trust responsibility as to this piece of trust 
property solely to the Cuyapaipe Tribe as the sole trust beneficiary of 
the land and as landlord in the lease. Additionally, it is 
inconceivable that the trustee could conclude that it is not in the 
best interest of a trust beneficiary to get a portion of its land back 
earlier than it would otherwise regain control of it under the existing 
lease.

    3. Have you received notice on the status of your application to 
place the 18-acre parcel of land into trust? When was the completed 
land into trust application submitted to the Department of Interior?
    The Cuyapaipe Band's fee to trust application for its approximately 
18-acre parcel of land was submitted to the BIA on March 21, 2001. 
Pursuant to the National Environmental Policy Act, a Finding of No 
Significant Impact (FONSI) was issued by the BIA's Pacific Region 
Office on November 7, 2001. We understand that the Department is in the 
process of completing its review of the title to the parcel and is 
taking steps to ensure compliance with the National Historic 
Preservation and Endangered Species Acts. As of December 20, 2001, a 
Notice of Decision has not been issued by the BIA.

    4. In your testimony, you make reference to $11.5 million which are 
contractually obligated to build new clinic buildings. Where does this 
substantial amount of money come from?
    The money comes from the Tribe. The money is essentially an 
``advance'' of the Tribe's funds to be spent for SIHC, Inc. for health 
care purposes before any of the Tribe's other funds are spent to 
construct a casino. Pursuant to the contracts between Cuyapaipe and 
SIHC, Inc. now under review by the Department, the Tribe is required to 
fund the construction of a Consolidated Clinic Building up to a total 
of $5 million (``Project Costs'') and to post an irrevocable letter of 
credit in the amount of $6.5 million to secure its obligations to 
construct the Southern Clinic and the Campo Clinic. See Consolidated 
Clinic Building Construction and Partial Lease Relinquishment Agreement 
Sec. 2(A); Construction, Relocation and Lease Relinquishment Agreement 
Sec. 2(C); and Campo Clinic Construction Agreement Sec. 5. On December 
26, 2000, the Tribe and its development partner, Luna Gaming San Diego 
LLC, posted the $6.5 million irrevocable letter of credit. The 
remaining $5 million will be funded by the Tribe and Luna Gaming 
SanDiego LLC as necessary to construct the Consolidated Clinic 
Building. The $11.5 million is but a portion of the total project funds 
already provided or to be provided as needed in advance of casino 
construction. Failure to construct a new clinic into which SIHC, Inc. 
will voluntarily relocate would bar the Tribe from subsequently 
constructing its proposed casino.

    5. What will be the impact on health care for SIHC patients if the 
agreements are not enforced?
    If the agreements are not enforced or implemented, efforts to 
provide health care for SIHC, Inc. patients will continue to labor 
under a crippling and chronic shortage of funding from the U.S. Indian 
Health Service. If the Interior Department does not approve the 
landlord-tenant agreements made between the Tribe and SIHC, Inc., the 
SIHC, Inc. clinic will be confined to the Tribe's current parcel of 
property and its current medical clinic structures. The SIHC, Inc. 
clinic is now housed in three separate buildings on three hill-side 
tiers of the property. This layout makes further expansion of health 
care services nearly impossible. Furthermore, the current layout 
sharply limits SIHC, Inc.'s goal of expanding its medical and dental 
services to include much needed community emergency services, urgent 
care, expanded social services, cultural services and retirement 
services. Under the Agreements, SIHC, Inc. possesses full rights to 
enforce the agreements in the state courts. If SIHC, Inc. failed to 
enforce the agreements, any of the tribes who control SIHC, Inc. could 
sue SIHC, Inc. in state courts to compel enforcement of the agreements 
in accordance with fiduciary duties reflected in California state 
public benefit corporation codes.

    6. You reference that the Department of Interior must approve of 
the lease relinquishment agreement for it to be given ``legal effect.'' 
Can we assume, then, that these contracts, if or when approved, will be 
legally binding contracts? Are they binding now?
    The lease relinquishment agreements are binding. They need to be 
approved because they amend the current lease between the Tribe and 
SIHC, Inc. The current lease requires that any amendments or 
modifications to the lease must be approved by the Secretary to be 
effective. See 1987 Lease Sec. 32. The Tribe and SIHC, Inc. signed an 
agreement to amend the lease so as to reduce the amount of trust land 
which SIHC, Inc. now uses from 8.6 acres to approximately 2.5 acres. 
The approval by the Tribe's trustee of this lease relinquishment or 
amendment is a simple ministerial act that should be granted without 
delay. The Tribe and the SIHC, Inc. have entered into enforceable and 
effective contracts. To the Tribe's knowledge, no written approval by 
the Secretary of the Interior of the contracts is required and the 
contracts are binding now, provided, however, that some of the 
obligations are the subject of conditions precedent as stated in the 
contracts. In other words, until the agreements are approved, or 
disapproved, the agreements legally bind the Tribe and SIHC, Inc. to 
specific performance, including, but not limited to, the Tribe's 
funding of the $6.5 million irrevocable letter of credit, the 
establishment of the 18-acre parcel of land in trust, and the design of 
the new health clinics.

    7. What assurances do the SIHC and the tribes have that you will 
honor the agreements? What recourse do they have if the agreements are 
not honored?
    The agreements are binding and enforceable. The contracts are 
between two parties the Southern Indian Health Council, Inc., and the 
Ewiiaapaayp (Cuyapaipe) Band of Kumeyaay Indians. Each party has 
entered into the contracts with the intent of fully performing its 
obligations. However, should the Tribe fail to perform its obligations, 
all of the contracts contain appropriate waivers of the Tribe's 
sovereign immunity, consent to suit, and arbitration provisions in 
favor of the SIHC, Inc. See Consolidated Clinic Building Construction 
and Partial Lease Relinquishment Agreement Sec. Sec. 16-18; 
Construction, Relocation and Lease Relinquishment Agreement 
Sec. Sec. 14-16; and Campo Clinic Construction Agreement Sec. Sec. 10-
12. Such provisions allow the SIHC, Inc. to exercise its rights and 
seek its contractual remedies through arbitration, including the 
ability to compel arbitration and enforce any arbitration award in a 
court of competent jurisdiction.

    8. If the casino should fail at any time or not materialize, how 
would this impact the health care improvements and revenue sharing 
outlined in the agreements?
    It depends. If the required federal approvals are not obtained, no 
money will be available for health care facility and service 
improvements. If all federal approvals are obtained, the new clinics 
will be built. Any subsequent, albeit highly improbable, casino failure 
would affect only the promise of a future share of the gaming revenues. 
However, the Tribe is confident that it will open and operate a 
successful casino. The contracts are structured in such a fashion as to 
limit the risk to the SIHC, Inc. by requiring various federal approvals 
prior to any construction of the new clinics, relocation of the SIHC, 
Inc. to a new clinic, or construction of the proposed casino. Should 
the required federal approvals not be obtained, the clinics and the 
casino will not be constructed. In the unlikely event that the Tribe's 
casino should fail or not be constructed, the SIHC, Inc. would not 
receive any additional funding. In the event that the clinics and 
casino are constructed and the casino subsequently fails, the health 
care facility improvements would remain in place because the actual 
construction, installation of equipment and relocation to the new 
clinics will have been completed prior to any casino construction or 
operation. After the clinics are built, and the casino is subsequently 
constructed and operated, additional payments are due to SIHC, Inc. 
from the Tribe pursuant to Section 7 of the Consolidated Clinic 
Building Construction and Partial Lease Relinquishment Agreement.

    9. Is there any scenario in which the clinic would not be in 
operation for any amount of time?
    Absolutely not. The Tribe cannot conceive of a situation in which 
the Tribe would cause the clinic not to operate for any amount of time 
due to the carrying out of this project. Clinic operations will never 
be shut down. See Consolidated Clinic Building Construction Agreement 
at Sec. Sec. 8 11. The consolidated clinic building will be 
approximately 33,500 square feet (much larger than the current facility 
space) with access to 154 parking spaces and a dedicated access road. 
See Consolidated Clinic Building Construction Agreement at Sec. 8. The 
SIHC, Inc. will have authority to approve the preliminary design and 
final specifications for the consolidated clinic building. See 
Consolidated Clinic Building Construction Agreement at Sec. 8(D). SIHC 
will not have to relocate to the new clinics until those clinics are 
certified by the SIHC's construction consultant and the architect as 
ready for occupancy and use by the SIHC, Inc. The Tribe and SIHC, Inc. 
have contractually agreed to take all commercially reasonable steps to 
avoid interference with the operation of the clinic. See e.g., 
Consolidated Clinic Building Construction and Partial Lease 
Relinquishment Agreement Sec. 11. If the 18-acre parcel is accepted 
into trust before the consolidate clinic building construction is 
begun, then there is an opportunity to combine the two clinic project 
funds into one $10 million account to build a new clinic on the 18-acre 
parcel.

    10. Do you feel that there should be restrictions placed on the 
administrative process of taking land into trust that would limit the 
use of the land to the use stated when the land was taken into trust?
    No. The Tribe agrees with the Department that this would result in 
an unworkable public policy as circumstances and conditions change over 
decades and centuries. Accordingly, the Tribe does not agree with any 
restrictions being placed on the administrative process to take land 
into trust. Likewise, the Tribe does not agree with limiting the 
highest and best use of Tribal property. If the 18-acre parcel is 
placed in trust status by the United States, the title should not 
contain a restriction or other covenant prohibiting the use of the land 
as deemed proper by the Tribe. In this case, however, the Tribe has 
agreed to a use restriction of a particular type a lease of the 18-acre 
property to SIHC, Inc. for $1 for 25 years for a health clinic, with 
the option to renew the lease for an additional 25-year period. At the 
expiration of the lease or if terminated earlier for some reason, the 
Tribe should not be required to limit its use of the land only to a 
health clinic forever because it is entirely possible that some day a 
health clinic feasibly could not be operated on the site. In contrast 
to use restrictions on more temporary lease agreements, permanent use 
restrictions on trust title would be an administrative nightmare for 
the Department and would artificially limit the potential beneficial 
uses of the land by the Tribe.

    11. Why do you believe the Viejas tribe opposes the lease 
relinquishment and the new agreements?
    For anti-competitive, economic protection reasons. According to the 
Viejas Band's September 21, 2001, letter to the United States 
Department of the Interior, `` Ewiiaapaayp is attempting to undermine 
the Viejas Reservation economy This type of encroachment on the Viejas 
tribal community's economic sustainability cannot be tolerated .'' The 
Indian Gaming Regulatory Act of 1988 (IGRA), the agreements between the 
SIHC, Inc. and the Tribe, California State corporations law, California 
Proposition 1A, the Tribe's tribal-state compact, other applicable 
federal laws, and applicable HUD regulations provide adequate 
protection for all interests and all interested parties. The Tribe has 
waited patiently to begin to engage in lawful gaming under IGRA and a 
tribal-state compact, unlike Viejas who for years conducted so-called 
grey-market gaming without a tribal-state compact. Undoubtedly, Viejas 
has created a market for its product, gambling, yet such economic 
protectionist measures funded by years of unauthorized gaming should 
not be tolerated by Congress and used to hinder the efforts of a 
federally recognized tribe seeking to exercise its rights to economic 
development and self-sufficiency on its own land.

    12. Is it your impression that the Viejas tribe is willing to have 
the current level of health care remain ``status quo'' in order to 
protect their gaming interests?
    Actually, Viejas Chairman TeSam said as much to Cuyapaipe Chairman 
Pinto in an October 10, 2001 telephone call, when Chairman TeSam said 
Viejas wanted to keep SIHC, Inc. health services at the ``status quo.'' 
Viejas' activities attempting to ``protect'' its gaming interests will 
effectively deprive the SIHC, Inc. of any opportunity to expand and 
will, at best, maintain the severely under funded ``status quo.'' A 
severe shortage in funding for IHS-supported health services compounds 
the $7 billion backlog in facility replacement needs. Funding for 
operations, services and staffing for IHS-funded programs is woefully 
inadequate. $7.5 billion (in 1999 dollars) is needed each year, 
estimates the IHS, to address the disparities in health in the American 
Indian and Alaska Native populations by providing access to basic 
health services. If the goal is to meet basic health care standards, 
and bring American Indians and Alaska Natives up to a standard of 
health care available to federal employees under the federal health 
plans, it will take some $8 billion a year. Congress has urged tribes 
to find alternate funding sources to supplement the meager federal 
appropriations. The Cuyapaipe-SIHC, Inc. Agreements represent a clear 
and effective response. Yet, the Viejas Band seeks to deprive SIHC, 
Inc. and its patients of the opportunity to access expanded, high 
quality health care. The Tribe finds it more than ironic that the Tribe 
must defend its unusually generous proposal, especially in a time of 
economic recession and federal deficit spending constraints.
                                 ______
                                 

Response to Questions Submitted to Steven TeSam, Chairman, Viejas Band 
                          of Kumeyaay Indians

    Question 1.
    You state that none of the promises about the construction of the 
new facilities are enforceable by the SIHC or the people it serves. Is 
it your understanding that the lease relinquishment contracts are not 
enforceable by law--please elaborate?
    Answer:
    The contracts are not enforceable. It is the understanding of the 
Viejas Band that the Cuyapaipe Tribe has made no enforceable waiver of 
tribal sovereign immunity. Please note that the purported waiver in the 
document submitted references ``. . . permitting actions in any court 
of competent jurisdiction . . .'' Since Cuyapaipe is a federally 
recognized Indian tribe, and since Cuyapaipe has no tribal court, there 
is no ``court of competent jurisdiction.'' Additionally, the purported 
waiver is further diluted by the provision requiring arbitration 
(paragraph 19), and by the language that purports to limit court 
jurisdiction to only those disputes requiring injunctive relief.
    It is well settled that a waiver of tribal sovereignty, to be 
enforceable, must be clear and unequivocal. Cuyapaipe's waiver is 
neither. Additionally, a waiver of the sovereignty of a tribe is 
usually documented by a Tribal Council resolution authorizing a tribal 
leader to execute a document containing such a waiver. It is uncommon 
for one tribal official, acting alone, to possess that authority. 
Please note that the documents submitted do not include any resolution 
of the Cuyapaipe Tribal Council (or any other document) which 
authorizes a waiver of the tribe's sovereign immunity.
    Because of the ambiguities, limits, and qualifications of the 
waiver, we believe a court would likely find that the waiver, as made 
in the current documents, is ineffective to waive the Cuyapaipe Tribe's 
sovereign immunity from suit. There is no party who would have 
authority to enforce the many promises that have been made by 
Cuyapaipe. Without a valid waiver of immunity, Cuyapaipe is free to do 
as it pleases with the current trust property if the lease is 
relinquished. Without an enforceable waiver of tribal sovereignty, the 
current SIHC Clinic lease is the only protection for health care 
services at the SIHC.
    Additionally, the BIA has indicated that land taken into trust for 
an Indian tribe does not generally have restrictions that run with the 
land. Therefore, any new land taken into trust could be used for a 
casino, and the Cuyapaipe would be under no obligation to build a new 
clinic on any of their trust land.
    Its important to note that Cuyapaipe's investor, Action Gaming LLC, 
gets the benefit of the sovereignty waiver, if one is found to have 
been made, (Paragraph 25 of the Agreement), but is not a party to the 
Agreement in other respects, and therefore cannot be sued to enforce 
any of the promises the Cuyapaipe tribe has made concerning the 
construction of a new clinic. This is significant because Action Gaming 
is the only party with substantial resources; should they decide not to 
finance a new clinic, the SIHC clinic, its patients, and its member 
tribes will be left without meaningful recourse.

    Question 2.
    Your testimony includes language that suggests that the only 
certainty about the lease agreement is that the clinic will be shut 
down and moved to trailers behind the casino. However, Article 8 of the 
Consolidated Clinic Building agreement, ``The SIHC agrees that the 
consolidated clinic building comprising 33,500 square feet, with access 
to 154 parking spaces and a dedicated access road, will be constructed 
by the Tribe in accordance with the requirements for construction on 
the Current Site.'' How do you reconcile these different scenarios?
    Answer:
    The SIHC is a California Corporation, which can be dissolved by 
vote of the directors. The SIHC's promise that a clinic will be built 
is enforceable only against SIHC, not the Cuyapaipe tribe, and has no 
value whatsoever if SIHC ceases to exist. A promise by SIHC that a 
clinic will be constructed must be weighed against the reality that 
SIHC lacks any resources to finance a new clinic, and is depending on 
'promises' of gaming revenue contributions which may never materialize.
    The SIHC has no power to enforce its ``agreement'' that a clinic 
will be constructed by the Cuyapaipe tribe. Without the enforceable 
promise of the Cuyapaipe Tribe (with a valid waiver of immunity as 
referenced in the answer to Question 1), the SIHC and its member tribes 
have no power to force the Cuyapaipe to build, or to permit the 
construction of, any new clinic on tribal trust land.

    Question 3.
    In your testimony, you state that if the proposed lease 
relinquishment is approved, construction of the casino is in no way 
contingent upon the construction of a new health clinic. Do you mean by 
this that it is possible for a casino to be built without a new health 
care facility being built? In the Consolidated Clinic Building 
Construction and Partial Lease Relinquishment Agreement, Recitals B. 
``The tribe and the SIHC have agreed that in exchange for the Tribe 
constructing a new consolidated clinic building (CCB) on that certain 
parcel of land (current site) the SIHC will relocate its current Clinic 
operations to the CCB, relinquishing back to the Tribe that portion of 
the land it no longer needs, while retaining all rights and obligations 
to the remainder.'' How do you reconcile these different scenarios?
    Answer:
    See the answer to Question 1. Once again, the lack of an 
enforceable waiver of sovereignty means that the SIHC, its member 
tribes, and the clinic patients are left at the mercy of whatever the 
Cuyapaipe band and its gaming investor decide to build.

    Question 4.
    Does any of your gaming revenue go to the SIHC?
    Answer:
    The Viejas Band has redirected its federal funds for health care to 
the SIHC for many years, as have a number of tribes in San Diego 
County. (For example: Tribal Priority Allocation funds (TPA funds) 
under the ICWA in the amount of $30,000 were redirected to SIHC in 
fiscal year 2001; TPA funds of $29,462 were redirected in fiscal year 
2000; and similar amounts have been redirected in previous year. For 
2002, the expected amount is $29,397.
    Additionally the Viejas Band created an inter-tribal revenue 
sharing program, which made gaming revenue available to all non-gaming 
tribes in San Diego, including Cuyapaipe, beginning in late 1995. 
Cuyapaipe received monthly payments under this plan for over three 
years.
    With the signing of the Tribal-State Gaming Compacts in California, 
Viejas is required to contribute gaming revenue into a statewide 
revenue sharing fund, which is then redistributed to tribes that do not 
have gaming operations, or that have fewer than 350 machines, including 
Cuyapaipe.

    Question 5.
    Why did you choose not to attend or send an alternate Director to 
the December 18 meeting where the vote was taken regarding the 
relinquishment of the lease?
    Answer:
    To the best of the knowledge of the Viejas Band, the Band's 
appointee to the SIHC Board was present at the meeting held December 
18, 2000.

    Question 6.
    Do you feel that the SIHC is not taking into consideration the 
needs and desires of the Board members regarding improving health care? 
If the agreements are realized, wouldn't health care improve for the 
community?
    Answer:
    No, health care would not improve. An existing, successful clinic 
would be uprooted in favor of a proposed, yet-to-be-built casino, which 
may or may not operate at a profit.
    Promises about the improvement of health care are illusory, because 
there is no mechanism by which the SIHC or its patients could enforce 
the claims made by Cuyapaipe or its gaming investors. Also, it is 
important to note that the Cuyapaipe Tribe has sought to generate 
public support by promising unspecified sums to the local community for 
a number of purposes, including education (a new local high school), 
parks and recreation, a new library, fire protection, and a new 
sheriff's substation. These promises unfortunately overlook the fact 
that the tribal gaming industry in Southern California is highly 
vulnerable to economic downturns, so there is no guarantee that a 
future casino on the current clinic site will produce sufficient 
revenue to fund a new clinic in addition to funding all the other 
pledges that have been made by the Cuyapaipe tribe.

    Question 7.
    If a tribe takes land in to trust and then changes the use of that 
land, should the tribe be required to relinquish the trust status of 
that land?
    Answer:
    It is the position of the Viejas Band that no land taken into trust 
for an Indian tribe should ever be relinquished from its trust status, 
unless such action is taken at the request or direction of the tribe 
for which the land is held.

    Question 8.
    You mention in your testimony that the economic competition from 
the Cuyapaipe casino is not an issue or that you do not know if it will 
be harmful or beneficial to have a casino one mile from your casino. 
What was your intention when, in a letter to the BIA on 21 Sept 2000, 
that ``Cuyapaipe is attempting to undermine the Viejas Reservation 
economy by moving its economic development efforts 40 miles off its 
reservation and within one mile of the Viejas Reservation. This type of 
encroachment on the Viejas tribal community's economic sustainability 
cannot be tolerated.'' Could you clarify your view on this in regard to 
these two seemingly contradictory statements?
    Answer:
    It is simply not clear what the impact of a proposed Cuyapaipe 
casino would be. On the one hand, it is certainly possible that nearby 
competition might lessen the revenues of the Viejas Casino; on the 
other hand, some have argued that having two casinos nearly adjacent 
might create more of a destination and thereby increase the customer 
base for both properties. Obviously, at the time of the September 2000 
letter, the prevailing view was that the competition would be 
detrimental, and that opinion may prevail today. However, that issue is 
not now and never has been the focus of Viejas' objections to the 
change in land use. If Viejas' position on the competition question 
seems unclear, that is because the issue of competition is not the main 
concern of the Viejas Band, and it is irrelevant with respect to the 
protection of healthcare issues that underlie H.R. 1239.
    It should also be noted that the Cuyapaipe tribe has a large 
reservation, (located approximately 70 miles east of San Diego) and 
could certainly construct its gaming facility on its reservation, which 
is the path that every other gaming tribe in California has been 
required to take. Instead, Cuyapaipe seeks to subvert the process by 
conducting gaming on trust land that is not part of a reservation, and 
has recently filed an application with the BIA to have the SIHC Clinic 
site re-classified as ``reservation property.''
    We would note that the Cuyapaipe Tribe has no aboriginal claim to 
land in the Viejas Valley area, which is where the SIHC clinic is now 
located. The only reason Cuyapaipe has land in trust in this area, (in 
addition to their actual reservation, which is some 40 miles away), is 
that the Cuyapaipe Tribe was named as steward of the land where the 
clinic was to be built. This was done because of the impossibility of 
taking the land into trust for all seven SIHC consortium tribes.

    Question 9.
    What are the yearly revenues your gaming venture produces for your 
tribe? Would you be willing to substitute that amount for the 
California revenue-sharing program payment of 1.1 million per year?
    Answer:
    Viejas gaming operations yield substantial annual revenues for the 
Viejas Band. We made significant investment, undertook a great deal of 
risk, and invested more than substantial effort in establishing our 
casino, which we consider a success. Today, we would not trade it for 
revenue-sharing funds.
    The reference in Viejas' testimony to the revenue sharing funds 
that Cuyapaipe is eligible to receive is simply a response to a message 
Cuyapaipe has been using that they are an impoverished group for whom 
the proposed casino represents the only hope of economic development. 
This is in fact not the case the revenue sharing program could provide 
each Cuyapaipe tribal member roughly a six-figure annual income with no 
risk, no investment, and no disruption of the health care services on 
which the SIHC patients depend.
    However, the relevant point is this: Viejas has no position on the 
question of whether the Cuyapaipe tribe should engage in gaming it is 
Cuyapaipe's sovereign right to make that determination. However, Viejas 
is strongly opposed to the events that allow Cuyapaipe to take 
advantage of administrative error giving them title to the health 
clinic site by establishing a casino 30 miles from their reservation 
over the objection of some of the tribes that were intended to benefit 
from that site.
    All other tribes in San Diego County had to make economic decisions 
about the feasibility of gaming based on their reservation location and 
market for gaming. Only Cuyapaipe has the unfair advantage of claiming 
trust land and operating gaming in an area far removed from their 
reservation. Viejas feels this is a violation of the representations 
made by California tribes during the campaign to pass Proposition 1A, 
which gave California tribes the right to conduct slot machine gaming.

    Question 10.
    What are your concerns regarding the Cuyapaipe/SIHC lease 
relinquishment agreement when it appears to favor both parties and the 
patients of the SIHC?
    Answer:
    To summarize the concerns of the Viejas Band, we feel that it is 
wrong for Cuyapaipe to take a parcel of land into trust with the 
understanding that the land is to be used for the benefit of seven 
tribes, and then to make a substantial change in the use of that parcel 
without the consent of each of the seven tribes who will be affected by 
the change.
    Second, we believe that Cuyapaipe's commitments to the SIHC are not 
legally enforceable, as explained in the response to question 1. If the 
existing lease is relinquished, the patients of the SIHC will have no 
standing and no legal recourse to enforce the promise of a new clinic.
    Third, we know that the revenues needed to fulfill the Cuyapaipe's 
promises are speculative the casino may not get built for other 
reasons, the investor may decide to fund the project at a reduced 
level, and the economy of Southern California may not yield the level 
of gaming revenue that has been projected. The only party that may have 
present funds to fulfill the commitments is the gaming investor, and 
the SIHC patients have no recourse against that investor, according to 
the lease relinquishment documents.
    In summary, the new clinic depends on the whim of the Cuyapaipe 
Tribe and the projected profit from a casino that does not exist, and 
that may or may not make money in its first few years, if ever.

    Question 11.
    This issue seems to be disputed mainly by your tribe and the 
Cuyapaipe tribe. What effort has been made between the two tribes to 
reconcile this issue?
    Answer:
    The Viejas Band wants this issue to be resolved by consensus; we 
have always been willing to talk to the Cuyapaipe Tribe about this. 
However, Cuyapaipe has very little reason to negotiate again, because 
of an administrative decision on the part of the BIA, the land is held 
in trust for Cuyapaipe, although it was intended to benefit seven 
tribes.
    H.R. 1239 does not prohibit the establishment of a casino; rather 
it says that for a defined period of time, the land use may be changed 
only if there is a consensus among the tribes. We would emphasize to 
the committee, however, that as of this writing, Cuyapaipe is seeking 
to push the lease relinquishment through the BIA without any attempt to 
address Viejas' concerns.

    Question 12.
    You testified that the land was title to the Cuyapaipe as a matter 
of administrative convenience. Did your tribe offer to take land into 
trust for the original site for the health clinic?
    Answer:
    The reference to 'administrative convenience' describes a situation 
where the BIA took the clinic site into trust for the benefit of seven 
tribes and found it easier to title the land to only one tribe this 
over the stated objections of two of the tribes. Viejas did not offer 
to take land into trust because this was not intended to be a Viejas 
clinic, or a Cuyapaipe clinic; it was supposed to provide health care 
to the members of all seven tribes. Viejas supported the effort to 
establish the SIHC clinic, because tribal leaders at that time believed 
that a neutral site would be in the best interest of all tribal members 
who would depend on the health care services of the SIHC clinic.
    The whole point of choosing a new site (as Rep. Hunter's 1985 
letter describes) was to have an independent, neutral site for the 
clinic. Viejas did not seek 'control' of the land where the clinic 
would be built, because the objective at the time was not to have any 
tribe or group 'control' the site. Cuyapaipe's current efforts to 
control the site demonstrate the importance of the ``neutral site'' 
goal.

    Question 13.
    Did your tribe ever offer some of its land for the original site of 
the clinic?
    Answer:
    No, for two reasons. First, the Viejas reservation is very small. 
It could not easily accommodate the clinic along with the homes of 
tribal members and the tribe's essential services. But more 
importantly, tribes were seeking an independent site at the time the 
clinic site was acquired, because previous efforts to house the clinic 
on other local reservations had proved unworkable. The Viejas Band felt 
that an independent, neutral home for the clinic would be preferable.
                                 ______
                                 

  Responses to Questions Submitted to Ralph Goff, Chairman, Southern 
                         Indian Health Council

    1. Did you seek land for the original site of the health clinic 
from all seven tribes? What was the response?
    SIHC sought a site that was well-situated for access by members of 
the seven consortium tribes and that was available. All consortium 
tribes were well aware of SIHC's needs, and the Cuyapaipe offered to 
provide SIHC land in Alpine for a clinic site. Because locating a 
clinic in Alpine was in the best interest of SIHC and its patients, the 
SIHC Board of Directors (comprised of members from all seven tribes) 
approved the arrangement.

    2. Why did you settle on the current site for the health clinic?
    The site is well-situated and was available. The SIHC Board 
approved it.

    3. If the new agreements do not take effect, what funds will you 
use to make improvements to the health clinics?
    IHS facility funding has never been available in California. 
Therefore, without the financial benefits from the new agreements, SIHC 
will have difficulty making even modest facility improvements and would 
not be able to make the improvements specified in the new agreements. 
The improvements specified in the new agreements are to be paid for 
without federal funds.

    4. Are the agreements between the SIHC and the Cuyapaipe legally 
binding?
    Yes.

    5. What assurances do you have that the agreements will be honored?
    Because the agreements are legally binding, their terms may be 
enforced in a court of law.

    6. What recourse do you have if the agreements are partly honored 
or not honored at all?
    The recourse is a legal suit.

    7. What will happen if the Cuyapaipe casino fails or is never 
opened? How would this impact the SIHC in regard to the current 
services it provides?
    The worst case scenario for SIHC is that it remains at its current 
location in Alpine. There is no risk or downside to the new agreements 
for SIHC. SIHC is not required to move out of its current facilities 
until a new clinic is fully built and equipped to its satisfaction. As 
such, current services will not be adversely impacted even if the 
casino never opens or fails. If the casino is realized, however, the 
upside for SIHC is very substantial. SIHC would get a comprehensive 
building, a new clinic, and annual payments from Cuyapaipe for many 
years.

    8. In the agreement, you are promised certain amounts of revenue 
from the Cuyapaipe over the next 35 years. How do you plan to use this 
money?
    The SIHC Board will determine based on short and long-term planning 
how to allocate amounts received from Cuyapaipe. The funds will 
certainly be used to maintain, improve, and increase the services 
offered through SIHC, consistent with its mission of providing quality 
health care for Indians of the SIHC consortium and its service area.

    9. Have any of the other tribes approached the SIHC with proposals 
for improvement of health care services through building improvements, 
increased funds, etc?
    No.

    10. When was the most recent SIHC vote regarding the relinquishment 
of the lease and what was the result of that vote?
    The most recent vote was on December 18, 2000. On that date, the 
SIHC Board passed a resolution by a vote of four in favor and one 
abstention to reaffirm a prior resolution dated July 10, 2000 approving 
the agreements with Cuyapaipe.

    11. Were the board members of the SIHC aware that at the December 
18 meeting that a vote on the relinquishment of the lease was to be 
held?
    Yes, pursuant to SIHC Bylaws a 30-day notice was given.

    12. It is our understanding that the SIHC is composed of one 
representative from each of the seven tribes. Do you feel that each 
tribe is adequately represented on the board? Statements have been made 
that the opinions of all seven tribes have not been taken into account 
regarding this matter - do you feel this is true - please elaborate.
    The SIHC Board is comprised of a member (and an alternate) from 
each of the seven consortium tribes. Each consortium tribe selects its 
director. As such, each consortium tribe is equally represented on the 
SIHC Board. We add that this matter being addressed by the House 
Committee was deliberated by SIHC for approximately five years and that 
all consortium tribes had ample opportunity to comment upon and discuss 
the proposal through their representative on the Board.

    13. According to the SIHC bylaws, do the tribes have any right of 
representation to the board other than the representatives sent to the 
board by each tribe?
    No, each tribe is fully represented by appointing a representative 
to the Board.

    14. What is the major opposition to the lease relinquishment 
agreement?
    The only opposition that SIHC is aware of is the opposition that 
has been expressed to the House Committee on Resources. This opposition 
appears to be motivated by gaming considerations and an attempt to 
limit casino competition in San Diego County.

    15. In Mr. Garcia's testimony, he mentions that the SIHC made a 
request for land on the Viejas reservation prior to the acquisition of 
the current site in Alpine and that this request was refused. If this 
is true - please provide details regarding this request for land. Were 
other tribes asked for land?
    Current SIHC staff is unable to locate documents to specifically 
verify Mr. Garcia's statements. However, we can confirm that SIHC Board 
members were given an opportunity to propose alternatives to acquiring 
the original land in Alpine. None did so. The Board therefore decided 
to locate the clinic at its current site in Alpine.

    We hope that these responses are helpful to the Committee.
                                 ______
                                 

                                   - 

</pre></body></html>
